                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              STRENGTHENING EFFORTS TO ASSESS AND
                                              ACCOUNT FOR STUDENTS WITH COGNITIVE
                                              DISABILITIES WOULD HELP JOB CORPS
                                              ACHIEVE ITS MISSION




                                                                    Date Issued: November 3, 2005
                                                                    Report Number: 09-06-001-03-370
U.S. Department of Labor                                    November 2005
Office of Inspector General
Office of Audit                                             STRENGTHENING EFFORTS TO ASSESS AND
                                                            ACCOUNT FOR STUDENTS WITH COGNITIVE

BRIEFLY…                                                    DISABILITIES WOULD HELP JOB CORPS ACHIEVE ITS
                                                            MISSION
Highlights of Report Number: 09-06-001-03-370, to the
Assistant Secretary, Employment and Training.               WHAT OIG FOUND
November 3, 2005
                                                            We found: (1) Job Corps should strengthen efforts to
WHY READ THE REPORT                                         identify students with unknown or undisclosed cognitive
                                                            disabilities; (2) assessing all Job Corps students for
This report discusses why we found that improving           cognitive disabilities would improve student outcomes
efforts to assess and account for students with unknown     but increase program costs; (3) Federal law requires
or undisclosed cognitive disabilities would help Job        assessment under specific circumstances and Job
Corps achieve its mission to teach eligible young adults    Corps had not ensured compliance; and (4) Job Corps
the skills they need to become employable and               cognitive disability data were not reliable.
independent and help them secure meaningful jobs or
opportunities for further education.                        WHAT OIG RECOMMENDED

                                                            We recommended the Assistant Secretary for
WHY OIG DID THE AUDIT                                       Employment and Training require that Job Corps
                                                            strengthen efforts to identify students with unknown or
                                                            undisclosed cognitive disabilities. Our recommendations
The Office of Inspector General (OIG), Office of Audit,
                                                            include: conduct a pilot program to develop appropriate
conducted a performance audit to evaluate Job Corps’
                                                            screening and formal evaluation methodology and
processes for assessing students for unknown or
                                                            assess the impact on performance and costs; then
undisclosed cognitive disabilities, such as learning
                                                            implement national policies and procedures as
disabilities, attention deficit hyperactivity disorder
                                                            appropriate. Other recommendations included: ensure
(ADHD), mental retardation, and traumatic brain injury.
                                                            center schools subject to legislation requiring cognitive
We conducted this audit because Job Corps students
                                                            disability assessment comply with such requirements
are at high risk for cognitive disabilities. National and
                                                            and ensure cognitive disabled student data submitted by
regional studies suggest certain characteristics are
                                                            centers are accurate and complete.
prevalent in both cognitively disabled youth and Job
Corps’ student population. Such characteristics include
                                                            ETA management did not agree with the
– economically disadvantaged, high school drop out,
                                                            recommendations related to the pilot program. ETA
below eighth grade reading level, and never held a full-
                                                            management stated that a Job Corps pilot program was
time job. Therefore, we conducted an audit to
                                                            not acceptable because (1) it may not benefit, and could
determine (1) if Job Corps should strengthen its efforts
                                                            potentially stigmatize, students and (2) no legislation
to identify students with unknown or undisclosed
                                                            requires screening/assessing all students specifically for
cognitive disabilities; (2) what impact an improved
                                                            cognitive disabilities in public or alternative schools or
assessment process would have on student outcomes
                                                            training programs.
and program cost; (3) if Federal law requires Job Corps
to assess students for cognitive disabilities, and if so,
                                                            The OIG is not convinced cognitive disability
whether Job Corps has an effective process to ensure
                                                            identification and accommodation is harmful and
compliance with the law; and (4) if Job Corps’ data on
                                                            could potentially stigmatize students and act as a
student cognitive disabilities are reliable.
                                                            disincentive to participating in the program.
                                                            Additionally, Job Corps has a responsibility to go
READ THE FULL REPORT                                        beyond what the public school systems are required
                                                            to do in this area because it is a Federally funded
To view the report, including the scope, methodology,       residential program and the student population
and full agency response, go to:                            generally consists of high school dropouts.

http://www.oig.dol.gov/public/reports/oa/2006/09-001-03-    ETA management neither agreed nor disagreed with
370.pdf.                                                    the OIG’s remaining recommendations. However,
                                                            Job Corps’ planned or implemented corrective
                                                            actions meet the intent of those recommendations.
                                                                              Strengthening Efforts to Assess and Account for
                                                                                          Students with Cognitive Disabilities
                                                                                    Would Help Job Corps Achieve Its Mission



   Table of Contents
                                                                                                                                PAGE

   EXECUTIVE SUMMARY ........................................................................................................ 3

   ASSISTANT INSPECTOR GENERAL’S REPORT .............................................................. 13

       Job Corps Should Strengthen Efforts to Identify Students with Unknown or
       Undisclosed Cognitive Disabilities .............................................................................. 15

       Assessing All Job Corps Students for Cognitive Disabilities Would Improve
       Student Outcomes But Increase Program Costs ........................................................ 26

       Federal Law Requires Assessment Under Specific Circumstances and Job Corps
       Had Not Ensured Compliance....................................................................................... 31

       Job Corps Cognitive Disability Data Were Not Reliable............................................. 36

   EXHIBITS.............................................................................................................................. 41

       A. Studies Support Cognitive Disability Assessment ............................................... 43

       B. Comparison of Reported to Documented Cognitive Disability Data .................. 45

       C. Job Corps Students with Cognitive Disabilities at 11 Center Schools................ 47

       D. Center School Responses to OIG Survey Questions............................................ 49

   APPENDICES ....................................................................................................................... 53

       A. Background .............................................................................................................. 55

       B. Objectives, Scope, Methodology, and Criteria ...................................................... 57

       C. Acronyms and Abbreviations.................................................................................. 63

       D. Agency Response to Draft Report .......................................................................... 65




U.S. Department of Labor—Office of Inspector General                                                                                           1
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                                 U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                             Strengthening Efforts to Assess and Account for
                                                                         Students with Cognitive Disabilities
                                                                   Would Help Job Corps Achieve Its Mission




   Executive Summary
   We conducted a performance audit to evaluate Job Corps’ processes for assessing
   students for unknown or undisclosed cognitive disabilities, such as learning disabilities,
   attention deficit hyperactivity disorder (ADHD), mental retardation, and traumatic brain
   injury.1 We conducted this audit because Job Corps students are at high risk for
   cognitive disabilities. National and regional studies suggest certain characteristics are
   prevalent in both cognitively disabled youth and Job Corps’ student population. Such
   characteristics include – economically disadvantaged, high school drop out, below
   eighth grade reading level, and never held a full-time job.

   Job Corps management have acknowledged that the program’s student population is at
   high risk for cognitive disabilities. In 2003, Job Corps reported that cognitive disabilities
   seriously impair many Job Corps students. Job Corps also reported that the national
   increase of students with cognitive disabilities had a direct impact on the program, as it
   is likely that a disproportionate number of individuals with cognitive disabilities enroll in
   alternative training programs due to high failure rates in the public school sector and
   high unemployment rates.

   Job Corps’ mission includes teaching eligible young adults the skills they need to
   become employable and independent and help them secure meaningful jobs or
   opportunities for further education. Job Corps’ purpose is similar; it is to help America’s
   economically disadvantaged youth break down the many barriers to employment. To
   achieve this, Job Corps formally assesses each new student and provides vocational,
   academic and life skills training tailored to the student’s individual needs. When a
   cognitive disability is discovered during this process, Section 504 of the Rehabilitation
   Act of 1973 (Section 504) requires Job Corps to provide reasonable accommodation.2
   Job Corps’ Technical Assistance Guide: Learning Disabilities and Attention Deficit
   Hyperactive Disorder (TAG G), dated April 2003, provides center guidance on providing
   such accommodation. However, unknown or undisclosed cognitive disability remains a
   barrier to effective training and long-term employment.

   In program year (PY) 2002, Job Corps provided basic education, vocational and life
   skills training, and room and board services to approximately 65,000 youth at 118
   centers nationwide.

   We conducted the audit to answer the following questions:



   1
     Job Corps includes learning disabilities, ADHD, traumatic brain injuries, and mental retardation in the
   program’s definition of cognitive disabilities. We use Job Corps’ definition throughout this report.
   2
     See Section 504 regulations at 29 C.F.R. 32.3 (defining "reasonable accommodation") and 29 C.F.R.
   37.8 ("responsibilities regarding reasonable accommodation").

U.S. Department of Labor—Office of Inspector General                                                           3
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

       1. Should Job Corps strengthen efforts to identify students with unknown or
          undisclosed cognitive disabilities?

       2. What impact would an improved assessment process have on student outcomes
          and program costs?

       3. Does Federal law require Job Corps to assess students for cognitive disabilities?
          If so, does Job Corps have an effective process to ensure compliance?

       4. Are Job Corps’ data on student cognitive disabilities reliable?

    Results

    We found that improving efforts to assess and account for students with unknown or
    undisclosed cognitive disabilities would help Job Corps achieve its overall mission but
    increase costs. Although Job Corps is not legislatively required to specifically assess all
    students for cognitive disabilities, doing so would help Job Corps achieve the program’s
    overall mission and purpose. Job Corps’ student population is at high risk for cognitive
    disabilities. Effective identification and accommodation would address significant
    barriers to employment and improve the program’s student outcomes. Our specific
    audit results and findings include:

       1. Job Corps should strengthen efforts to identify students with unknown or
          undisclosed cognitive disabilities.

       2. Assessing all Job Corps students for cognitive disabilities would improve student
          outcomes but increase program costs.

       3. Federal law requires assessment under specific circumstances and Job Corps
          had not ensured compliance.

       4. Job Corps cognitive disability data were not reliable.

    Job Corps Should Strengthen Efforts to Identify Students with Unknown or Undisclosed
    Cognitive Disabilities

    Job Corps should strengthen efforts to identify students with cognitive disabilities
    through systematic screening of all students and formal evaluation when screening
    indicates a potential cognitive disability. Job Corps’ national policy states that the
    program’s formal student assessment process is not intended to identify cognitive
    disabilities. As such, students with unknown or undisclosed cognitive disabilities may
    not have been identified.

    Job Corps reported that about 4 percent of its student population had cognitive
    disabilities during PY 2002. Incident rate data included in studies conducted by the

4                                                 U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   ETA, U.S. Department of Health and Human Services (DHHS), and U.S. Department of
   Education (ED) suggest that Job Corps’ incident rate should be higher. Actual and
   estimated incident rates from these studies ranged from a low of 7 percent to a high of
   23 percent. For example, ED reported in 2002 that 7 percent of children ages 6-17
   were cognitively disabled (specific learning disability, mental retardation, or traumatic
   brain injury). We believe that it is reasonable to assume that Job Corps’ student
   population, being at high risk for cognitive disabilities, would have a higher incident rate
   than ED’s population of all school age children.

   Unidentified cognitive disabilities can have an adverse affect on Job Corps students.
   These students may not receive instruction or accommodations appropriate to their
   specific disability. The likelihood that these students were not successful at Job Corps
   increased because the cause for prior academic or behavioral problems were not
   identified nor addressed.

   Job Corps did not emphasize identifying students with unknown or undisclosed
   cognitive disabilities because program management believed (1) the existing student
   assessment process adequately identified each student’s individual training needs and
   (2) the program’s individualized and self-paced program addressed the needs of
   cognitive disabled students, even if the students’ disabilities were unknown or
   undisclosed. Job Corps management also believed that the associated resource needs
   and costs would be prohibitive. Based on our audit work discussed throughout this
   report, we concluded that identifying and accommodating students with unknown or
   undisclosed disabilities would improve the existing student assessment and training
   processes. The potential impact on student outcomes and program costs are
   addressed in the following section.

   Assessing all Job Corps Students for Cognitive Disabilities Would Improve Student
   Outcomes and Increase Program Costs

   Assessing all Job Corps students for cognitive disabilities would improve student
   outcomes but increase program costs. The degree to which performance outcomes
   would improve cannot be projected because outcomes data for Job Corps students with
   cognitive disabilities were not widely tracked. However, national and regional studies
   cited in this report suggest student outcomes would improve with effective identification
   and accommodation. Disability specific training and coping skills can be provided that
   would increase the student’s ability to complete the program and obtain long-term
   employment. However, the costs to assess all students could be substantial. Low cost
   screening tools for identifying students with potential cognitive disabilities are available
   and used at some centers. Formal evaluation costs at these centers varied significantly
   based on the availability of qualified individuals to perform the formal assessments.
   Formal evaluation costs incurred by Job Corps at 11 centers we surveyed ranged from
   $0 at a center where a psychologist was paid by the county school district to $600 per
   formal evaluation at a center paying an off-center psychologist.



U.S. Department of Labor—Office of Inspector General                                                 5
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

    One center we reviewed showed the value of identifying and accommodating specific
    cognitive disabilities. This center tracked performance outcomes after implementing a
    comprehensive cognitive disability assessment program in PY 1993. Prior to PY 1993,
    the center reported 30 percent of the students identified with cognitive disabilities
    obtained high school diplomas or GED certificates. That rate increased to an average
    of 68 percent during PY 1993 through 2003. The additional costs to the center were
    minimal. Low cost screening tools ($200-$300 annual center costs) were used to
    identify students with potential cognitive disabilities. The special education teacher’s
    salary and formal diagnostic costs were paid by the local school district.

    Despite this center’s apparent success, Job Corps management’s concerns about
    additional resource needs and costs are valid. Special education staff are not employed
    by all centers and formal evaluation costs could be substantial. However, we are not
    suggesting that all students be formally evaluated. Doing so would be cost prohibitive.
    Instead, we are suggesting that those students who are identified as possibly cognitively
    disabled during the screening process be formally evaluated.

    We estimated the additional costs to Job Corps in PY 2002 if additional students were
    formally evaluated for cognitive disabilities. If an additional 3 percent of Job Corps’
    65,000 students were formally evaluated at $600 per student, the total additional cost to
    Job Corps would have been at least $1.2 million (1,950 x $600). If an additional 9
    percent of Job Corps’ 65,000 students were formally evaluated at $600 per student, the
    total additional cost to Job Corps would have been at least $3.5 million (5,850 x $600).

    Federal Law Requires Assessment Under Specific Circumstances and Job Corps Had
    Not Ensured Compliance

    Job Corps is not required by Federal law to assess all enrolled students for cognitive
    disabilities. However, Job Corps must assess students under specific circumstances
    defined in the Individuals with Disabilities Education Act Amendments of 1997 (IDEA) or
    Section 504 and the implementing regulations. Specifically, certain Job Corps centers
    that operate high school diploma programs (center schools) are required to assess
    students enrolled in the center schools for cognitive disabilities. Center schools subject
    to this requirement include (1) public secondary schools administered by a local
    education agency (i.e., school district or board), (2) public charter schools, and (3)
    public or private schools receiving ED funds.

    Furthermore, we found that Job Corps management had not developed processes to
    identify center schools subject to the legislation and ensure compliance. An effective
    compliance process is needed because Job Corps is actively increasing high school
    diploma opportunities for its students. During our review, we identified three existing
    center schools that are likely to be subject to IDEA or Section 504’s provisions for
    assessing students for cognitive disabilities. This occurred because Job Corps
    management was not aware certain provisions of the statutes could apply to Job Corps.
    Noncompliance with these Federal statutes increases the risk that students with


6                                                 U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   cognitive disabilities are not identified and provided accommodations to help ensure
   program completion and long-term employment.

   Cognitive Disability Data Were Not Reliable

   Job Corps’ data on students with cognitive disabilities were not reliable. Data we tested
   from 14 centers were not adequately supported for 67 percent of the students reported
   as cognitively disabled and separated from Job Corps in PY 2002. This occurred
   because Job Corps management had not placed adequate emphasis on ensuring
   cognitive disability data reliability. As such, they had not established effective
   processes to ensure cognitive disability data reported by centers were accurate and
   complete. Inaccurate or incomplete data adversely affects Job Corps’ ability to
   (1) evaluate existing efforts to identify cognitively disabled students and address their
   needs, (2) provide timely resources and services to centers in need, and (3) develop
   strategies to assist cognitively disabled students to successfully complete the program
   and obtain meaningful employment.

   Job Corps modified their disability data collection system during the audit to address
   some of the process weaknesses we identified. This included issuing revised policy and
   procedures that clearly state that centers are required to submit disability data and
   develop tracking systems to ensure accurate and complete data.

   Subsequent to completion of our audit work, Job Corps management informed us that
   they had developed draft revisions to the PRH that include written procedures defining
   the specific disabilities Job Corps will account for and the related documentation
   requirements. Additionally, they said that procedures to review reported data on a
   monthly basis and to follow up when centers report inaccurate data had been
   implemented.

   Recommendations

   We recommend the Assistant Secretary for Employment and Training require Job Corps
   management to strengthen the program’s efforts to identify students with unknown or
   undisclosed cognitive disabilities. This should include requiring Job Corps to:

       1. Conduct a pilot program to develop appropriate screening and formal evaluation
          methodology and assess the impact on performance and costs before
          implementing national policies and procedures.

       2. Based on the pilot program’s results, develop and implement national policies
          and procedures as needed to screen all students for cognitive disabilities and
          obtain formal evaluations when screening indicates a potential cognitive
          disability.

       3. Monitor compliance with any new policies and procedures.

U.S. Department of Labor—Office of Inspector General                                                 7
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission



       4. Identify center schools subject to the student assessment provisions of IDEA and
          Section 504.

       5. Ensure center schools comply with legislative requirements to identify, evaluate,
          and provide special education to students with cognitive disabilities.

       6. Establish criteria for identifying and reporting cognitively disabled students.

       7. Ensure cognitively disabled student data submitted by centers are accurate and
          complete.

       8. Implement a concise and systematic process for effectively communicating to
          centers Job Corps policy and procedures for recording, tracking, and reporting
          student cognitive disability data.

    Agency Response

    ETA management did not agree with recommendations 1-3. While ETA management
    stated that strengthening Job Corps’ cognitive disability assessment process was
    important, they also stated that Job Corps should not launch a pilot program that may
    not benefit and could potentially stigmatize students and act as a disincentive to
    participating in the program. ETA management stated that Job Corps is currently
    identifying students with cognitive disabilities using a process that is comparable to the
    process used in public school systems and that is philosophically in line with IDEA.
    Additionally, ETA management stated that they did not accept recommendations 1-3
    because neither IDEA nor Section 504 require the screening/assessment of all students
    specifically for cognitive disabilities, either for those in the public school systems or
    those in alternative education and training programs such as Job Corps.

    Further, ETA management stated in the response the OIG did not evaluate any
    screening tools, and that the primary screening tool referenced by the OIG has no
    strong scientific research base and was designed to be used on a voluntary basis with a
    different population than Job Corps’ population. ETA provided an alternative screening
    tool that was developed for adult use with community colleges and university students
    as a simple way to help professionals identify those adults who are likely to have
    learning disabilities and should be referred for diagnostic assessment.

    While ETA management neither agreed nor disagreed with recommendations 4-8,
    ETA’s response stated that the OIG’s recommended approach would exceed the
    requirements to which public schools are subject under IDEA. Nonetheless, Job Corps
    has implemented or planned the following actions to address the issues raised in the
    report:



8                                                 U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

       •   Improve Job Corps annual survey of centers to better identify centers that might
           be subject to IDEA or Section 504 requirements.

       •   Establish policies that:

           -   describe the entities required to assess students for cognitive disabilities
               under IDEA and those required to assess students under Section 504;

           -   require centers that might meet any of the criteria under IDEA or Section 504
               to confirm their status and the required processes to provide assessments for
               students with undisclosed cognitive disabilities, and special education
               services;

           -   require centers, subject to IDEA or Section 504 requirements, to document
               their processes for providing student assessments and special education for
               students in their center training plans;

           -   provide a tool to assist centers in determining and maintaining their
               compliance status; and

           -   describe how Job Corps Regional Offices will monitor center compliance
               through regularly scheduled center assessments.

       •   Revise the current standard request for proposals (RFP) to operate Job Corps
           centers, so that the RFP specifies that operators must assure that centers
           subject to the requirements of IDEA and Section 504 have processes in place to
           identify, evaluate, and provide special education to students with cognitive
           disabilities.

       •   Provide center staff with criteria and additional information for identifying students
           with cognitive disabilities.

       •   Develop a formal data audit system and require center/contractors to be more
           accountable for the accuracy of data.

       •   Conduct targeted assessments at 10-15 centers to examine why centers have
           problems with entry/accuracy and how data collection practices can be improved.

       •   Issue a user’s guide on disability data collection.

   The complete text of ETA’s response is provided in Appendix D of this report.




U.S. Department of Labor—Office of Inspector General                                                 9
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission



     OIG Conclusion

     Based on ETA’s response, recommendations 1-3 remain unresolved. The OIG is not
     convinced cognitive disability identification and accommodation is harmful and could
     potentially stigmatize students and act as a disincentive to participating in the program.
     While we identified several low cost screening tools already used by some Job Corps
     Centers, we did not evaluate their effectiveness. Therefore, we recommend that Job
     Corps conduct a pilot program to develop an appropriate screening and formal
     evaluation methodology and assess both its program and cost effectiveness. Any pilot
     program would necessarily include an assessment of the efficacy of the screening and
     evaluation tools tested. ETA’s response indicates that Job Corps management has
     already reviewed current research on assessment of learning disabilities. The OIG
     believes this work can serve as a foundation for the pilot program we recommend.

     We also disagree with Job Corps’ assertion that students with cognitive disabilities are
     currently identified using a process that is comparable to the process used in public
     school systems and that is philosophically in line with IDEA. In determining whether a
     child has a specific learning disability, IDEA includes scientific, research-based
     intervention as an integral part of the evaluation process. In contrast, Job Corps uses
     such measures as an alternative evaluation approach. Disability identification and
     accommodation remain significant components of IDEA and Section 504.

     Additionally, under IDEA and Section 504, students enrolled in public school systems
     are generally entitled to cognitive disability assessment at public expense and at no cost
     to the parents. While Job Corps encourages centers to help students secure formal
     testing, the students and their parents are ultimately responsible to secure and fund
     formal testing. The OIG does not believe this Job Corps policy is consistent with IDEA
     nor public school practices.

     In response to ETA’s statement that the approach recommended by the OIG exceeds
     what public schools are subject to under IDEA, the OIG notes that Job Corps is a
     Federally funded residential program whose student population generally consists of
     youth who have dropped out of the public school systems (77 percent in PY 2001). To
     be eligible for Job Corps, youth must possess one or more of five barriers to
     employability, three of which (basic skills deficient, school dropout, or need for
     additional education, training or services to participate successfully in regular
     schoolwork or secure and hold employment) specifically relate to the youth’s lack of
     success in school, which may reflect cognitive disabilities. The OIG therefore believes
     that Job Corps has a responsibility to go beyond what the public school systems are
     required to do in this area by ensuring students with cognitive disabilities learn to
     manage their disability and overcome barriers to self sufficiency and long-term
     employment. The OIG believes it is in the interest of both the students and public policy
     to study whether additional funds spent on identifying and mitigating student cognitive


10                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   disabilities will improve the return on Job Corps’ investment by increasing students’
   future employment, retention, and earnings.

   Further, the OIG did not reference a primary screening tool as asserted by ETA. We
   provided information regarding various screening tools to illustrate that free and low
   cost screening tools are available and already in use by Job Corps centers and others.
   As noted in our discussion, we did not evaluate the effectiveness of the tools discussed
   nor did we recommend a particular tool. We suggested that Job Corps evaluate
   available screening tools and incorporate the screening tools most appropriate for Job
   Corps’ student population. The OIG notes that the alternative screening tool provided in
   ETA’s response was also designed to be used with a different population than Job
   Corps’ population. However, if Job Corps determines that this particular screening tool
   should be used during the student assessment process, policies and procedures
   indicating such would meet the intent of OIG recommendations 1-3. The OIG believes
   that evaluating this screening tool during a pilot program would be an effective means of
   determining whether it is appropriate for Job Corps’ student population.

   ETA’s response and Job Corps’ actions currently in progress or planned will meet the
   intent of recommendations 4-8. Therefore, we consider recommendations 4-8 resolved.
   To close these recommendations, ETA needs to provide documentation of the
   corrective actions taken.




U.S. Department of Labor—Office of Inspector General                                                11
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                              Strengthening Efforts to Assess and Account for
                                                                          Students with Cognitive Disabilities
                                                                    Would Help Job Corps Achieve Its Mission


   U.S. Department of Labor                              Office of Inspector General
                                                         Washington, DC 20210




                                Assistant Inspector General’s Report


   Ms. Emily Stover DeRocco
   Assistant Secretary for Employment and Training
   U.S. Department of Labor
   200 Constitution Ave., N.W.
   Washington, D.C. 20210

   The Office of Inspector General, Office of Audit, conducted a performance audit of Job
   Corps’ processes for assessing students for unknown or undisclosed cognitive
   disabilities, such as learning disabilities, attention deficit hyperactivity disorder (ADHD),
   mental retardation, and traumatic brain injury.3 Specifically, we performed our work to
   address the following questions:

       1. Should Job Corps strengthen efforts to identify students with unknown or
          undisclosed cognitive disabilities?

       2. What impact would an improved assessment process have on student outcomes
          and program costs?

       3. Does Federal law require Job Corps to assess students for cognitive disabilities?
          If so, does Job Corps have an effective process to ensure compliance?

       4. Are Job Corps’ data on student cognitive disabilities reliable?

   We found that improving efforts to assess and account for students with unknown or
   undisclosed cognitive disabilities would help Job Corps achieve its overall mission but
   increase costs. Although Job Corps is not legislatively required to specifically assess
   all students for cognitive disabilities, doing so would help Job Corps achieve the
   program’s overall mission and purpose. Job Corps’ student population is at high risk for
   cognitive disabilities. Effective identification and accommodation would address
   significant barriers to employment and improve the program’s student outcomes. Our
   specific audit results and findings include:



   3
    Job Corps includes learning disabilities, ADHD, traumatic brain injuries, and mental retardation in the
   program’s definition of cognitive disabilities. We use Job Corps’ definition throughout this report.

U.S. Department of Labor—Office of Inspector General                                                          13
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

        1. Job Corps should strengthen efforts to identify students with unknown or
           undisclosed cognitive disabilities.

        2. Assessing all Job Corps students for cognitive disabilities would improve student
           outcomes but increase program costs.

        3. Federal law requires assessment under specific circumstances and Job Corps
           had not ensured compliance.

        4. Job Corps cognitive disability data were not reliable.

     We conducted the audit in accordance with generally accepted government auditing
     standards for performance audits. Our audit scope, methodology, and criteria are
     detailed in Appendix B.




14                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   Objective 1 - Should Job Corps strengthen efforts to identify students with unknown or
   undisclosed cognitive disabilities?

   Results and Findings

   Job Corps should strengthen efforts to identify students with unknown or undisclosed
   cognitive disabilities through systematically screening all students and formally
   evaluating them when screening indicates a potential cognitive disability. Job Corps’
   student population is at high risk for cognitive disabilities. Similarity in the
   characteristics of youth with cognitive disabilities and Job Corps’ student population
   suggest that a disproportionate number of students with cognitive disabilities enroll in
   the program. Despite the high-risk population, Job Corps’ national policy states that the
   program’s formal student assessment process is not intended to identify cognitive
   disabilities. As such, students with unknown or undisclosed cognitive disabilities may
   not have been identified effectively.

   Job Corps reported that about 4 percent of its student population had cognitive
   disabilities during PY 2002. Incident rate data included in studies conducted by the
   ETA, U.S. Department of Health and Human Services (DHHS), U.S. Department of
   Education (ED), and others suggest that Job Corps’ incident rate should be higher.
   Actual and estimated incident rates from these studies ranged from a low of 7 percent to
   a high of 23 percent.

   Unidentified cognitive disabilities can have an adverse affect on Job Corps students.
   These students may not receive instruction or accommodations appropriate to their
   specific disability. The likelihood that these students were not successful at Job Corps
   increased because the causes for prior academic or behavioral problems were not
   identified nor addressed.

   Job Corps did not emphasize identifying students with unknown or undisclosed
   cognitive disabilities because program management believed (1) the existing student
   assessment process adequately identified each student’s individual training needs and
   (2) the program’s individualized and self-paced program addressed the needs of
   cognitive disabled students, even if the students’ disabilities were unknown or
   undisclosed. Based on our review of national and regional studies and cognitive
   disability research reported in Job Corps center guidance, we concluded that identifying
   and accommodating students with unknown or undisclosed disabilities would improve
   the existing student assessment and training processes. Program management also
   believed that the associated resource needs and costs would be prohibitive. The
   potential impact on student outcomes and program costs are addressed in the Objective
   2 section of this report.

   In PY 2002, Job Corps provided basic education, vocational and life skills training, and
   room and board services to approximately 65,000 youth, ages 16 through 24, at 118
   centers nationwide. The typical Job Corps student is a high school dropout who reads

U.S. Department of Labor—Office of Inspector General                                                15
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     at slightly below the 8th grade level, comes from an economically disadvantaged family,
     belongs to a minority group, and has never held a full-time job.

     The Job Corps program is authorized by the Workforce Investment Act of 1998 (WIA).
     Job Corps operating costs totaled $1.3 billion for PY 2002 and $1.5 billion for PY 2003.

     Cognitive Disability Assessment Supports Job Corps’ Mission and Purpose

     Systematically assessing all students for cognitive disabilities supports Job Corps’
     mission and purpose. However, Job Corps policy does not specifically require such
     assessments and Job Corps regional office and individual center practices differed.

     Job Corps’ mission is to attract eligible young adults, teach them the skills they need to
     become employable and independent and help them secure meaningful jobs or
     opportunities for further education. Job Corps’ purpose is similar; it is to help America’s
     economically disadvantaged youth break down the many barriers to employment. To
     achieve its mission and purpose, Job Corps formally assesses each new student and
     provides vocational, academic and life skills training tailored to the student’s individual
     needs. When a cognitive disability is disclosed during this process, the center is
     required by Federal law to provide reasonable accommodation.4 Job Corps’ Technical
     Assistance Guide: Learning Disabilities and Attention Deficit Hyperactive Disorder (TAG
     G), dated April 2003, provides center guidance on providing such accommodation.
     However, unknown or undisclosed cognitive disabilities remain a barrier to effective
     training and long-term employment.

     Job Corps’ Policy and Requirements Handbook (PRH) details the program’s student
     assessment process. To assess each student’s interests and needs, Job Corps center
     staff interview the student, evaluate academic competency using the Tests of Adult
     Basic Education (TABE), and review academic, medical, and counseling intake records.
     Formal assessment tools are also used to identify personal history, personal and legal
     issues, career aspirations, and post-center plans. However, none of these tools is
     specifically designed to identify potential cognitive disabilities. The following chart
     summarizes Job Corps’ student assessment process.




     4
      See Section 504 regulations at 29 C.F.R. 32.3 (defining "reasonable accommodation") and 29 C.F.R.
     37.8 ("responsibilities regarding reasonable accommodation").

16                                                   U.S. Department of Labor—Office of Inspector General
                                                                         Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

                                           Chart 1
                                 Student Assessment Process

                                           Staff create          Classes and           Center support
                       Student
   New student                             Personal              activities            system
                       assessed per
   arrives at                              Career                noted in PCDP         developed to
                       PRH detailed
   center                                  Development           are scheduled         address
                       process
                                           Plan (PCDP)                                 individual needs

   Source: Job Corps PRH

   As indicated, Job Corps does not specifically require student assessment for unknown
   or undisclosed cognitive disabilities. As such, Job Corps regional office and individual
   center practices differed. For example, Job Corps’ Atlanta regional office evaluated
   cognitive disability assessment practices during PY 2002-2003 on-site center reviews.
   The Atlanta regional office reported that 8 of the 19 centers did not have a system to
   effectively identify students with cognitive disabilities. The region recommended
   implementing such systems. Atlanta regional management said that they believed that
   identifying and accommodating cognitive disabled students was critical to addressing
   students’ individual needs. In contrast, the San Francisco regional office did not
   evaluate cognitive disability assessment practices during PY 2002-2003 on-site center
   reviews because the PRH did not specifically require it.

   Job Corps Students Are High Risk and Cognitive Disabilities May Not Have Been
   Identified

   National and regional studies suggest that (1) Job Corps’ student population is at high
   risk for cognitive disabilities and (2) students with cognitive disabilities may not have
   been identified.

   Job Corps Student Population Is at High Risk for Cognitive Disabilities

   Similarity in the characteristics of cognitive disabled youth and Job Corps’ student
   population suggest that a disproportionate number of cognitive disabled youth enroll in
   the program. National and regional studies suggest that these characteristics –
   economically disadvantaged, high school dropout, below eighth grade reading level,
   never held a full-time job – are prevalent among both cognitive disabled youth and Job
   Corps’ student population. For example:




U.S. Department of Labor—Office of Inspector General                                                17
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

         •   High school dropouts – During school year 2000-01, an estimated 27 percent of
             students with learning disabilities dropped out of high school.5 The 2001 dropout
             rate for the total U.S. high school population was about 11 percent.6

         Approximately 77 percent of Job Corps’ PY 2001 students were high school
         dropouts.7 In 2003, Job Corps’ largest contracted center operator, Management and
         Training Corporation (MTC), conducted a Job Corps study. MTC reported that the
         overrepresentation of individuals with learning difficulties among those with less than
         a high school diploma was likely to create similar overrepresentation in Job Corps
         classrooms, often designed to serve high school dropouts.8

         •   Economically disadvantaged families – In 2004, the Department of Health and
             Human Services (DHHS) reported that an estimated 13 percent of children in
             families with annual income less than $20,000 had learning disabilities. This
             compares to 6 percent for families with annual income over $75,000.9 Low
             income is a requirement for Job Corps eligibility. A student from a family of four
             must have an annual family income less than $18,100 to be eligible for Job
             Corps.

             In 2003, an ED commissioned study reported that lower-income youth with
             disabilities are less likely than upper-income youth to have had those disabilities
             identified at early ages. In addition, lower-income youth are significantly less
             likely than upper-income youth to have had their parents be the first to recognize
             their disabilities. Thus, professionals and school staff play a particularly
             prominent role for lower-income youth in recognizing that they have disabilities.10

         •   Unemployment – In 2002, the President’s Commission on Excellence in Special
             Education reported that adults with disabilities are much less likely to be
             employed than adults without disabilities. Unemployment rates for working-age
             adults with disabilities have hovered at the 70 percent level for at least the past
             12 years.11

     5
        U.S. Government Accountability Office, Special Education: Federal Actions Can Assist States in
     Improving Postsecondary Outcomes for Youth, GAO-03-773 (Washington D.C.: July 31, 2003).
     6
       U.S. Department of Education, National Center for Education Statistics, The Condition of Education
     2003. NCES 2003-067 (Washington, DC: 2003).
     7
       Job Corps’ Annual Report for PY 2001.
     8
       During program year 2002, MTC was the contractor for 23 of Job Corps’ 118 centers.
     9
       Summary Health Statistics for U.S. Children: National Health Interview Survey, 2004, National Center
     for Health Statistics.
     10
        SRI International, The Individual and Household Characteristics of Youth with Disabilities - A report
     from the National Longitudinal Transition Study-2 (Washington, D.C.: U.S. Department of Education,
     Office of Special Education Programs, August 2003).
     11
        On October 2, 2001, President Bush ordered the creation of the President’s Commission on Excellence
     in Special Education. As part of the President’s charge to find ways to strengthen America’s commitment
     to educating children with disabilities, the Commission held 13 hearings and meetings throughout the
     nation and listened to the concerns and comments from parents, teachers, principals, education officials,
     and the public.

18                                                     U.S. Department of Labor—Office of Inspector General
                                                                           Report Number: 09-06-001-03-370
                                                            Strengthening Efforts to Assess and Account for
                                                                        Students with Cognitive Disabilities
                                                                  Would Help Job Corps Achieve Its Mission



        •   Increase in students classified with learning disabilities – In 2002, ED reported
            that between 1991 and 2001, the number of students classified as having a
            learning disability under IDEA increased 28 percent (from 2.2 to 2.8 million
            students).12

   Job Corps management has acknowledged that the program’s student population is at
   high risk for cognitive disabilities. In 2003, Job Corps reported that cognitive disabilities
   (learning disability or ADHD) seriously impair many Job Corps students. They also
   reported that the increasing number of students with cognitive disabilities in the national
   population had a direct impact on the program, as it is likely that a disproportionate
   number of individuals with learning disabilities or ADHD enroll in alternative training
   programs due to high failure rates in the public school sector and high unemployment
   rates.13

   Students with Cognitive Disabilities May Not Have Been Identified

   We found that Job Corps may not have identified students with cognitive disabilities.
   Disability data reported by Job Corps show that about 4 percent or 2,607 of 65,148
   students leaving Job Corps during PY 2002 had been identified as cognitively
   disabled.14 Incident rate data included in national and regional studies suggest that Job
   Corps’ incident rate should be significantly higher. These studies and data reported in
   Job Corps’ TAG G suggest that the 4 percent represented a significant under
   identification of students with cognitive disabilities. Actual and estimated incident rates
   from these studies ranged from 7 percent to 23 percent:

        •   In 1991, ETA studied whether a substantial proportion of persons in employment
            and training programs were learning disabled. ETA estimated that 15 to 23
            percent of all participants in employment and training programs were learning
            disabled.

        •   In 2002, a study published in Archives of Pediatrics and Adolescent Medicine,
            estimated that 7 to 16 percent of 19 year olds born in Rochester, Minnesota had
            ADHD.15 The average age of Job Corps students is 19.

        •   In 2002, ED reported that 7 percent of children ages 6-17 had a specific learning
            disability, mental retardation, or traumatic brain injury.


   12
      U.S. Department of Education’s 24th Annual Report to Congress on the Implementation of the
   Individuals with Disabilities Act, 2002.
   13
      Job Corps Technical Assistance Guide G: Learning Disabilities and Attention Deficit Hyperactive
   Disorder, April 2003.
   14
       PY 2002 was the only year with complete data during our audit.
   15
      Archives of Pediatrics and Adolescent Medicine, “How Common Is Attention-Deficit/Hyperactivity
   Disorder?”, 2002; 156: 217-224.

U.S. Department of Labor—Office of Inspector General                                                     19
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

          •   In 2003, Job Corps reported in its TAG G that as many as 40 to 50 percent of
              students enrolled in adult education and training programs have either learning or
              attention disabilities or both.

          •   In 2004, DHHS’ National Center for Health Statistics estimated that 8 percent of
              all children ages 3-17 had a learning disability and that 7 percent had ADHD.
              DHHS also estimated that 13 percent of children ages 3-17 in families with
              income of less than $20,000 had a learning disability.16

     The OIG recognizes that the Job Corps student population differs from the populations
     used in each of these studies. However, we believe the reported incident rates suggest
     that Job Corps students with unidentified or undisclosed cognitive disabilities may not
     have been identified. For example, ED reported in 2002 that 7 percent of children ages
     6-17 had a specific learning disability or mental retardation. The reported percentage is
     conservative because ADHD was not included. We believe that it is reasonable to
     assume that Job Corps’ student population, being at high risk for cognitive disabilities,
     would have a higher incident rate than ED’s population of all school age children.

     Identifying Students with Unknown or Undisclosed Cognitive Disabilities Was Not
     Emphasized

     Job Corps did not emphasize identifying students with unknown or undisclosed
     cognitive disabilities because program management believed (1) the existing student
     assessment process adequately identified each student’s individual training needs and
     (2) the program’s individualized and self-paced program addressed the needs of
     cognitive disabled students, even if the students’ disabilities were unknown or
     undisclosed. Based on our review of the national and regional studies cited above and
     the TAG G, we concluded that identifying and accommodating students with unknown
     or undisclosed disabilities would improve the existing student assessment and training
     processes. Program management also said that the associated resource needs and
     costs would be prohibitive. The potential impact on student outcomes and program
     costs are addressed in the Objective 2 section of this report.

     Student Assessments

     Job Corps management said that the existing student assessment process adequately
     identified each student’s individual training needs and additional assessments to identify
     cognitive disabilities would be cost prohibitive. Job Corps policy reflected
     management’s position that students with cognitive disabilities need not be identified.
     The PRH does not specifically require assessing for cognitive disabilities. Moreover,
     Job Corps’ TAG G, states that student assessments were not intended to identify the
     presence of specific learning disabilities. While centers were encouraged to help
     students secure formal testing, the guidance further states “it is ultimately the student’s
     16
       Summary Health Statistics for U.S. Children: National Health Interview Survey, 2004, National Center
     for Health Statistics

20                                                     U.S. Department of Labor—Office of Inspector General
                                                                           Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   responsibility to secure and fund such services.” When students could not pay for
   testing, center staff were instructed to refer students to vocational rehabilitation
   programs, local school systems, or private sources.

   Although the populations differ somewhat, several national and regional studies suggest
   that disability specific training, coping skills and/or treatment can be provided that will
   increase the student’s ability to complete the program and obtain long-term
   employment. The following conclusions were reported from a 1991 ETA sponsored
   study to determine whether a substantial proportion of individuals in employment and
   training programs were learning disabled, a 2001 New York DOL pilot program to
   identify job-training participants with learning disabilities, and 2003 ED guidance issued
   in response to IDEA:

       •   It is crucial to determine whether problems individuals have with basic academic
           tasks are learning disability-related to ensure the employment and training
           program serves the individuals appropriately. (ETA study)

       •   Individuals will be exposed to the same learning strategies, that have already
           proven unsuccessful, when the individuals’ learning disabilities are not taken into
           account. (ETA study)

       •   Individuals increase the likelihood of self-sufficiency when they learn how to
           manage a disability and overcome their barriers. (New York DOL Pilot Program)

       •   Identifying learning disabilities through screening and diagnostic testing are initial
           steps toward removing employment barriers. (New York. DOL Pilot Program)

       •   Evaluation is an essential part of the special education process for students with
           disabilities. Students are evaluated initially to see whether or not they have a
           disability and whether, because of that disability, they need special education
           and related services designed to address their special educational needs. (ED)

   (See Exhibit A for more details regarding the purpose and conclusions of the studies.)

   A 2003 ED report, Identifying and Treating ADHD: A Resource for School and Home,
   illustrates how identification of a student’s specific cognitive disability would improve the
   Job Corps support provided to the student. ED reviewed recent studies conducted to
   determine the most effective treatment for children diagnosed with ADHD. The studies
   ED cited concluded that a combination of behavioral treatment and medication was
   more effective than behavioral treatment alone. A Job Corps student with unidentified
   or undisclosed ADHD very likely would not receive the behavioral treatment and
   medication needed to most effectively address the student’s specific disability.

   Additionally, Job Corps’ national policy of requiring students and their families to secure
   formal testing appears flawed. Given Job Corps’ low-income criteria, it seems unlikely

U.S. Department of Labor—Office of Inspector General                                                21
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     that students or their families would be able to pay for formal testing outside of Job
     Corps. Referrals to vocational rehabilitation programs also appear to be ineffective.
     Job Corps officials at three centers we visited told us that students suspected of having
     a disability, such as a learning disability or ADHD, were referred to state vocational
     rehabilitation programs for formal evaluation. However, they said that learning disability
     assessment was a low priority compared to other disabilities and funding for formal
     assessments was limited. This often resulted in untimely assessments for students
     seeking appropriate disability training and accommodations. Furthermore, the U.S.
     Government Accountability Office (GAO) reported in 2003 that state vocational
     rehabilitation agencies had more people (adults and youth) seeking services than
     resources to serve them. About 30,000 people in 25 states were on waiting lists.17

     Some centers did screen students for cognitive disabilities and obtained formal
     evaluations. However, these centers generally developed their own cognitive disability
     assessment processes with available resources and limited training. Although these
     efforts are laudatory, they generally were not effective. For example, the 11 center
     schools we reviewed reported 5 percent (257 of 4,838) of students in PY 2002 were
     cognitively disabled. Our testing showed that 2 percent (103 of 4,838) were supported
     by documentation identifying the specific cognitive disability. The 2 percent figure was
     below the estimated incident rates of 7 to 23 percent, as previously discussed.

     Individualized and Self-Paced Training Program

     Job Corps management also said the Job Corps provides individualized and self-paced
     programming that incorporates a wide variety of instructional approaches for students
     with widely diverse skills and abilities. Management believed that these instructional
     approaches addressed the needs of cognitive disabled students, even if the students’
     disabilities were unknown or undisclosed. These instructional approaches, noted in Job
     Corps’ PRH, include:

          •   Training methods and expected rates of progress tailored to the learning styles,
              abilities, and career goals of each individual student;

          •   Hands-on-activities, multimedia, large and small group activities, and one-on-
              one tutoring;

          •   Techniques to assist students in becoming independent learners such as
              alternative learning strategies, study skills, analytical approaches, memorization
              techniques, and goal setting; and

          •   Methods to identify and diagnose needs of students who have difficulty in
              progressing.

     17
       U.S. Government Accountability Office, Special Education: Federal Actions Can Assist States in
     Improving Postsecondary Outcomes for Youth, GAO-03-773 (Washington D.C.: July 31, 2003)

22                                                 U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

    Job Corps’ TAG G also discusses the above instructional approaches and describes
    Job Corps’ overall strategy as “a universal design approach” (TAG G, section 1.4,
    Accommodating All Learners). The OIG acknowledges that this approach appears well
    suited to Job Corps’ overall student population. However, we believe this approach
    may not be adequate accommodation for students with cognitive disabilities. Job
    Corps statements, in the TAG G, appear to support this view. The TAG G notes that
    “employing universal design principles in instruction does not eliminate the need for
    specific accommodations for students with disabilities (TAG G, Section 7.1.1,
    Instructional Principles of Universal Design). Furthermore, the TAG G also notes that
    to effectively serve individuals with learning disabilities or ADHD, each center should
    develop a service strategy that at a minimum includes:

        •   A staff trained in the basics of learning disabilities and ADHD, and special
            learning needs;

        •   Learning style inventories to identify learning preferences;

       •    Programs and services designed to accommodate learning and attention
            disabilities; and

       •    Knowledge of appropriate and reasonable accommodations for classroom,
            training, and/or workplace environments.

   The TAG G was developed to provide assistance in the improvement of service delivery
   to students with cognitive disabilities. It states that information from a formal
   assessment is used to develop an intervention plan to address the student’s cognitive
   disability. The professional interpreting the diagnostic assessments makes
   recommendations about the types of strategies and interventions that might be helpful
   for the student. The recommendations are incorporated into the intervention plan
   which teachers use to develop appropriate strategies for use in the classroom. The
   TAG G provides information on numerous learning strategies that can be used with
   cognitively disabled students. This emphasis on formal evaluation and the use of
   professionally recommended learning strategies underscores the value of disability
   specific instruction.

   Conclusion

   Job Corps’ student population is at high risk for cognitive disabilities. Yet, Job Corps
   had not emphasized the need to specifically identify and accommodate these students.
   This occurred because program management believed the existing student assessment
   and training processes adequately addressed the needs of cognitively disabled
   students, even if the students’ disabilities were unknown or undisclosed.

   Unidentified cognitive disabilities can have an adverse affect on Job Corps students.
   Students with unidentified or undisclosed cognitive disabilities may not receive

U.S. Department of Labor—Office of Inspector General                                                23
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     instruction or accommodations appropriate to their specific disability. As a result, the
     likelihood that these students will not succeed at Job Corps is increased. Job Corps
     should strengthen efforts to identify students with unidentified or undisclosed cognitive
     disabilities through systematic screening of all students and formal evaluation when
     screening indicates a potential cognitive disability. Doing so supports the overall
     mission and purpose of the Job Corps program.

     The potential impact on student outcomes and program costs are addressed in
     Objective 2.

     Recommendations

     We recommend the Assistant Secretary for Employment and Training require Job Corps
     management to strengthen the program’s efforts to identify students with unknown or
     undisclosed cognitive disabilities. This should include requiring Job Corps to:

        1. Conduct a pilot program to develop appropriate screening and formal evaluation
           methodology and assess the impact on performance and costs before
           implementing national policies and procedures.

        2. Based on the pilot program’s results, develop and implement national policies
           and procedures as needed to screen all students for cognitive disabilities and
           obtain formal evaluations when screening indicates a potential cognitive
           disability.

        3. Monitor compliance with any new policies and procedures.

     Agency Response

     ETA management did not agree with the recommendations. While ETA management
     stated that strengthening Job Corps’ cognitive disability assessment process was
     important, they also stated that Job Corps should not launch a pilot program that may
     not benefit and could potentially stigmatize students and act as a disincentive to
     participating in the program. ETA management stated that Job Corps is currently
     identifying students with cognitive disabilities using a process that is comparable to the
     process used in public school systems and that is philosophically in line with the
     Response to Intervention (RTI) approach discussed in IDEA. Additionally, ETA
     management stated that they did not accept recommendations 1-3 because neither
     IDEA nor Section 504 require the screening/assessment of all students specifically for
     cognitive disabilities either for those in the public school systems or those in alternative
     education and training programs such as Job Corps.

     Further, ETA management stated in their response to recommendations 1-3 that the
     OIG did not evaluate any screening tools, and that the primary screening tool
     referenced by the OIG, has no strong scientific research base and was designed to be


24                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                                Strengthening Efforts to Assess and Account for
                                                                            Students with Cognitive Disabilities
                                                                      Would Help Job Corps Achieve Its Mission

   used on a voluntary basis with a different population than Job Corps’ population.18 ETA
   provided an alternative screening tool that was developed for adult use with community
   colleges and university students as a simple way to help professionals identify those
   adults who are likely to have learning disabilities and should be referred for diagnostic
   assessment.

   To address the issues raised in this report, Job Corps will continue to follow its
   established process for identification of cognitive disabilities; follow research scientific
   research on new identification and evaluation models; strengthen site-level systems to
   ensure students with cognitive disabilities are identified and assessed; and provide Job
   Corps staff with continuous professional development opportunities that strengthen the
   use of key instructional strategies that have been scientifically shown to work with
   cognitively disabled students.

   OIG Conclusion

   Based on ETA’s response, recommendations 1-3 remain unresolved. The OIG is not
   convinced cognitive disability identification and accommodation is harmful and could
   potentially stigmatize students and act as a disincentive to participating in the program.
   While we identified several low cost screening tools already used by some Job Corps
   Centers, we did not evaluate their effectiveness. Therefore, we recommend that Job
   Corps conduct a pilot program to develop an appropriate screening and formal
   evaluation methodology and assess both its program and cost effectiveness. Any pilot
   program would necessarily include an assessment of the efficacy of the screening and
   evaluation tools tested. ETA’s response indicates that Job Corps management has
   already reviewed current research on assessment of learning disabilities. The OIG
   believes this work can serve as a foundation for the pilot program we recommend.

   We also disagree with Job Corps’ assertion that students with cognitive disabilities are
   currently identified using a process that is comparable to the process used in public
   school systems and that is philosophically in line with IDEA. In determining whether a
   child has a specific learning disability, IDEA includes scientific, research-based
   intervention as an integral part of the evaluation process. In contrast, Job Corps uses
   such measures as an alternative evaluation approach. Disability identification and
   accommodation remain significant components of IDEA and Section 504.

   Additionally, under IDEA and Section 504, students enrolled in public school systems
   are generally entitled to cognitive disability assessment at public expense and at no cost
   to the parents. While Job Corps encourages centers to help students secure formal
   testing, the students and their parents are ultimately responsible to secure and fund
   formal testing. The OIG does not believe this Job Corps policy is consistent with IDEA
   nor public school practices.



   18
        The OIG’s discussion of screening tools is provided under Objective 2 of this report.

U.S. Department of Labor—Office of Inspector General                                                         25
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     In response to ETA’s statement that the approach recommended by the OIG exceeds
     what public schools are subject to under IDEA, the OIG notes that Job Corps is a
     Federally funded residential program whose student population generally consists of
     youth who have dropped out of the public school systems (77 percent in PY 2001). To
     be eligible for Job Corps, youth must possess one or more of five barriers to
     employability, three of which (basic skills deficient, school dropout, or need for
     additional education, training or services to participate successfully in regular
     schoolwork or secure and hold employment) specifically relate to the youth’s lack of
     success in school, which may reflect cognitive disabilities. The OIG therefore believes
     that Job Corps has a responsibility to go beyond what the public school systems are
     required to do in this area by ensuring students with cognitive disabilities learn to
     manage their disability and overcome barriers to self sufficiency and long-term
     employment. The OIG believes it is in the interest of both the students and public policy
     to study whether additional funds spent on identifying and mitigating student cognitive
     disabilities will improve the return on Job Corps’ investment by increasing students’
     future employment, retention, and earnings.

     Further, the OIG did not reference a primary screening tool as asserted by ETA. We
     provided information regarding various screening tools to illustrate that free and low
     cost screening tools are available and already in use by Job Corps centers and others.
     As noted in our discussion, we did not evaluate the effectiveness of the tools discussed
     nor did we recommend a particular tool. We suggested that Job Corps evaluate
     available screening tools and incorporate the screening tools most appropriate for Job
     Corps’ student population. The OIG notes that the alternative screening tool provided in
     ETA’s response was also designed to be used with a different population than Job
     Corps’ population. However, if Job Corps determines that this particular screening tool
     should be used during the student assessment process, policies and procedures
     indicating such would meet the intent of OIG recommendations 1-3. The OIG believes
     that evaluating this screening tool during a pilot program would be an effective means of
     determining whether it is appropriate for Job Corps’ student population.

     Objective 2 - What impact would an improved assessment process have on student
     outcomes and program costs?

     Results

     Assessing all Job Corps students for cognitive disabilities would improve student
     outcomes but increase program costs. The degree to which performance outcomes
     would improve cannot be projected because outcomes data for Job Corps students with
     cognitive disabilities were not widely tracked. However, national and regional studies
     discussed in this report indicate student outcomes would improve with effective
     identification and accommodation. Disability specific training and coping skills can be
     provided that would increase the student’s ability to complete the program and obtain
     long-term employment. However, the costs to assess all students could be substantial.
     Low cost screening tools for identifying students with potential cognitive disabilities are

26                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                        Strengthening Efforts to Assess and Account for
                                                                    Students with Cognitive Disabilities
                                                              Would Help Job Corps Achieve Its Mission

   available and used at some centers. Formal evaluation costs at these centers varied
   significantly based on the availability of qualified individuals to perform the evaluations.

   Outcomes Would Improve with Identification and Accommodation

   As noted, national and regional studies indicate that identifying and accommodating
   individuals with cognitive disabilities would improve training and the individual’s chances
   for self-sufficiency and long-term employment. Students with previously unidentified
   cognitive disabilities would receive instruction or accommodations appropriate to their
   specific disability. As a result, Job Corps would likely retain and graduate more
   students as the cause for past academic or behavior problems would be identified and
   addressed. Specific outcomes that would improve include Job Corps graduation and
   retention rates. For example:

         •   High School Diploma/GED Attainment Rate – Job Corps’ PY 2003 goal for
             students entering Job Corps without a High School Diploma or GED certificate
             was 50 percent. Job Corps reported 47 percent.

         •   Vocational Completion Rate - Job Corps’ PY 2003 goal for students completing
             at least one vocational program and separating from Job Corps during the
             program year was 65 percent. Job Corps reported 62 percent.

         •   Graduate 6-month Follow-up Placement Rate - Job Corps’ PY 2003 goal for
             graduates continuing to be employed or in education six months after initial
             placement was 70 percent. Job Corps reported 63 percent.

   One Job Corps center tracked performance outcomes for cognitively disabled students
   since 1992 and showed the value of identifying and accommodating specific cognitive
   disabilities. In 1993, the Weber Basin Job Corps center, which is a public secondary
   school, implemented a comprehensive cognitive disability assessment and
   accommodation program for those students who were enrolled in the center school.
   This included establishing a relationship with the local school district. Low cost
   screening tools ($200-$300 annual center costs) were used to identify students with
   potential cognitive disabilities. The local school district paid the formal diagnostic costs
   and the special education teacher’s salary. The center then provided training and
   accommodations specific to the identified cognitive disability. The center reported an
   increase in high school diploma/GED certificate attainment for students identified with a
   cognitive disability from 30 percent prior to PY 1993 to an average of 68 percent in PY
   1993 through 2002. In PY 2002, the center identified 23 students with cognitive
   disabilities out of a total population of 222 students, or 10.4 percent.19




   19
        The center’s data was not audited by the OIG.

U.S. Department of Labor—Office of Inspector General                                                 27
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     Screening Costs Are Low and Formal Evaluation Costs Vary

     Job Corps management’s concerns about additional costs are valid. Special education
     staff are not employed by all centers and formal evaluation costs could be substantial.
     However, we are not suggesting that all students be formally evaluated. Doing so might
     be cost prohibitive. Instead, we are suggesting that students identified as possibly
     cognitively disabled during the screening process be formally evaluated. Some centers
     did screen students for cognitive disabilities and obtained formal diagnosis. At the 14
     centers reviewed, various free or low cost screening tools were used to identify students
     with potential cognitive disabilities. These screening tools included:

        •   Kaufman Brief Intelligence Test (K-BIT) - An individually administered tool used
            to screen verbal and nonverbal intelligence. The Oklahoma center schools -
            Tulsa, Guthrie, Talking Leaves, and Treasure Lake - use the K-BIT to screen
            students for the possible presence of cognitive disabilities. According to center
            staff, the cost to administer the K-BIT is less than $12 per student and about one
            hour of staff time.

        •   The Learning Styles and San Diego Quick Gauge Reading Inventories - The
            Learning Styles and San Diego Quick Gauge Reading Inventories are
            questionnaires administered by the Phoenix center to all students. The
            information from these inventories is used, in conjunction with other tests results,
            to screen students for the possible presence of cognitive disabilities. There is no
            cost to use these tools.

        •   The Learning Needs Screening Tool - The Learning Needs Screening Tool is a
            screening tool that can be used to identify the possible presence of learning
            difficulties or disabilities. The tool was designed for the State of Washington
            Division of Employment and Social Services Learning Disabilities Initiative to
            assist Temporary Assistance for Needy Families (TANF) program case
            managers. Case managers used the tool to identify participants whose learning
            difficulties or disabilities might impede successful employment. The tool is in the
            public domain and may be used at no cost. The NYS DOL used this tool to
            screen Welfare to Work and Workforce Program clients for learning disabilities.

     The OIG did not evaluate the effectiveness of these screening tools. As part of a
     comprehensive assessment program, Job Corps should evaluate available screening
     tools and incorporate the screening tools most appropriate for Job Corps’ student
     population.

     Centers generally used a licensed psychologist or mental health professional to perform
     formal evaluations. Formal evaluation costs varied significantly based on the availability
     of qualified individuals to perform the diagnosis. Formal evaluation costs incurred by
     Job Corps at the 11 centers we surveyed ranged from $0 at a center where a
     psychologist was paid by the local school district to $600 per formal evaluation at a

28                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                            Strengthening Efforts to Assess and Account for
                                                                        Students with Cognitive Disabilities
                                                                  Would Help Job Corps Achieve Its Mission

   center paying a psychologist. (See Exhibit D for the costs associated with the screening
   tools and formal evaluation at the 11 centers surveyed.)

   We estimated the additional costs to Job Corps in PY 2002 if more students were
   formally evaluated for cognitive disabilities. If an additional 3 percent of Job Corps’
   65,000 students were formally evaluated at $600 per student, the total additional cost to
   Job Corps would have been at least $1.2 million (1,950 x $600). If an additional 9
   percent of Job Corps’ 65,000 students were formally evaluated at $600 per student, the
   total additional cost to Job Corps would have been at least $3.5 million (5,850 x $600).20

   Job Corps would also have incurred additional costs relating to accommodations.
   These costs include premium pay for qualified special education staff, specialized
   training for center staff, and instructional material. These costs will also vary
   significantly and additional cost is primarily dependent upon whether centers currently
   employ qualified special education staff. Four of the 11 centers responded that the
   need for qualified special education staff at their centers was a key barrier to assessing
   students for cognitive disabilities.

   Some centers obtained additional financial resources to help minimize assessment and
   accommodation costs. Since 2002, six centers -- Phoenix, Fred Acosta, Treasure
   Island, Inland Empire, Gainesville, and Atlanta – have partnered with a public secondary
   charter school to secure an annual $500,000 Disability Education Grant from DOL. The
   grant award is primarily used to pay for special education staff and school psychologist
   services, including diagnostic testing to identify specific cognitive disabilities. (See
   Exhibit D for the external resources and partnerships used to pay for student
   assessment and special education costs at the 11 centers surveyed)

   Conclusion

   Student outcomes would improve with increased cognitive disability identification and
   accommodation. However, resource requirements and student assessment costs
   would also increase. Though various low cost screening tools are available, formal
   evaluation costs would vary based on the availability of qualified individuals to perform
   the evaluations. Costs could be substantial for centers paying psychologists for the
   formal evaluations. We believe that the benefits of identifying and accommodating
   more students with cognitive disabilities would outweigh the additional resource
   requirements and costs.




   20
     The 3 percent is the difference between the 4 percent Job Corps reported and the 7 percent ED
   reported for all children ages 6-17. The 9 percent is the difference between the 4 percent Job Corps
   reported and the 13 percent DHHS estimated for children ages 3-17 with family incomes less than
   $20,000.

U.S. Department of Labor—Office of Inspector General                                                      29
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission



     Recommendations

     Our recommendations related to this objective are the same recommendations
     addressing our audit results for Objective 1. (See Recommendations 1-3)

     Agency Response

     ETA management stated that the OIG did not provide sufficient data to support that
     student outcomes would improve by screening all students for cognitive disabilities.
     They noted that the Weber Basin example we provided was useful but not definitive
     regarding the specific cause for the center’s improved performance outcomes (e.g.,
     screening, improved instruction for all students, improved strategies for cognitively
     disabled students).

     ETA management also stated that it would be cost prohibitive to assess all students
     through the cognitive disabilities screening process as recommended. They stated that
     the OIG’s estimated financial impact on program costs was low. They noted that the
     cost figures provided by the Job Corps centers we surveyed were not realistic because
     the majority of centers would not have the same community connections and be able to
     obtain services at the $600 per formal evaluation rate used in our calculations. ETA
     estimated that the actual rates would range from $1,000 to $1,500.

     OIG Conclusion

     Student outcomes would improve with increased cognitive disability identification and
     accommodation. The OIG provided the Weber Basin example to underscore the value
     of identifying and accommodating specific cognitive disabilities. Weber Basin
     management told the OIG that they tracked performance outcomes for disabled
     students in order to obtain and justify local funding for special education services. They
     attributed the improved performance outcomes for cognitively disabled students to the
     special education services provided to these students.

     Even though we cited Weber Basin as an example, the OIG’s discussion in the report
     regarding the range of formal evaluation costs focused on the costs incurred by Job
     Corps at 11 centers. The costs at these centers ranged from $0 to $600. ETA did not
     provide the basis for their estimated costs of $1,000 to $1,500. As previously noted in
     this report, the OIG acknowledges that the formal evaluation costs would vary based on
     the availability of qualified individuals to perform the evaluations and that additional
     accommodation costs would be incurred.

     While we agree that the costs to obtain such services will vary from center to center, it is
     important to note that the report also identifies additional financial resources used by
     centers to minimize these costs. We also recognized that resource requirements and
     student assessments costs would increase. As a result, we recommended Job Corps


30                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                               Strengthening Efforts to Assess and Account for
                                                                           Students with Cognitive Disabilities
                                                                     Would Help Job Corps Achieve Its Mission

   conduct a pilot program to develop appropriate screening and formal evaluation
   methodology and assess the impact on performance and costs before implementing
   national policies and procedures.

   Objective 3 -Does Federal law require Job Corps to assess students for cognitive
   disabilities? If so, does Job Corps have an effective process to ensure compliance?

   Results and Findings

   Job Corps is not required by Federal law to assess all enrolled students for cognitive
   disabilities. However, Job Corp must assess students for cognitive disabilities under
   specific circumstances defined in the Individuals with Disabilities Education Act
   Amendments of 1997 (IDEA) and Section 504 of the Rehabilitation Act of 1973 (Section
   504). More specifically, Job Corps centers operating high school diploma programs
   (center schools) that meet IDEA or Section 504 criteria are required to assess students
   enrolled in the center schools for cognitive disabilities. We found that Job Corps had
   not developed processes to (1) identify center schools subject to IDEA and Section 504
   and (2) ensure compliance with the statutes’ provisions for assessing students for
   cognitive disabilities. This occurred because Job Corps management was not aware
   certain provisions of the statutes could apply to Job Corps. Noncompliance with these
   Federal statutes increases the risk that students with cognitive disabilities are not
   identified and provided accommodations to help ensure program completion and long-
   term employment.

   IDEA and Section 504 Requirements

   IDEA and Section 504 ensure that the educational rights of students with disabilities and
   their parents are protected. IDEA21 and Section 50422 regulations identify the entities
   that are required to evaluate students suspected of having disabilities:

        •   Under IDEA, local educational agencies (LEAs) must ensure that required
            evaluations are conducted at public expense and at no cost to parents.23 In
            addition, where public charter schools are themselves LEAs or have been


   21
      While IDEA does not define the term cognitive disabilities, IDEA specifically defines three of the four
   disability categories used in Job Corps definition – a specific learning disability, mental retardation, and
   traumatic brain injury. See 34 C.F.R. 300.7(a)(1). The fourth disability category, ADHD, is defined as a
   subset of the disability category “other health impairment” under IDEA at
   34 C.F.R. 300.7(c)(9).
   22
      Section 504 defines handicapped individuals as any person who has a physical or mental impairment
   which substantially limits one or more life activities (including learning), has record of such impairment, or
   is regarding as having such an impairment. While the regulations recognize a specific learning disability
   and mental retardation as impairments, a traumatic brain injury and ADHD may be accounted for as an
   impairment as well. See 29 C.F.R. 32.3.
   23
      The term LEA is defined under IDEA as a public school district, board, or county constituted within a
   State for administrative control of public secondary schools. See 34 C.F.R. 300.18(a).

U.S. Department of Labor—Office of Inspector General                                                                31
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

               assigned responsibility under State law for the education of students with
               disabilities, those entities would have evaluation responsibilities under IDEA.24

           •   Under Section 504, a recipient of Federal financial assistance that operates a
               public elementary or secondary education program must conduct an initial
               evaluation of students in the program who because of disability, need or are
               believed to need special education or related services under Section 504.25

     (See Appendix A for specific IDEA and Section 504 citations regarding evaluations and
     determinations for eligibility.)

     If a student is found eligible for services under IDEA or is deemed a qualified individual
     with a disability under Section 504, the free appropriate public education (FAPE)
     requirements of IDEA and Section 504 apply. FAPE under IDEA requires appropriate
     special education and related services at public expense and at no cost to parents. If a
     student is found eligible for services under Section 504, the FAPE requirements of
     Section 504 apply. FAPE under Section 504 requires appropriate regular or special
     education and related aids and services at public expense and at no cost to parents.
     Determinations about what constitutes FAPE under IDEA and Section 504 for a
     particular child are made on an individual basis by the required team or group of
     persons.

     In short, a student enrolled in a public secondary school administered by an LEA, public
     charter school, or public or private school receiving ED funds is entitled to cognitive
     disability assessment under IDEA or Section 504. Job Corps center schools meeting
     any one of these criteria are required to identify, evaluate, and provide special
     education services to students with cognitive disabilities.

     In June 2001, the U. S. Departments of Labor (DOL) and ED signed a Memorandum of
     Understanding to improve high school diploma attainment among Job Corps students.
     To achieve this, Job Corps implemented a strategy that includes expanding existing
     high school programs. Many centers have established high school programs or entered
     into partnerships with local school districts and community colleges to expand high
     school options.

     Job Corps reported in PY 2004 that 11 centers were accredited diploma granting high
     schools, and 79 centers had partnerships with local public schools. High school
     partnerships take a variety of forms and are based on meeting the mutual needs of the
     local community and Job Corps. Local school districts or community colleges generally
     bear the responsibility for ensuring compliance with Federal and state laws applying to
     high school partnerships.



     24
          See 34 C.F.R. 300.312.
     25
          See 34 C.F.R.104.35.

32                                                  U.S. Department of Labor—Office of Inspector General
                                                                        Report Number: 09-06-001-03-370
                                                           Strengthening Efforts to Assess and Account for
                                                                       Students with Cognitive Disabilities
                                                                 Would Help Job Corps Achieve Its Mission

   Centers Subject to IDEA or Section 504 Were Not Identified

   Job Corps had not developed a process for identifying center schools subject to IDEA or
   Section 504. Job Corps management said they had not placed emphasis on identifying
   the center schools because they were not aware that the statutes could apply to Job
   Corps centers.

   Job Corps gave us a list of 11 center schools operating in PY 2004. We mailed a
   survey to the center schools to determine whether the center schools were subject to
   IDEA or Section 504’s provisions for assessing students for cognitive disabilities. Each
   center stated in their survey response that they operated non-public center schools.
   However, we determined that three of the 11 center schools listed by Job Corps were
   likely subject to IDEA or Section 504. Table 2 shows the three center schools and the
   information we obtained indicating that the center schools were likely subject to the
   statutes.
                                            Table 2
                Three Center Schools Likely Subject to IDEA or Section 504

                                                          Local      ED                  Subject to
   Center                                            Education    Funds                    IDEA or
   School                   School Type                 Agency Received                 Section 504
   Clearfield          Public High School          Davis School Unknown                       IDEA
                                                         District
   Weber Basin          Public Secondary           Davis School Unknown                          IDEA
                                  School                 District
   Pine Ridge           Public Secondary         Pine Ridge Job     Yes                  Section 504
                                  School                 Corps*
   Source: ED’s public school database, regional Associations of Accredited Schools databases, and state’s
   public school databases. * ED and Nebraska’s public school databases listed Pine Ridge Job Corps as
   the local school district.


   The Clearfield and Weber Basin center schools were likely subject to IDEA because
   they are public secondary schools administered by an LEA. The Pine Ridge center
   school was likely subject to Section 504 because it operates a public secondary school
   and receives ED funds. Job Corps management agreed that the three center schools
   were likely subject to IDEA or Section 504.

   IDEA and Section 504 Compliance Process is Needed

   Job Corps’ inability to accurately identify all public center schools adversely affects its
   ability to ensure compliance with IDEA and Section 504’s provisions for assessing
   students for cognitive disabilities. An effective process to ensure compliance is needed
   because existing center schools are likely subject to these two statutes and Job Corps
   is actively increasing high school diploma opportunities for its students. Such



U.S. Department of Labor—Office of Inspector General                                                         33
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     opportunities include the creation of center schools that will likely be subject to IDEA
     and Section 504.

     In June 2001, Job Corps implemented a strategy to expand its existing high school
     programs. In PY 2003, Job Corps noted in its annual report that many centers had
     established high school programs or had entered into partnerships with local school
     districts or community colleges. Jobs Corps activity in this area indicates that planned
     high school programs will likely be subject to IDEA or Section 504. Two examples
     follow.

          •   In June 2005, Texas passed legislation authorizing Job Corps Centers to operate
              public secondary schools throughout the state. Four Job Corps centers currently
              operate in Texas. The legislation notes that the Texas Job Corps diploma
              programs are to be governed by the provisions stated in the legislation and
              policies established by Job Corps. The programs are eligible to receive funds
              from other Federal sources, including ED. Public secondary schools are
              generally subject to IDEA or Section 504.

          •   In May 2005, a Job Corps Center operator announced plans to establish public
              charter high schools at two Maryland centers. Public charter high schools are
              generally subject to IDEA.

     Additionally, the lack of an effective process to ensure IDEA and Section 504
     compliance is not consistent with GAO’s Standards for Internal Controls in the Federal
     Government. The standards state that internal control helps government program
     managers achieve desired results through effective stewardship of public resources.
     Internal control should provide reasonable assurance that objectives of the agency are
     being achieved in compliance with applicable laws and regulations.26

     Conclusion

     Job Corps centers that operate center schools and meet specific criteria defined in
     IDEA and Section 504 are required to assess students enrolled in the center schools for
     cognitive disabilities. Job Corps management had not developed a process for
     identifying such center schools because they were not aware that the statutes could
     apply to Job Corps centers. An effective process to identify center schools subject to
     these statutes is needed because Job Corps is actively increasing high school diploma
     opportunities for its students. We identified existing and planned centers schools that
     are likely subject to IDEA and Section 504. Moreover, policies and procedures need to
     be established to ensure compliance with IDEA and Section 504 where appropriate.
     Noncompliance increases the risk that students with cognitive disabilities are not


     26
      U.S. Government Accountability Office, Standards for Internal control in the Federal Government,
     GAO/AIMD-00-21.3.1 (Washington, D.C.: November 1999).

34                                                    U.S. Department of Labor—Office of Inspector General
                                                                          Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   identified and provided accommodations to help ensure program completion and long-
   term employment.

   Recommendations

   We recommend the Assistant Secretary for Employment and Training establish internal
   controls to ensure compliance with IDEA and Section 504’s provisions for assessing
   students for cognitive disabilities. These controls should include requiring Job Corps to:

       4. Identify center schools subject to the student assessment provisions of IDEA or
          Section 504.

       5. Ensure center schools subject to IDEA or Section 504 comply with the
          requirements to identify, evaluate, and provide special education to students with
          cognitive disabilities.

   Agency Response

   ETA management neither agreed nor disagreed with the recommendations. Job Corps
   plans to improve its annual survey of centers to better identify centers that might be
   subject to IDEA and Section 504 requirements. Additionally, Job Corps plans to
   establish policies in the PRH that:

       •   Require centers that might meet any of the criteria under IDEA or Section 504 to
           contact their state Departments of Education, or the Federal agencies providing
           financial assistance, to confirm their status and the required processes to provide
           assessments for students with undisclosed cognitive disabilities, and special
           education services.

       •   Require centers, subject to IDEA or Section 504, to document their processes for
           providing student assessments and special education.

       •   Provide a tool to assist centers in determining and maintaining their compliance
           status.

       •   Describe how Job Corps Regional Offices will monitor center compliance through
           regularly scheduled center assessments.

   Job Corps will also revise the current standard request for proposals (RFP) to operate
   Job Corps centers, so that the RFP specifies that operators must assure that centers
   subject to IDEA or Section 504 have processes in place to identify, evaluate and
   provide special education services to students with cognitive disabilities.




U.S. Department of Labor—Office of Inspector General                                                35
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     OIG Conclusion

     Although ETA management neither agreed nor disagreed with the recommendations,
     ETA’s response and Job Corps’ actions currently in progress or planned will meet the
     intent of recommendations 4 and 5. Therefore, we consider recommendations 4 and 5
     resolved. To close these recommendations, ETA needs to provide documentation of the
     corrective actions taken.

     Objective 4 – Are Job Corps’ data on student cognitive disabilities reliable?

     Results and Finding

     Job Corps’ data on student cognitive disabilities were not reliable. The 14 centers we
     reviewed could not provide adequate support for 67 percent of the students they
     reported as cognitively disabled and separated from Job Corps in PY 2002. This
     occurred because Job Corps management had not established effective processes to
     ensure cognitive disability data reported by centers were accurate and complete.
     Inaccurate or incomplete data adversely affects Job Corps’ ability to (1) evaluate
     existing efforts to identify and address cognitively disabled students, (2) provide timely
     resources and services to Centers in need, and (3) develop strategies to assist
     cognitively disabled students to successfully complete the program.

     Job Corps modified their disability data collection system during the audit to address
     some of the process weaknesses we identified. This included issuing revised policy and
     procedures that clearly state that centers are required to submit disability data and
     develop tracking systems to ensure accurate and complete data.

     Subsequent to completion of our audit work, Job Corps management informed us that
     they had developed draft revisions to the PRH that include written procedures defining
     the specific disabilities Job Corps will account for and the related documentation
     requirements. Additionally, they said that procedures to review reported data on a
     monthly basis and to follow up when centers report inaccurate data had been
     implemented.

     The Standards for Internal Control in the Federal Government require, in part, the
     following:27

            •   Qualified and continual supervision be provided to ensure that internal control
                objectives are achieved. In addition, transactions should be promptly
                recorded to maintain their relevance and value to management in controlling
                operations and making decision.


     27
      U.S. Government Accountability Office, Standards for Internal Control in the Federal Government,
     GAO/AIMD-00-21.3.1 (Washington, D.C.: November 1999).

36                                                    U.S. Department of Labor—Office of Inspector General
                                                                          Report Number: 09-06-001-03-370
                                                               Strengthening Efforts to Assess and Account for
                                                                           Students with Cognitive Disabilities
                                                                     Would Help Job Corps Achieve Its Mission

           •   Activities be established to monitor performance measures and indicators.
               Control activities help to ensure that all transactions are completely and
               accurately recorded.

           •   For an entity to run and control its operations, it must have relevant, reliable,
               and timely communications relating to internal as well as external events.

   Reported Data Were Not Adequately Supported

   In PY 2001, Job Corps began collecting and analyzing student disability data from
   centers on a biannual basis. The purpose was to address the provisions of 29 C.F.R
   37.37, which required Job Corps to collect data on a student’s disability status (i.e.
   whether or not a student has a known disability) and to identify topics for disability
   related training and create guidance for centers.28 Job Corps’ disability data collection
   system was implemented through Program Instruction No. 01-18, issued February 13,
   2002. Centers were asked to develop a system compiling disability data (e.g., number
   of students with disabilities, types of disabilities) and submitting the data to the Job
   Corps national office every six months.

   We tested the PY 2002 cognitive disability data reported by the 14 centers reviewed to
   determine whether (1) the students reported had separated within PY 2002 as required
   by Job Corps' reporting standards, and (2) identified students possessed an
   Individualized Education Program (IEP) or a professional diagnosis identifying their
   cognitive disability.29 Table 3 shows that 67 percent of the students Job Corps reported
   left the program outside the reporting period or did not have adequate documentation
   identifying their cognitive disability.

                                            Table 3
                  Cognitive Disability Data Were Not Consistently Supported
                                            PY 2002

                                                                           Number of          Percentage
                                                                            Students
    Student left program outside reporting period                                235                   67%
    or adequate documentation not provided
    Data supported                                                                   117               33%
                                  Total Reported                                     352              100%
   Source: Job Corps survey data and OIG analysis


   28
      Under these regulations, Job Corps is required to maintain this information, in part, to determine the
   extent to which it is operating its WIA Title I-financially assisted program or activity in a nondiscriminatory
   manner; or other use authorized by law.
   29
      The term IEP means a written statement for each student with a disability that includes the special
   education, supplementary aids, and related services to be provided to the student and the program
   modifications and support for school personnel to be provided on behalf of the student.

U.S. Department of Labor—Office of Inspector General                                                                 37
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     Three of the 14 centers we reviewed were generally able to support the data they
     reported. The remaining 11 centers over or understated their number of cognitively
     disabled students separated in PY 2002. For example, two centers reported a total of
     25 students with cognitive disabilities. We found an additional 22 students that were
     documented as cognitively disabled but were not reported. Another center reported 13
     cognitively disabled students. This center was not able to provide us with any
     supporting documentation, including the students’ names. (See Exhibit B for detailed
     calculations.)

     Job Corps had not established effective processes to ensure cognitive disability data
     reported by centers were accurate and complete. Specific process weaknesses
     identified during our review include:

           •   Inadequate guidance and training – some center staff were unclear as to what
               criteria should be used for reporting students as cognitively disabled, whether
               active or terminated students should be reported, and whether reporting
               disability data were voluntary or required.

           •   Ineffective center practices – the centers generally had not developed
               effective procedures to ensure the data were accurate and complete and
               supporting documentation was retained.

           •   Lack of Job Corps supervision and oversight – Job Corps had not developed
               procedures to test the reliability of reported cognitive disability data.

     Data Collection System Enhanced During Audit

     During the audit, Job Corps modified their disability data collection system to address
     some of the process weaknesses we identified. This included issuing revised policy and
     procedures that clearly state that centers are required to submit disability data and
     develop tracking systems to ensure accurate and complete data. Additionally, Job
     Corps implemented a disability data collection module within their computer information
     system (CIS) to ease the reporting burden on center staff and to collect more detailed
     data about disabled students, including outcomes and placement information. These
     enhancements should improve data reliability and Job Corps oversight. However, our
     review of the new policies and procedures showed that the following process
     weaknesses still need to be addressed.

           •   The modified system policies state that students reported as disabled must
               have documentation of the disability. However, the procedures do not specify
               what Job Corps considers acceptable documentation for cognitive disabilities
               (i.e., IEP or professional diagnosis). Lack of criteria in this area may lead to
               continued inconsistent reporting and unreliable data.




38                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

          •   The modified system does not specify Job Corps management controls to
              ensure the reliability of reported cognitive disability data. Without data validity
              testing, Job Corps does not have reasonable assurance that reported student
              cognitive disability data are accurate and complete.

          •   Recording, tracking, and reporting procedures for the modified system are not
              documented in one unified set of operating instructions. The procedures
              were communicated to centers through various memorandums, training
              seminars, and correspondence between the National Office and center
              personnel. As a result, Job Corps lacks assurance that Centers consistently
              and uniformly follows the applicable procedures for the modified system.

   Subsequent Events

   Subsequent to completion of our audit work, Job Corps management informed us that
   they had developed draft revisions to the PRH that include written procedures defining
   the specific disabilities Job Corps will account for and the related documentation
   requirements. Additionally, they said that procedures to review reported data on a
   monthly basis and to follow up when centers report inaccurate data had been
   implemented.

   Conclusion

   Job Corps management had not established effective processes to ensure cognitive
   disability data reported by centers were accurate and complete. We found that 11 of
   the 14 centers reviewed reported inaccurate or incomplete cognitive disability data. In
   total, the 14 centers had not provided adequate documentation to support the validity of
   67 percent of the students they reported as cognitively disabled and separated in PY
   2002. The similarities between youth having cognitive disabilities and Job Corps’ target
   population underscore the need for reliable cognitive disability data. Job Corps officials
   have acknowledged that their student population is at high risk for cognitive disabilities.
   Inaccurate or incomplete data adversely affects Job Corps’ ability to (1) evaluate
   existing efforts to identify and address cognitively disabled students, (2) provide timely
   resources and services to Centers in need, and (3) develop strategies to assist
   cognitively disabled students to successfully complete the program.

   Additionally, we found that certain corrective actions have been taken to address some
   of the process weaknesses we identified. In the areas of data validity testing and
   documenting the operating instructions for the modified system, improved internal
   controls are needed to ensure cognitive disability data reported by centers are reliable.

   Recommendations

   We recommend the Assistant Secretary for Employment and Training establish internal
   controls to ensure cognitive disability data reported by centers is reliable.


U.S. Department of Labor—Office of Inspector General                                                39
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     These controls should include requiring Job Corps to:

        6. Establish criteria for identifying and reporting cognitively disabled students.

        7. Ensure cognitively disabled student data submitted by centers is accurate and
           complete.

        8. Implement a concise and systematic process for effectively communicating to
           centers Job Corps policy and procedures for recording, tracking, and reporting
           student cognitive disability data.

     Agency Response

     ETA management neither agreed nor disagreed with the recommendations. Job Corps
     plans to issue, in October 2005, a PRH Change Notice to provide center staff with
     criteria and additional information for identifying students with cognitive disabilities. To
     ensure accurate and complete data, Job Corps will develop a formal data audit system
     and require centers/contractors to be more accountable for the accuracy of data.
     Additionally, targeted assessments at 10-15 Job Corps centers are planned for Fall
     2005. The major goal of these assessments is to examine why centers have problems
     with entry/accuracy and how data collection practices can be improved. Job Corps has
     also implemented a process for communicating policies and procedures. This process
     includes Job Corps’ directive system, supporting guidance through web-based,
     telephone and in-person training, detailed information on the Job Corps Disability Web
     site (e.g., submission instructions), and a user’s guide on disability data collection
     (released June 2005).

     OIG Conclusion

     Although ETA management neither agreed nor disagreed with the recommendations,
     ETA’s response and Job Corps’ actions currently in progress or planned will meet the
     intent of recommendations 6-8. Therefore, we consider recommendations 6-8 resolved.
     To close these recommendations, ETA needs to provide documentation of the
     corrective actions taken.




     Elliot P. Lewis
     March 31, 2005




40                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission




   Exhibits




U.S. Department of Labor—Office of Inspector General                                                41
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                         Strengthening Efforts to Assess and Account for
                                                                     Students with Cognitive Disabilities
                                                               Would Help Job Corps Achieve Its Mission

                                           EXHIBIT A
                                        Studies Support
                                Cognitive Disability Assessment

   Study/Legislation           Conclusions
   ETA sponsored study to      •    It is crucial to determine whether problems for individuals who
   address concerns                 have trouble with basic academic tasks are learning disability
   expressed by the                 related to ensure individuals are served appropriately by
   Administration and               employment and training programs.
   Congress that a
                               •    Failure to assess for learning disabilities will often result in
   substantial proportion of
                                    inappropriate instruction for the individual with learning
   persons in employment
                                    disabilities.
   and training programs
   may be learning disabled    •    By not taking an individual’s learning disability into account the
   and whether it may be            individual will be exposed to the same learning strategies which
   necessary to reconsider          have already proven unsuccessful.
   programmatic approaches     •    Assessing for learning disabilities allows the individual’s
   to assessment and                particular learning needs to be identified, so that instruction can
   training. (1991)                 be tailored specifically to those needs.
   New York State               •   Identifying learning disabilities through screening and
   Department of Labor              diagnostic testing are initial steps toward removing employment
   learning disability pilot to     barriers.
   screen and diagnose
                                •   When clients learn how to manage a disability and overcome
   Welfare to Work and
                                    their barriers they increase the likelihood of self-sufficiency.
   Workforce Program clients
   for learning disabilities.   •   More than 75% of participants who screened positive were
   (2001)                           diagnosed with cognitive issues (324 of 446).
                               •    More than 80% of participants with a cognitive issue have
                                    multiple issues. Learning disabilities and a mental health issue
                                    are the most frequent combination (260 of 324).
   ED’s Office of Special     •     Disability evaluation is necessary to monitor how well students
   Education Programs               are achieving the goals, benchmarks, or short-term objectives
   training package on IDEA         developed for them.
   Amendments of 1997.
   This curriculum represents •     Information gathered during the evaluation helps to determine
   an authoritative source of       the educational needs of the child and to guide decision-
   information on the               making about the kind of educational program appropriate for
   Individuals with                 the student.
   Disabilities Education Act •     The evaluation must be conducted by a team or group of
   Amendments of 1997,              people, which must include at least one teacher or specialist
   Public Law 105-17.               knowledgeable about the area of the child's suspected
                                    disability.
                               •    The evaluation must be individualized (i.e., the child is
                                    evaluated individually, not as part of a larger group).




U.S. Department of Labor—Office of Inspector General                                                      43
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




44                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                                     Strengthening Efforts to Assess and Account for
                                                                                 Students with Cognitive Disabilities
                                                                           Would Help Job Corps Achieve Its Mission

                                                        EXHIBIT B

                 Comparison of Reported to Documented Cognitive Disability Data
                                            PY 2002

   We performed tests to determine the number of cognitive disabled students (a) reported
   by the Job Corps National Office and supported by adequate documentation and (b) not
   reported by the Job Corps National Office but supported by adequate documentation.
   The table below shows the results of our testing for the 14 centers reviewed. We also
   provide the total errors (reported data not supported + OIG verified data not reported).

                            National            Reported            Reported
                         Office Data            Data OIG            Data Not               OIG
                          Reported              Verified a         Supported           Verified              Total
                                 (A)                   (B)             (A-B)          Data Not              Errors
       Center
                                                                                     Reported b
       Centennial                   13                    0                  13               0                  13
       Clearfield                   23                   23                   0               1                  1c
       Guthrie                      32                    0                  32               0                  32
       Pine Ridge                   10                    5                   5               0                   5
       Red Rock                    104                    0                 104               0                 104
       Sierra
                                     20                  16                    4                 0                   4
       Nevada
       Talking
                                      7                    0                   7                 0                   7
       Leaves
       Tongue
                                     25                  22                    3                 0                   3
       Point
       Treasure
                                     12                    4                   8                 0                   8
       Lake
       Tulsa                          9                    9                   0                 0                  0c
       Weber
                                      2                    2                   0               21                   21
       Basin
       Gary                          19                   4                  15                  0                  15
       Phoenix                       31                  31                   0                  0                  0c
       Treasure
                                     45                    1                 44                  0                  44
       Island
             Totals       352 (100%)           117 (33%)            235 (67%)                  22               257
   Source: OIG analysis of Job Corps National Office reported data, center survey data, site visits, and interviews.
   a
    These numbers represent cognitive disability center data reported by the Job Corps National office that were
   supported by (1) the student separating from Job Corps during PY 2002 and (2) an IEP or professional diagnosis.
   b
    These numbers represent cognitive disability data provided by the centers during the audit that were verified by
   OIG but not reported by the Job Corps National Office.
   c
       These three centers (Clearfield, Weber Basin, Gary) were generally able to support the data they reported.




U.S. Department of Labor—Office of Inspector General                                                                     45
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




46                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                             Strengthening Efforts to Assess and Account for
                                                                         Students with Cognitive Disabilities
                                                                   Would Help Job Corps Achieve Its Mission

                                                  EXHIBIT C

             Job Corps Students with Cognitive Disabilities at 11 Center Schools
                                        PY 2002

   The table below compares the number of students reported by the 11 centers schools
   reviewed to the number of students verified and estimated by the OIG. Percentages are
   of Average Student Enrollment.

       Center                     Average        Cognitive Disabled             Cognitive Disabled
                                   Student       Students Reported             Students Verified by
                                Enrollment            by Job Corps                            OIG a
       Centennial                       297                 13 (4%)                          0 (0%)
       Clearfield                     1307                  23 (2%)                        24 (2%)
       Guthrie                          644                 32 (5%)                          0 (0%)
       Pine Ridge                       229                 10 (4%)                          5 (2%)
       Red Rock                         310               104 (34%)                          0 (0%)
       Sierra Nevada                    575                 20 (3%)                        16 (3%)
       Talking Leaves                   246                  7 (3%)                          0 (0%)
       Tongue Point                     541                 25 (1%)                        22 (4%)
       Treasure Lake                    185                 12 (6%)                          4 (2%)
       Tulsa                            282                  9 (3%)                          9 (3%)
       Weber Basin                      222                  2 (1%)                       23 (10%)
       Totals                         4,838                257 (5%)                       103 (2%)
   Source: OIG survey of center schools, National Office statistics and interviews with Job Corps officials.

   a
     We reviewed supporting documentation provided by the centers to verify the reported number of
   students with cognitive disabilities.




U.S. Department of Labor—Office of Inspector General                                                           47
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




48                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                                  Strengthening Efforts to Assess and Account for
                                                                              Students with Cognitive Disabilities
                                                                        Would Help Job Corps Achieve Its Mission

                                                          EXHIBIT D

                             Center School Responses to OIG Survey Questions
          The table below shows center schools’ responses to selected OIG survey questions regarding assessing
          students for cognitive disabilities (CDs). We used a dash (“-“) in instances where the center did not
          provide a response or the response provided did not address the question.

                                                               External Resources/
                                                               Partnerships Used
               System to                                       to Pay for                Benefits
               Assess                     Average              Assessment or             of             Drawbacks of
               Students    Diagnostic     Assessment Cost      Special Education         Assessing      Assessing
Center         for CDs     Tools Used     per Student          Services                  Students       Students
Centennial         No         Not         Not applicable                  _              Implement      Cost and funding
                           applicable                                                    a program      limitations;
                                                                                         to best        improper
                                                                                         meet           assessment may
                                                                                         students'      result in ineffective
                                                                                         needs.         programs and
                                                                                                        instruction
Clearfield        Yes      Brown AD       Assessments by       Vocational                Students       Center’s school
                           Inventory;     the center’s         rehabilitation services   can gain       district provides
                           Connors        Mental Health                                  optimal        little support for out
                           Continuous     Consultant cost                                benefit        of state students.
                           Performan      $130 per student                               from
                           ce;            and $44 by IEP                                 program;
                           Slosson IQ     Administrator;                                 without
                           and Oral       off-center                                     screening,
                           Reading        assessment                                     it is
                           tests;         costs $600.                                    impractical
                           Weschler                                                      to offer
                           Abbrev                                                        individual-
                           Scale of                                                      ized
                           Intelligence                                                  instruction.
Guthrie           Yes      TABE;          _                               _                    _                  _
                           Kaufman
                           Brief
                           Intelligence
                           Test (K-
                           BIT)
Pine              Yes             _       $300                            _              Provide        Cost - high
Ridge                                                                                    more           requests for
                                                                                         opportuniti    accommodations
                                                                                         es for         could impact
                                                                                         success.       operations budget.
Red Rock          Yes           _         $50 per hour.        Vocational                Provide        Enormous
                                                               rehabilitation and        better         economic impact.
                                                               community                 academic       Would require
                                                               counseling services       and            hiring certified
                                                                                         vocational     special education
                                                                                         services to    staff, developing a
                                                                                         special        curriculum,
                                                                                         needs          purchasing
                                                                                         students.      instructional
                                                                                                        materials, and
                                                                                                        contracting for
                                                                                                        special education
                                                                                                        support services.


   U.S. Department of Labor—Office of Inspector General                                                                      49
   Report Number: 09-06-001-03-370
   Strengthening Efforts to Assess and Account for
   Students with Cognitive Disabilities
   Would Help Job Corps Achieve Its Mission
                                                             External Resources/
                                                             Partnerships Used
           System to                                         to Pay for                Benefits
           Assess                     Average                Assessment or             of             Drawbacks of
           Students    Diagnostic     Assessment Cost        Special Education         Assessing      Assessing
Center     for CDs     Tools Used     per Student            Services                  Students       Students
Sierra         Yes     Reynolds       No cost other than                _              Provide        Drawbacks are
Nevada                 Intellectual   staff time.                                      requested      minimal.
                       Assessme                                                        accommod
                       nt Scales;                                                      ations
                       Raven                                                           based on
                       Progressiv                                                      IEPs
                       e Matrices;                                                     benefits
                       Neurobeha                                                       students.
                       vioral
                       Cognitive
                       Exam;
                       Adult Self-
                       Report
                       Scale;
                       ADHD
                       Clinic
                       Parent
                       Interview
Talking       Yes      Staff          Approximately          Community mental          Can focus               _
Leaves                 referrals;     $460 – the salary      health                    more on
                       TABE           cost of staff                                    students
                                      involved.                                        requiring
                                                                                       individual-
                                                                                       ized or
                                                                                       specialized
                                                                                       instruction.
Tongue        Yes      TABE,          Center responded       Clatsop Community         Students       Lack of resources:
Point                  Social         with "N/A".            College and               will           staff, funding,
                       Intake,                               vocational                become         experts, and
                       Career                                rehabilitation services   successful.    facilities.
                       Games
                       Workbook,
                       Basic
                       English
                       Skills
Treasure    Pendinga         _        _                      Vocational                     _         Lack of special
Lake                                                         rehabilitation services                  education instructor
                                                             and Zoe Learning                         and specialized
                                                             Center.                                  training for center
                                                                                                      staff.
Tulsa         Yes      TABE;          $100 - 150 per                    _              Students       Funding – center
                       Kaufman        hour.                                            can            can’t match
                       Brief                                                           succeed.       competitive salaries
                       Intelligence                                                                   for state certified
                       Test (K-                                                                       special education
                       BIT)                                                                           teachers.




   50                                                      U.S. Department of Labor—Office of Inspector General
                                                                               Report Number: 09-06-001-03-370
                                                                            Strengthening Efforts to Assess and Account for
                                                                                        Students with Cognitive Disabilities
                                                                                  Would Help Job Corps Achieve Its Mission




                                                                            External
                                                                            Resources/
                                                                            Partnerships
              System to                                                     Used to Pay for
              Assess                               Average                  Assessment or       Benefits of        Drawbacks of
Center        Students         Diagnostic          Assessment Cost          Special             Assessing          Assessing
              for CDs          Tools Used          per Student              Education           Students           Students
                                                                            Services
Weber              Yes         Weschler            Center’s LEA pays        Special education          _           There are no
Basin                          Intelligence        the salary for on-       services are                           disadvantages
                               Adult Scales        site certified special   provided by the                        in testing
                               III, Stanford       education teacher        Davis County                           students for
                               Binet               and access to            School District.                       disabilities.
                               Intelligence        psychologist;            The district also                      However, there
                               tests,              center pays for          absorbs personnel                      is no
                               Woodcock            testing and              costs.                                 completion
                               Johnson III         supplies that range                                             status for
                               Test of             between $200 and                                                students who
                               Achievement,        $300 annually.                                                  meet IEP goals
                               Woodcock                                                                            and not TARS
                               Reading – R                                                                         according to
                               Test, and the                                                                       the PRH.
                               Kaufman                                                                             Additionally,
                               Test of                                                                             there are no
                               Educational                                                                         allowances for
                               Achievement                                                                         modifications
                                                                                                                   or accommo-
                                                                                                                   dations in
                                                                                                                   programs for
                                                                                                                   students with
                                                                                                                   disabilities
                                                                                                                   according to
                                                                                                                   the PRH. This
                                                                                                                   creates
                                                                                                                   difficulties in
                                                                                                                   placing
                                                                                                                   students with
                                                                                                                   the needed
                                                                                                                   support
                                                                                                                   system.
         Source: Center survey data and OIG interviews of center officials.
         a
           Treasure Lake’s survey response indicated that the center is working on a contract with a certified special education
         instructor.




  U.S. Department of Labor—Office of Inspector General                                                                             51
  Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




52                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission




   Appendices




U.S. Department of Labor—Office of Inspector General                                                53
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




54                                       U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

                                            APPENDIX A
   BACKGROUND

   Overview of Job Corps

   The Job Corps program was established in 1964 to address employment barriers faced
   by severely disadvantaged youth throughout the United States. ETA is responsible for
   administering the Job Corps program. In 2002, Job Corps provided basic education,
   vocational and life skills training, and room and board services to approximately 65,000
   youth annually at 118 centers nationwide. Job Corps’ student population is mainly
   comprised of low-income youth between the ages of 16 through 24 who have dropped
   out of school; who have deficient basic skills (reading and/or math skills below the 8th
   grade); and others who are in need of additional assistance to complete an educational
   program or to secure and hold employment.

   The Job Corps program is authorized by the Workforce Investment Act of 1998
   (WIA). WIA provides the framework for a national workforce preparation and
   employment system designed to meet the needs of businesses for skilled workers
   and the training, education, and employment needs of individuals. Job Corps
   operating costs totaled $1.3 billion for PY 2002 and $1.5 billion for PY 2003.

   Cognitive Disability Defined

   Job Corps’ definition of cognitive disability includes four types of disability:

   1.   Learning Disabilities,
   2.   Attention Deficit Hyperactivity Disorder (ADHD),
   3.   Mental Retardation, and
   4.   Traumatic Brain Injury.

   For the purposes of this report, we adopted Job Corps’ definition of cognitive disability
   that refers to the following four disabilities: learning disabilities, ADHD, mental
   retardation, and traumatic brain injury. IDEA regulations define the four disabilities used
   in this definition as follows (see 34 C.F.R. 300.7(c)):

        •   Specific learning disability is defined as a disorder in one or more of the basic
            psychological processes involved in understanding or in using language, spoken
            or written, which disorder may manifest itself in imperfect ability to listen, think,
            speak, read, write, spell, or do mathematical calculations.

        •   ADHD is defined under the “other health impairment” category as having limited
            strength, vitality or alertness, including a heightened alertness to environmental
            stimuli, that results in limited alertness with respect to the



U.S. Department of Labor—Office of Inspector General                                                55
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

            educational environment, that is due to chronic or acute health problems such as
            ADHD and adversely affects a child’s educational performance.

        •   Mental retardation means significantly sub average general intellectual
            functioning, existing concurrently with deficits in adaptive behavior and
            manifested during the developmental period that adversely affects a child’s
            educational performance.

        •   Traumatic brain injury means an acquired injury to the brain caused by an
            external physical force, resulting in total or partial functional disability or
            psychosocial impairment, or both, that adversely affects a child’s educational
            performance. The term applies to open or closed head injuries resulting in
            impairments in one or more areas, such as cognition; language; memory;
            attention; reasoning; abstract thinking; judgment; problem-solving; sensory,
            perceptual, and motor abilities; psychosocial behavior; physical functions;
            information processing; and speech.

     Job Corps has not reported a high incidence rate of mental retardation or traumatic
     brain injuries among its student population.

     IDEA and Section 504

     The IDEA regulations at 34 C.F.R. 300.530-300.535 (evaluation procedures), 34 C.F.R.
     300.320 (initial evaluations of children being considered for special education and
     related services), and 34 C.F.R. 300.7 (defining “child with a disability”) apply to this
     program. Additionally, the Section 504 regulations at 34 C.F.R. 104.35 (evaluation and
     placement procedures), 34 C.F.R. 104.4(j) (defining “handicapped person”), and 34
     C.F.R. 104.3(l) (defining “qualified handicapped person”) apply; see also the regulations
     at 29 C.F.R 32.3 (defining a “qualified handicapped individual” and “reasonable
     accommodation”) and 29 C.F.R 33.37 (responsibilities to collect and maintain data).




56                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

                                                                                    APPENDIX B

   OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

   Objectives

   The purpose of our audit was to evaluate Job Corps’ processes for assessing students
   for unknown or undisclosed cognitive disabilities, such as a learning disability or ADHD.
   Specifically, we conducted our work to address the following questions:

       1. Should Job Corps strengthen efforts to identify students with unknown or
          undisclosed cognitive disabilities?

       2. What impact would an improved assessment process have on student outcomes,
          program resources and costs?

       3. Does Federal law require Job Corps to assess students for cognitive disabilities?
          If so, does Job Corps have an effective process to ensure compliance?

       4. Are Job Corps’ data on student cognitive disabilities reliable?

   Scope and Methodology

   To accomplish our objectives, we mailed a survey to the 11 center schools Job Corps
   identified and performed work at Job Corps’ National Office and 7 centers –
   4 center schools, 2 centers with partnerships with public charter schools, and 1 center
   with no school affiliation. We also reviewed the results of national studies that
   addressed the identification of students with cognitive disabilities and interviewed
   officials from ED, as well as the officials from the New York State Department of Labor,
   who designed and implemented a model to assess welfare to work recipients for
   learning disabilities. Additionally, we interviewed national disability experts from the
   Learning Disabilities Association of America and the National Council on Disabilities.
   Our work did not include evaluating actual accommodation and delivery of services. We
   performed our work in accordance with generally accepted government auditing
   standards for performance audits from September 2003 through March 2005.

   While Job Corps does not require centers to assess students for unknown or
   undisclosed cognitive disabilities, Job Corps officials told us that centers that operate
   accredited high school diploma programs (center schools) might have assessment
   policies and procedures in place to identify these students. In August 2004, we
   surveyed current processes at 11 center schools. These are the 11 center schools Job
   Corps identified for us. We obtained and analyzed the centers’ responses to our
   request for current information regarding:



U.S. Department of Labor—Office of Inspector General                                                57
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission


           (a) legal requirements for identifying students with cognitive disabilities,

           (b) processes in place to assess, including, screening and diagnosis,

           (c) extent to which these centers are able to identify students with cognitive
               disabilities,

           (d) resources used and challenges they face to provide these services, and

           (e) related students’ outcomes.

     All 11 center schools responded.

     Site Visits

     We non-statistically selected 7 centers to visit out of 118 centers Job Corps operated in
     PY 2003. We conducted site visits during October 2003 through October 2004 to obtain
     current information about the same areas covered in the survey. (See above.)

     Table 4 (below) shows the centers by type of school they offered. We selected these
     centers on the basis of several factors, including whether the centers had established
     high school diploma programs or partnerships or co-enrollment agreements with local
     school districts to expand high school options, size of student population, performance
     outcomes, and recommendations of Job Corps for best practices centers.

                                                Table 4
                                          Seven Centers Visited

         Center                      State      Type
         Gary                        TX         No school affiliation
         Treasure Island             CA         School partnership
         Phoenix                     AZ         School partnership (Best Practice)a
         Clearfield                  UT         Center school
         Guthrie                     OK         Center school
         Tulsa                       OK         Center school
         Weber Basin                 UT         Center school (Best Practice)a
     a
     Job Corps officials recommended the Phoenix and Weber Basin Centers as best practice centers.



     At each center, we typically interviewed key personnel involved in the student
     assessment process, including the center’s disability designee, mental health
     consultant, and special education personnel.




58                                           U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 09-06-001-03-370
                                                            Strengthening Efforts to Assess and Account for
                                                                        Students with Cognitive Disabilities
                                                                  Would Help Job Corps Achieve Its Mission

   To determine whether Job Corps is required to assess students, and, if so, whether Job
   Corps has an effective process to ensure these requirements are met, we interviewed:

        •   Job Corps and ED officials, who are responsible for the programs that assess
            this segment of the youth population and analyze data from these programs; and

        •   legal counsel from the DOL, DOL’s OIG, and ED.

   We also used information obtained from our survey, center site visits and interviews of
   the New York State Department of Labor officials. These officials designed and
   implemented a model to assess welfare to work recipients for learning disabilities. We
   also interviewed national experts from organizations such as the Learning Disability
   Association of America (LDA). Additionally, we reviewed and analyzed Job Corps’
   current policies and requirements, as well as applicable laws and regulations, including
   IDEA and Section 504.

   To determine whether all center schools had been identified, we reviewed online
   databases including ED’s public school database, regional Associations of Accredited
   Schools databases, and states’ public school databases.

   To determine whether Job Corps can strengthen efforts to identify students with
   unknown or undisclosed cognitive disabilities, we interviewed key personnel from Job
   Corps’ National and regional offices and at select centers to obtain an understanding of
   Job Corps’ current assessment policies and procedures, and identify areas where
   enhancements could strengthen the student assessment process. We also interviewed
   ED officials to obtain an understanding of the applicable laws and regulations.

   We confirmed our understanding of Job Corps’ October 2003 through October 2004
   assessment policies and procedures as told to us by Job Corps and the procedures
   actually performed at the 14 centers we selected to review, through a combination of
   our survey and walk- throughs.30 We also reviewed the effectiveness of the procedures
   in place to identify students with these disabilities.

   We selected the 14 centers on the basis of several factors, including whether the
   centers had established high school diploma programs or partnerships or co-enrollment
   agreements with local school districts to expand high school options, size of student
   population, performance outcomes, and Job Corps’ officials’ recommendations for best
   practices centers.

   While Job Corps does not require centers to assess students for unknown or
   undisclosed cognitive disabilities, Job Corps officials told us that center schools, as well
   as centers recognized by Job Corps for best practices, may have assessment policies
   and procedures in place to identify these students. The 14 centers represent a

   30
     In total, we nonstatistically selected 14 centers for review. These centers were comprised of 3 non-
   school centers and 11 center schools.

U.S. Department of Labor—Office of Inspector General                                                        59
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     combination of 11 center schools, 2 centers with partnerships with public charter
     schools, and 1 center with no school affiliation. (See Table 5)

                                                 Table 5
                                        Fourteen Centers Selected

         Center                      State       Type

         Gary                        TX          No partnership with school system
         Treasure Island             CA          School partnership
         Phoenix                     AZ          School partnership (Best Practice)a
         Centennial                  ID          Center school
         Clearfield                  UT          Center school
         Guthrie                     OK          Center school
         Pine Ridge                  NE          Center school
         Red Rock                    PA          Center school
         Sierra Nevada               NV          Center school
         Talking Leaves              OK          Center school
         Tongue Point                OR          Center school
         Treasure Lake               OK          Center school
         Tulsa                       OK          Center school
         Weber Basin                 UT          Center school (Best Practice)a
     Source: Selection based on information provided by Job Corps officials.
     a
     Job Corps officials recommended the Phoenix and Weber Basin Centers as best practice centers.

     To determine the potential impact an improved assessment process will have on
     student outcomes and program resources and costs, we interviewed Job Corps and ED
     officials. We also interviewed center officials at center schools and obtained available
     information on student outcomes and related special education costs. In addition, we
     reviewed available national studies that address these issues, including the National
     Longitudinal Transition Study-2.

     To determine whether Job Corps data on cognitively disabled students were reliable, we
     interviewed officials and personnel from Job Corps and contracted parties who are
     responsible for collecting, analyzing, and reporting student cognitive disabilities data
     and reviewed applicable policies and procedures to gain a better understanding of Job
     Corps disability data collection system. We tested the PY 2002 cognitively disabled
     student data from the 14 centers because it was the most current data available as of
     June 2004. We tested the data obtained to determine whether
     (1) the students reported had terminated during PY 2002 per Job Corps' reporting
     standards, and (2) identified students possessed an IEP or a formal evaluation, which
     identified their cognitive disability and analyzed the results. Further, we analyzed data
     collection system modifications made by the Job Corps through March 2005.




60                                             U.S. Department of Labor—Office of Inspector General
                                                                         Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   Criteria

   We used the following criteria to perform this audit:

       •   Workforce Investment Act of 1998, Section 188
       •   Americans with Disabilities Act of 1990, Section 102
       •   Government Performance and Results Act of 1993
       •   Individuals with Disabilities Education Act Amendments of 1997
       •   Individuals with Disabilities Education Improvement Act of 2004
       •   Section 504 of the Rehabilitation Act of 1973
       •   GAO’s Standards for Internal Control in the Federal Government, November
           1999
       •   Job Corps’ Policy and Requirements Handbook, Chapters 1-3, Revised 2004
       •   Job Corps’ Program Assessment Guide, Preamble and Chapter 2.3, April 2002
       •   Job Corps’ Technical Assistance Guide G: - Learning Disabilities and Attention
           Deficit Hyperactivity Disorder, April 2003




U.S. Department of Labor—Office of Inspector General                                                61
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




62                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

                                           APPENDIX C

   ACRONYMS AND ABBREVIATIONS


   ETA               Employment and Training Administration
   DHHS              Department of Health and Human Services
   DOL               Department of Labor
   ED                Department of Education
   GAO               Government Accountability Office
   IDEA              Individuals with Disabilities Education Act Amendments of 1997
   IEP               Individualized Education Program
   LEA               Local Educational Agency
   MTC               Management and Training Corporation
   NCES              National Center for Education Statistics
   NLTS              National Longitudinal Transition Study
   NLTS2             National Longitudinal Transition Study-2
   OIG               Office of Inspector General
   OSEP              Office of Special Education Programs
   PRH               Policy and Requirements Handbook
   PY                Program Year
   RFP               Request for Proposal
   RTI               Response to Intervention
   TAG               Technical Assistance Guide
   WIA               Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                                63
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




64                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

                                           APPENDIX D

   AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                                65
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




66                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission




U.S. Department of Labor—Office of Inspector General                                                67
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




68                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission




U.S. Department of Labor—Office of Inspector General                                                69
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




70                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission



               AGENCY RESPONSE TO OIG DRAFT AUDIT REPORT
                             ATTACHMENT


   Agency’s Executive Summary Response

   Job Corps’ response to the Office of the Inspector General’s (OIG) results, findings, and
   eight (8) recommendations is grounded in a thoughtful consideration and review of the
   OIG’s audit, and an in-depth review of recent research and data pertaining to learning
   disabilities that have sparked significant re-thinking nationwide about how educational
   institutions identify, classify, and serve young people with cognitive disabilities, and
   appropriate public policy responses.

   Job Corps declines to accept the OIG’s recommendations to screen all students
   using an approach that may not benefit, and could potentially harm, some 65,000
   young people annually.

   Requiring Job Corps to expend Federal dollars on a new screening and formal
   evaluation program that has no solid basis in the current scientific research, and may in
   fact cause litigation and be harmful to students, utilizes resources which may be more
   purposefully applied to identification strategies that are research-based and in line with
   Job Corps’ mission.

   As the literature on the identification and assessment of cognitive disabilities within
   public education indicates, most educational agencies can take measures to strengthen
   their existing processes. While Job Corps agrees with the literature on this finding, we
   do not agree, and the literature does not support the idea, that the best method for
   identification is targeted screening of ALL students for cognitive disabilities at the point
   of enrollment into the program, followed by formal evaluation using the current methods
   commonly practiced.

   The OIG admits that it makes these recommendations without having evaluated the
   suggested screening tools or the tools that some Job Corps centers voluntarily utilize.
   As well, the OIG makes these recommendations without presenting evidence that it
   conducted a review of current cognitive disabilities assessment research or consulted
   national experts in the field.

   Job Corps believes that strengthening its cognitive disability assessment process is
   important. However, a review of the available literature has convinced us that:

       •   Current assessment methodologies used by school systems under the
           Individuals with Disabilities Education Act (IDEA) are being seriously questioned
           by disabilities researchers and the U.S. Department of Education based on hard,
           scientific research (“the gold standard”).

U.S. Department of Labor—Office of Inspector General                                                71
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission


         •   New assessment models such as Response-to-Intervention (among others) are
             being put forth to address the many validity problems that have been identified
             with the IQ-discrepancy construct, the predominant method used for formal
             evaluation of learning disabilities. Scientific research on the efficacy of these
             new models is underway.

         •   Job Corps’ current assessment process is similar to that typically implemented
             by school systems, which are currently struggling with what to do differently in
             light of scientific research findings strongly suggesting changes need to be made
             in their assessment processes under IDEA.

         •   Job Corps should not launch a pilot program that may not benefit, and could
             potentially harm, its students when there is not sufficient “gold standard”
             research supporting such significant changes.

     In response to the OIG’s recommendations 1-3, Job Corps will continue to follow the
     research, confer with national experts in the field, and convene work groups to study the
     new proposed models in order to invest its resources in strategies that are supported by
     the scientific research. Additionally, as part of our continuous program improvement
     effort, Job Corps is developing ongoing staff development to strengthen the use of key
     instructional strategies that have been scientifically shown to work with cognitively
     disabled students (and other low achieving students).

     Assessing all students positively identified through the OIG’s proposed cognitive
     disabilities screening process, which Job Corps does not accept, is cost
     prohibitive.

     With respect to the impact the OIG’s proposed assessment process would have on
     program costs, the OIG estimates that Job Corps would have to expend between $1.2
     million and $3.5 million annually for screening and formal assessment. These figures
     are based on the OIG’s Job Corps survey results of $0 to $600 for formal assessments.
     Job Corps believes the $600 figure is low at best. The OIG used this figure from one
     center that has made specific community connections. The majority of Job Corps
     centers would not be able to obtain services at such a low rate. Rates of $1,000 to
     $1,500 are more realistic, and these figures only reflect screening and diagnosis. Using
     the OIG’s formula, costs at these rates would result in expenditures between $2 million
     and $5.9 million. It is important to note that additional costs for qualified special
     education staff, training, and instructional materials must be factored into any screening
     and formal assessment program as well. With the inclusion of these additional
     expenses the estimates would increase substantially.

     While Job Corps does have a process in place to identify center high schools, it
     does not find it necessary to have a formal process in place to notify and inform
     all centers about their responsibilities under IDEA and Section 504 and ensure
     compliance.

72                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission



   Job Corps centers operate in forty-eight (48) states, the District of Columbia, and Puerto
   Rico. Each jurisdiction has considerable variation in their designations of Job Corps
   centers as accredited schools eligible for IDEA funds and subject to varying state and
   local regulations for administration of IDEA. Also, at any time, some center schools
   may accept U.S. Department of Education funds and consequently become subject to
   the requirements of Section 504. Because it may not be feasible to completely identify
   all Job Corps centers that are subject to the assessment provisions of IDEA and Section
   504 at any one point in time, the National Office proposes to undertake the following:

       •       Improve its annual survey of centers regarding high school programs in order
           to better identify centers that might be subject to IDEA and Section 504
           requirements; and

       •      Establish policies in the Job Corps Policy and Requirements Handbook
           (PRH) that:

              Describe the entities required to assess students for cognitive disabilities
               under IDEA and those required to assess students under Section 504. The
               language would provide examples distinguishing between the operations of
               Job Corps centers that would and would not fall under the requirements of
               IDEA and Section 504.

              Require centers that might meet any of the criteria under IDEA or Section 504
               to contact their state Departments of Education, or the Federal agencies
               providing financial assistance, to confirm their status and the required
               processes to provide assessments for students with undisclosed cognitive
               disabilities, and special education services.

              Require centers subject to IDEA or Section 504 requirements to document
               their processes for providing student assessments and special education for
               students in their center training plans.

              Provide a tool with the PRH to assist centers in determining and maintaining
               their compliance status.

              Describe how Job Corps Regional Offices will monitor center compliance
               through regularly scheduled center assessments.

   Job Corps would also revise the current standard request for proposals (RFP) to
   operate Job Corps centers, so that the RFP specifies that operators must assure that
   centers subject to the requirements of IDEA and Section 504 have processes in place to
   identify, evaluate, and provide special education to students with cognitive disabilities.




U.S. Department of Labor—Office of Inspector General                                                73
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     Job Corps has procedures to ensure that its cognitive disabilities data is reliable.

     With regard to criteria for cognitive disabilities, a PRH Change Notice has been
     developed and approved by the Department of Labor’s Office of Civil Rights to provide
     center staff with additional information in identifying students with cognitive disabilities.
     The policy revision is slated for release in October 2005. This revision provides (1)
     definitions and examples of physical and mental disabilities, and (2) answers to
     commonly asked questions regarding the reasonable accommodation process on Job
     Corps centers.

     Every quarter, Job Corps program staff review center disability data for anomalies. If
     there are concerns about the accuracy/completeness of the data, centers are contacted
     and technical assistance provided. The Job Corps disability data collection system
     could be improved by implementing a formal data audit system and requiring
     centers/contractors to be more accountable for the accuracy of data. A system will be
     developed to accomplish this goal. In addition, targeted assessments at 10-15 Job
     Corps centers are planned for the fall of 2005, with the major goal of these assessments
     being to determine why centers have problems with data entry/accuracy and how center
     disability data collection practices can be improved.

     With regard to communicating data policy and procedures, all information related to Job
     Corps’ policy on disability data collection is released through the Job Corps directive
     system. All policy directives and supporting technical guidance materials are supported
     through Web-based, telephone, and in-person training and technical assistance.
     Detailed information (including FAQs, tips, and detailed submission instructions) is
     available on the Job Corps Disability Web site (http://jcdisability.jobcorps.gov), and
     telephone technical assistance is available to centers on all aspects of data collection.
     A user’s guide on disability data collection was released in June 2005.




74                                         U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   Agency’s Section by Section Response

   Objective 1 – Should Job Corps strengthen efforts to identify students with unknown or
   undisclosed cognitive disabilities?

   Recommendations

          1. Conduct a pilot program to develop appropriate screening and formal
             evaluation methodology and assess the impact on performance and costs
             before implementing national policies and procedures.

          2. Based on the pilot program’s results, develop and implement national policies
             and procedures as needed to screen all students for cognitive disabilities and
             obtain formal evaluations when screening indicates a potential cognitive
             disability.

          3. Monitor compliance with any new policies and procedures.

   Agency Response

   Job Corps does not accept the OIG’s recommendations to screen all students using an
   approach that may not benefit, and could potentially harm, some 70,000 young people
   annually. Requiring Job Corps to expend Federal dollars on a screening and formal
   evaluation program that has no basis in scientific research, may cause litigation, and
   could be harmful to students, utilizes resources which may be more purposefully applied
   to identification strategies that are research-based and in line with Job Corps’ mission.

   The OIG’s recommendations are based on four assumptions outlined in their letter to
   Emily Stover DeRocco, Assistant Secretary for Employment and Training, submitted
   with the Discussion Draft dated July 29, 2005, and modified in the September 19, 2005,
   Draft Audit Report. The assumptions were:

       1. Job Corps students are not adequately assessed for unknown or undisclosed
          cognitive disabilities. (July Draft)

          We found that improving efforts to assess and account for students with unknown
          or undisclosed cognitive disabilities would help Job Corps achieve its overall
          mission. (September Draft)

       2. Although Job Corps is not legislatively required to specifically assess ALL
          students for cognitive disabilities, doing so falls within the overall mission and
          purpose of the program. (July Draft)

          Although Job Corps is not legislatively required to specifically assess ALL
          students for cognitive disabilities, doing so would help Job Corps achieve the
          program’s overall mission and purpose. (September Draft)

U.S. Department of Labor—Office of Inspector General                                                75
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

        3. Job Corps’ student population is at-risk for cognitive disabilities.

        4. Effective identification and accommodation would address significant barriers to
           employment and improve the program’s student outcomes.

     According to current literature on cognitive disabilities identification and assessment,
     Job Corps finds these assumptions to be flawed. Appendix A provides a literature
     review that addresses each of the assumptions.

     As the literature on the identification and assessment of cognitive disabilities within
     public education indicates, most educational agencies can take measures to strengthen
     their existing processes. While Job Corps agrees with the literature on this finding, we
     do not agree with the OIG, and the literature does not support the idea, that the best
     method for identification is targeted screening of ALL students for cognitive disabilities
     at the point of enrollment into the program using screening tools such as the Kaufman
     Brief Intelligence Test (K-BIT); the Learning Styles and San Diego Quick Gauge
     Reading Inventories; or the Learning Needs Screening Tool.

     Indeed, the OIG admits that it makes its recommendations without having evaluated any
     of these screening tools. In addition, the OIG makes its recommendations without
     presenting evidence that it conducted a review of current research or consulted national
     experts in the field of cognitive disabilities.


                                  SCREENING/IDENTIFICATION

     The primary screening tool referenced by the OIG has no strong scientific
     research base, is designed to be used on a voluntary basis with a different
     population than Job Corps’ population, and does not further Job Corps’ mission.

     The Washington State Learning Needs Screening Tool was apparently developed and
     primarily used to screen long-term Temporary Assistance for Needy Families (TANF)
     recipients under Welfare-to-Work (WtW) programs, which does not match the
     circumstances or the purposes of the Job Corps program, and will likely inhibit Job
     Corps’ ability to achieve its mission to attract and teach students and prepare them for
     postsecondary opportunities.

     As revealed by the New York State pilot study of the use of the Washington State
     screening tool as a method for identifying the need for follow-up diagnostic evaluations
     (State of New York, Department of Labor, 2005), the tool was designed:

        •   For use with long-term TANF recipients who are generally considered the very
            hardest to serve in getting them the kind of steady employment needed to
            become self-sufficient.



76                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

       •   As part of a multi-stage WtW case management process for evaluating the extent
           to which an individual can participate in work activities when determining how
           best to help the individual become self-sufficient (i.e., to identify work limitations,
           hidden disabilities, and employment service strategies that include
           accommodations).

       •   To be used after there is a suspicion on the part of the case manager/case
           worker that there may be possible unidentified barriers impeding the person’s
           progress on work activities and in conjunction with a review of past work and
           educational history/records, among other factors.

       •   To be used in a strictly voluntary manner—TANF recipients are not required to
           complete the screening tool.

       •   To be followed up, when screened positive, with a formal diagnostic evaluation
           completed by a psychologist or other licensed professional and which is based
           on a battery of aptitude and achievement tests that seek to determine significant
           discrepancies between abilities and performance in such areas as reading,
           writing, and math.

   Although the tool has been validated, the OIG’s recommendation to screen all students
   did not consider scientific study findings such as the research completed on the Smith
   Learning Disabilities Screen (Smith & Wiener, 2002). This screening tool was
   developed for adult use with community college and university students as a simple way
   to help professionals identify those adults who are likely to have learning disabilities and
   should be referred for diagnostic assessment (same reasons essentially for the
   screening tools OIG is suggesting). The tool’s validation results indicated that it
   appeared to identify adults with learning disabilities with at least 75% accuracy. Despite
   these results, the researchers noted the following caveats concerning its use (Smith &
   Weiner, 2002, p.14-15):

   •   “The tool is a screen and should not be used as a substitute for a diagnostic
       assessment.

   •   It should not be administered to large numbers of individuals who have no reason to
       believe they might have learning disabilities, as false positive scores could then lead
       to unnecessary concerns by individuals who do not have learning disabilities.

   •   The tool is intended to be administered in the case of an individual who is
       experiencing some difficulties in adjustment or achievement, and is seeking an
       explanation for the problems.

   •   Individuals should provide informed consent prior to completing the test.




U.S. Department of Labor—Office of Inspector General                                                 77
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     •   Referrals should be made for psycho-educational assessment at or above the cut-off
         score and there is a history of academic or vocational struggles.”

     Job Corps is an educational and career technical training program for economically
     disadvantaged youth ages 16-24. Its mission is to attract eligible young adults, teach
     them the skills they need to become employable and independent, and help them to
     secure meaningful jobs or opportunities for further education. As such:

         •   It is not aimed at moving individuals off the welfare caseloads through a work-first
             type approach or determining eligibility for SSI, although ultimate goals of the
             program are to provide students with the skills needed for gainful employment
             and/or postsecondary education.

         •   The Job Corps education and career technical training program focuses on
             academic and technical education, including attainment of a high school diploma
             and mastery of academic standards that help students gain entry into meaningful
             careers or postsecondary education, which means that assessments of all
             students must be heavily focused on learning needs, as well as employment
             needs.

         •   Unlike TANF, Job Corps’ mission is to “attract” youth to the program. Screening
             may inhibit Job Corps’ ability to “attract” clientele when potential applicants learn
             that because of certain characteristics identified by the OIG, such as
             “economically disadvantaged, high school dropout, reading below the 8th grade
             level, and never held a full-time job,” Job Corps suspects there is something
             wrong with them and they are going to be specifically screened for cognitive
             disabilities, and then automatically referred for a formal evaluation, if screened
             positive. While we recognize that the Washington State tool and the others
             mentioned are generally about learning needs, it is the notion that they would be
             used to specifically target this group of students for cognitive disability
             evaluations that is the problem.

         •   The age cohort overlaps but is not really the same as the “families with children”
             who are eligible for TANF. While all Job Corps program participants are low
             income, only 31.5% of students entering the program are from families who are
             on public assistance (U.S. Department of Labor, Job Corps Annual Report,
             2005).

     Screening all Job Corps students for cognitive disabilities in the manner
     proposed by the OIG may expose Job Corps to litigation, stigmatize students who
     are already disengaged from school work, and act as a disincentive to
     participating in the program.

     Neither IDEA (1997 and now 2004) nor Section 504 of the Rehabilitation Act of 1973
     REQUIRE the screening/assessment of ALL students specifically for cognitive
     disabilities in the manner suggested by the OIG, either for those in public school

78                                         U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   systems or those in alternative education and training programs such as Job Corps
   which are funded in part or in whole with Federal dollars. These laws do require an
   identification process; however, as discussed later in our response, there are better
   alternatives to be considered.

   To mandate that Job Corps specifically screen all students for cognitive disabilities in
   order to determine who needs a formal diagnostic evaluation may open up unnecessary
   litigation. Special education under IDEA has been the most litigated area in education
   (Katsiyannis & Herbst, 2004), with a lot of that litigation involving informed parental
   consent provisions and the need for school districts to ensure nondiscriminatory
   assessment in verifying students for special education. The OIG’s unsubstantiated
   assumption that Job Corps students must be screened because they are at high risk for
   cognitive disabilities due to characteristics found with a high degree of frequency in the
   general student population increases the likelihood that such a practice would be
   challenged.

   Without citing specific studies, the OIG contends that “national and regional studies
   suggest certain characteristics are prevalent in both cognitively disabled youth and Job
   Corps’ student population.” The OIG describes these characteristics as “economically
   disadvantaged, high school drop out, below eighth grade reading level, and never held
   a full-time job.” It appears that the OIG is linking cognitive disabilities to characteristics
   that describe a large percentage of the youth in this country. For example:

       •   The majority (68%) of U.S. 8th graders are not reading at grade level. According
           to a Rand Research Brief titled Meeting Literacy Goals Set by No Child Left
           Behind (2004), 32% was the average proficiency rate in Reading for 8th graders
           on the 2003 National Assessment of Educational Progress.

       •   Approximately one-third of U.S. 9th graders will not graduate from high school in
           four years with a high school diploma in 12th grade, according to the Harvard
           University Civil Rights Project (Orfield et al., 2004).

       •   Thirty-eight percent of U.S. children live in low income families (National Center
           for Children in Poverty 2005).

   Contrary to the OIG’s unsupported assumption, the research does not support the
   contention that Job Corps’ student population is at “higher risk” for cognitive disabilities
   than any other youth or young adult population.

   Scientific research on the identification and classification of public school students as
   learning-disabled under IDEA indicates that low socio-economic status (SES) cannot be
   directly linked to learning disabilities (LD), and sociocultural factors may weigh heavily
   on why LD is overidentified, even though these factors are to be ruled out when
   assessing students for cognitive disabilities.



U.S. Department of Labor—Office of Inspector General                                                79
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     For example, Blair and Scott (2002) noted: “The rapid growth of the LD label points to a
     complex problem in which there is some uncertainty as to the extent to which
     underachieving students with and without the LD label are distinct.” (see, for example,
     Algozzine, Ysseldyke, & McGue, 1995; Fletcher et al., 1994; Kavale, 1995; Kavale,
     Fuchs, & Scruggs, 1994; Pennington, Gilger, Olsen, & DeFries, 1992; Ysseldyke,
     Algozzine, Shinn, & McGue, 1982 as cited by Blair and Scott, p. 1). The etiological
     case perspective and findings from various researchers suggest that low socio-
     economic status (SES) substantially increases the risk for LD; while the excess case
     perspective and study findings from various researchers suggest that LD and low
     achievement (LA) groups overlap and that LA is frequently misdiagnosed as LD. In
     Blair and Scott’s epidemiological study on distinguishing LD from learning problems
     originating in social and economic disadvantage (using the IQ-discrepancy construct),
     the authors found that they: could not conclusively show cause-and effect regarding the
     relationship of low socioeconomic status to LD placement; could only report the strong
     association between the two; and could not resolve the issue of the excess case versus
     etiologic case distinction in LD placement.

     MacMillan and Siperstein (2001) also examined through scientific research how school
     systems are differentiating SES and other factors in their identification of LD, noting:
     “Cultural, environmental, and economic factors, rather than serving as a cause for
     rejecting the diagnosis of LD, often weigh heavily in the school’s decision to classify a
     child as LD. Nowhere is this more evident than in studies that contrast the decision-
     making process in urban and suburban school districts.” The authors point out that LD-
     classified students in urban schools represent very different learning problems than do
     those in suburban districts—“They score lower on measures of intelligence which
     requires that sociocultural factors must be considered as contributors, if not causes, of
     their learning difficulties.” (MacMillan and Siperstein, 2001, p 12).

     Finally, as cautioned by the 1997 IDEA, over-identification of minority children has been
     a serious problem, although the U.S. Department of Education’s 24th Annual Report to
     Congress on the Implementation of IDEA (2002) indicates that the population of high
     school students receiving special education in 2001 more closely mirrored the
     racial/ethnic distribution of the general population than had been true in 1987.
     Consequently, attention must be paid to racial, ethnic, and linguistic diversity to prevent
     misdiagnosis and mislabeling. In Job Corps, nearly 83% of Job Corps’ student
     population are people of color— 48.9% African American; 16.9% Hispanic; 3.3%
     American Indian; and 2.2% Asian/Pacific Islanders (U.S. Department of Labor, Job
     Corps Annual Report, 2005). Requiring a population which is predominantly of color to
     participate in an all-student cognitive disabilities screening program could give rise to
     litigation challenges.

     Screening all students for cognitive disabilities may also stigmatize students who are
     already disengaged from school work. Indeed, Job Corps’ recent experience piloting a
     program aimed at strengthening cognitive abilities revealed repeatedly in evaluations
     that students assigned to the pilot program felt stigmatized by, and actually experienced
     stigmatization from, other students not participating in the pilot. To begin the Job Corps

80                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   enrollment process with mandatory screening for the possibility of cognitive disabilities
   will likely reinforce in the student a belief that she/he is unable to successfully complete
   school work. The OIG’s recommendations are particularly bold when the student has
   never been asked to meet an at-risk screening requirement specifically for cognitive
   disabilities in any other educational setting.

   According to the National Research Council (2004):

       •   Dropping out of high school is generally considered a key indicator of
           disengagement from school work.

       •   With a high degree of frequency, students disengage from an educational setting
           because they do not believe they are able to do school work.

       •   A key component in re-engagement is providing an environment that instills in
           the student a belief that she/he can master the academic and technical
           requirements to reach career goals.

   If Job Corps were to specifically screen all students at enrollment in the manner
   suggested by the OIG, and a large percentage of students are then sent on for formal
   psychological/diagnostic assessments for specific cognitive disabilities, it is likely that
   for many, the formal assessments will come back with a diagnosis of low achievement
   or a variety of reading or other learning difficulties, but not necessarily LD or Attention
   Deficit Hyperactivity Disorder (ADHD), or worse yet, come back with a misdiagnosis or
   misclassification of LD or ADHD. Low achieving students would then be “labeled” and
   stigmatized rather than re-engaged through research-based classroom strategies such
   as direct and strategy instruction that appear to work well with low achieving students
   (Swanson, 2000).

   As noted by Higgins, et al. (2002), in their 20-year longitudinal, ethnographic study of
   forty-one (41) individuals formally diagnosed with learning disabilities, there is a rather
   long process of “distinct stages of ‘coming to terms’ with the technical realities of their
   disability and with the social/emotional impact of being labeled. These included (a)
   awareness of their ‘differences’; (b) the labeling event; (c) understanding/negotiating the
   label; (d) compartmentalization; and (e) transformation (p. 3).” “Our participants have
   shared painful experiences of being teased, hounded, bullied, and ridiculed. In almost
   every case, the stigmatization and abuse received by this group far exceeds the
   severity of their difficulties” (p. 15).

   Because of the potential stigmatization, it is imperative that Job Corps not put all of its
   students through a process that could result in mislabeling or misdiagnosing the
   cognitive learning disabilities of many students.


                                     FORMAL EVALUATION


U.S. Department of Labor—Office of Inspector General                                                81
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission


     The OIG implies that Job Corps agrees that there is a high incidence of students
     with cognitive disabilities when in fact there is a high incidence of
     misclassification and misdiagnosing due to the IQ-discrepancy approach used in
     formal evaluations.

     The OIG continually references Job Corps’ 2003 LD/ADHD Technical Assistance Guide
     (TAG G) to imply that Job Corps agrees that there is an epidemic of individuals with
     cognitive disabilities. Reliance on the TAG G for this proposition is misguided. A call
     from the OIG to Job Corps prior to including TAG G references would have revealed
     that this document will be updated to reflect new understandings in the research,
     including, for example, that misdiagnosis and misclassification, especially of LD, are
     significantly inflating the number of students counted as cognitively disabled, hence
     leading all to believe that there is an “epidemic” of learning disabilities. The Specific
     Learning Disability (SLD) category under IDEA, as noted by the OIG, has seen
     significant increases over the years in the numbers so classified for purposes of special
     education services. The National Center for Education Statistics report on the Condition
     of Education in 2005—Indicator 6 (U.S. Department of Education, 2005) states that
     “specific learning disabilities made up 50% of all special education students served
     under IDEA.” However, the scientific research tells us that these increases are in large
     measure due to formal assessment practices that rely on the IQ-achievement
     discrepancy construct and due to public education’s need to provide additional
     resources to low achieving students.

     In their work on how schools operationally define and classify students as LD,
     MacMillan and Siperstein (2001) found that:

        •   The dramatic increase in the numbers identified as LD is in large part due to the
            fact that public schools do not properly apply the exclusionary criteria for LD
            identification. Classification of children as LD does not constitute a diagnosis;
            rather it has become a catch-all designation for eligibility and planning for
            services.

        •   For the most part, schools are not examining severe discrepancy and are not
            carefully excluding cases due to mental retardation or sociolinguistic or
            instructional disadvantage.

        •   When general education teachers are faced with students they cannot help, the
            tendency is to refer them and press for special education assessment and
            services under IDEA.

     In H. Lee Swanson’s (2000, p. 4) review of issues facing the field of learning disabilities,
     he examined the research on the IQ-discrepancy approach in light of the “epidemic
     numbers” of LD being reported. One of his conclusions was that: “When compared to
     non-discrepancy-defined poor achievers, learning-disabled-defined groups are more
     similar in processing difficulties than different. Thus it is becoming an untenable idea

82                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   that aptitude-achievement discrepancy tells us anything important about processing
   mechanisms underlying such areas as reading disabilities.” He also points out that the
   implications of the research on distinguishing between LD and garden-variety poor
   readers have not changed the actual diagnostic practices used by schools.

   Many students assessed as LD may not have a cognitive dysfunction, but may simply
   be very low achieving. Fuchs and Fuchs (2001) in their White Paper for the U.S.
   Department of Education, Office of Special Education Programs (OSEP) “Is learning
   disabilities just a fancy term for low achievement?” conducted a meta-analysis of
   scientific studies in which the reading achievement of LD and low achievement
   nondisabled students (LA) could be compared. Eighty-six studies met the research
   team’s stringent inclusion criteria. The most salient conclusions for this White Paper, as
   summarized by Elksnin et. al. (2001, pg. 303) include:

       •   Students with LD have more severe differences in reading performance than
           students who are LA.

       •   Such differences tend to be more dramatic when (1) timed rather than un-timed
           tests are used, (2) students are in higher grades and experience accumulating
           deficiencies in reading, and (3) objective test scores rather than human judgment
           are used in LD diagnosis.

       •   It may well be that differences among students with LD and LA are more a matter
           of degree rather than of kind. Similar to other syndromes that are based on
           degree of difference from a range of acceptable levels, such as hypertension and
           obesity, LD may be a disability that is defined simply by extreme low
           achievement.

   Finally, use of the IQ-discrepancy construct often results in misidentification of LD
   because of the way in which it has been applied from a statistical standpoint. Because
   regression effects are often not controlled for, the discrepancy construct tends to over-
   identify as LD those with a high IQ and to under-identify those with a low IQ (Spear-
   Swerling & Sternberg, 1998).

   The OIG’s statement on page 16 of its report — “For example, ED reported in 2002 that
   7% of children ages 6-17 had a specific learning disability or mental retardation or
   traumatic brain injury. The reported percentage is conservative because ADHD was not
   included.” — provides further evidence that a thorough review of incidence data and
   associated literature has not been done. Research conducted by Forness & Kavale
   (2001) on where and how ADHD is being classified and served under IDEA reveals that
   most are being counted in the Emotional Disturbance Category (40% of this category is
   likely ADHD) and the Specific Learning Disabilities Category (25% is likely ADHD). In
   applying their analysis to the 7% figure cited above, which comes from the ED 2002
   Annual Report to Congress on IDEA (U.S. Department of Education, 2002), Job Corps
   calculates that the 7% becomes 7.22%. Because of the co-morbidity of ADHD and


U.S. Department of Labor—Office of Inspector General                                                83
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     because there is no pure ADHD category for reporting under IDEA, among other
     factors, ADHD counts overlap. This combined with other literature cited in Appendix A
     strongly suggests that prevalence and incidence data were not interpreted or used
     carefully by the OIG in developing its recommendations.

     The OIG’s statement — ”Job Corps has not emphasized the need to identify, [evaluate],
     and accommodate students with cognitive disabilities” — is not accurate. Job Corps
     has emphasized the need to identify and accommodate students with cognitive
     disabilities through its reasonable accommodation policy and related activities (e.g.,
     training, Web site, other directives). Furthermore, the emphasis of TAG G is on
     identification of the possibility of cognitive disabilities through basic education and other
     skills assessments of learning needs, direct observation and continuous monitoring of
     students’ progress as they are engaged in the learning process, and use of research-
     based instructional strategies such as direct instruction and strategy instruction that
     have been shown to work with cognitively disabled students and all students. When
     learning difficulties persist and educational staff have exhausted all appropriate
     strategies to help a student progress, then the student is referred for specific screening
     and formal, diagnostic evaluation of cognitive disabilities. In many respects, Job Corps’
     current process is similar to a new model —Response to Intervention— that many of the
     leading LD researchers are advocating as an alternative to using the IQ-discrepancy
     construct.


                          STRENGTHENING JOB CORPS’ CURRENT
                        IDENTIFICATION AND EVALUATION PROCESS

     Since Job Corps and public schools have similar missions, Job Corps’ current
     “assessment process” is very similar to the typical process used by public
     schools to identify students for LD (or any disability under IDEA).

     Job Corps has an established process for identification of cognitive disabilities in
     accordance with Section 504 of the Rehabilitation Act of 1973, as documented in the
     Job Corps Policy and Requirements Handbook (PRH) and in the Job Corps Technical
     Assistance Guide on Learning Disabilities and Attention Deficit Hyperactive Disorder
     (TAG G). Neither IDEA nor Section 504 requires screening/assessment of all students
     for LD (as recommended by the OIG), although an identification process is required.

     The Job Corps process, while not established for purposes of IDEA, essentially fulfills
     the “spirit of IDEA” in that it parallels the fundamental identification and evaluation
     process practiced by public schools in their compliance with IDEA. A general
     comparative table found in Appendix A at page 15 serves to illustrate this point. The
     table was prepared based on research by MacMillan and Siperstein (2001) regarding
     the process by which public school systems identify and classify LD; review of the
     process used by the school system in Montgomery County, Maryland; the PRH; and
     research by Ormsbee (2001) on how pre-assessment teams work in public school
     systems.

84                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission



   Just as public school systems are struggling with how to improve their processes in light
   of the current scientific research, Job Corps too must seek better ways. The question is
   not if, but how.

   Because Job Corps believes that its program components should be based on the
   same “gold standard” of research supported by the U.S. Department of Education in
   providing guidance to schools, it has turned to the academic literature and “hard
   studies” coming out of the learning disabilities research community on identification and
   assessment for an understanding of how best to strengthen its current cognitive
   disability assessment process.

   Much of that recent scientific research has examined the IQ-discrepancy construct and
   its validity as a “predictor” of learning disabilities, as well as the impact its use has had
   on over-identification and misidentification of LD under IDEA. Its efficacy as a
   “predictor” of LD has undergone serious research challenges starting in the late 1990s,
   with multiple researchers questioning the severe discrepancy criteria due to its poor or
   undemonstrated reliability and validity. As summed up by Dr. Horowitz, Director of
   Professional Services at the National Center for Learning Disabilities (2005), the IQ-
   discrepancy construct is not an accurate predictor of LD because there is little research-
   based evidence for it.

   The research-based dissatisfaction with the IQ-achievement discrepancy approach has
   led others to re-examine the use of the intrinsic processing approach to identification of
   LD. This approach was commonly used in the late 1960s and early 1970s, but declined
   during the 1980s due to an inability to validate the theories through research (Myers &
   Hammill, 1990 as cited in Dean and Burns, 2002). In Dean and Burns’ critical review
   (2002) of the more recent sophisticated and comprehensive uses of this approach, the
   two examined the theoretical basis and large-scale consistent implementation efforts,
   and researched classroom effectiveness. They concluded that: “Results suggest that
   not unlike the discrepancy model, the processing definition of LD does not differentiate
   students with LD from low achievers, is inconsistently implemented, and does not offer
   enough research to conclusively support its instructional validity” (p. 1).

   Furthermore, Torgensen states in his OSEP commissioned White Paper, 2001, as
   summarized by Elksnin, et al., 2001: “we are currently unable to diagnose learning
   disabilities directly and reliably by assessment of intrinsic processing weaknesses.”
   Although there is no direct test for assessing intrinsic processing weaknesses, he
   suggests that considerable progress in the field of LD has been made over the past two
   decades, such as in phonological processing in the development of basic reading and
   its manifestations of LD. He further suggests that process assessment warrants further
   investigation.

   There are many more studies and LD researchers that could be cited to illustrate that
   the IQ-discrepancy approach and the intrinsic processing approach have research-


U.S. Department of Labor—Office of Inspector General                                                85
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     based flaws that suggest one should look elsewhere for effective models, such as the
     Response-to-Intervention approach.
     In August 2001, USED/OSEP sponsored a critical summit on Learning Disabilities
     wherein nine (9) key White Papers were developed, presented, and discussed among
     the LD community, from which a series of consensus-based decisions were determined
     to help guide future policy, research, and practice, especially in the area of identification
     and classification of LD. This effort and the subsequent work of the 2002 and 2004 LD
     Roundtables have resulted in consensus opinions among well-respected LD
     researchers and organizations that the Response-to-Intervention approach should be
     strongly considered as a model to replace the current IQ-discrepancy approach.

        •   The Response-to-Intervention (RTI) approach to identifying cognitive
            dysfunction is included in the IDEA 2004 law. The LD Roundtable 2004,
            consisting of fourteen (14) national organizations involved in research-to-practice
            and related policy issues, made many research-based, consensus
            recommendations concerning IDEA 2004 and its regulations. Chief among them
            involves eliminating the absolute requirement for the existence of a severe
            discrepancy between achievement and ability, but allowing school districts to
            continue to use it as one element of a comprehensive assessment. Regulatory
            recommendations also include language that supports the use of the RTI
            approach, should a school district choose to include such a process as part of its
            evaluation procedures. Both of these items were included in the 2004 IDEA law;
            however, it remains to be seen what the final regulations will precisely say about
            implementation procedures (current draft regulations are undergoing the public
            comment period).

        •   The Response-to-Intervention approach to identifying cognitive
            dysfunction is supported by key researchers and professional
            organizations. The OSEP-sponsored Learning Disabilities Summit in 2001 put
            forth a majority opinion suggesting that the IQ-achievement discrepancy is
            neither necessary nor sufficient for identifying individuals with specific learning
            disabilities. To replace the discrepancy model, a RTI model was endorsed by
            many key researchers and professional organizations (see, for example,
            Reschly, et al., 2003; see also www.nrcld.org for all consensus statements and
            related White Papers for the Summit).

     The RTI model or approach to identification is well-regarded as a viable alternative to
     current LD systems of services and supports in the public education system, and has
     gained momentum as leading edge thinking in this field. As stated by Horowitz (2005),
     RTI approaches “have been around for more than 20 years under names like Teacher
     Assistance Team Model, School-Based Consultation Team Model, and Problem-Solving
     Model.” Horowitz goes on to describe the RTI approach as a process for serving
     students who struggle with learning that can contribute meaningfully to the identification
     and classification process because it is based on evidence that informs the decision-
     making process.


86                                         U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   Response-to-Intervention is a service delivery approach that guides educators to
   anticipate, recognize, and document student learning; and to provide timely, well-
   targeted and effective instruction; and, as such, ties LD identification to instructional
   interventions. How students respond to this instruction (in combination with more
   formal, psychological assessment, where needed) determines a student’s eligibility for
   classification as LD. While there have been variations in the implementation of the RTI
   model, there are a number of basic features that all RTI approaches have in common:

       •   Students first receive high quality instruction in general education settings.

       •   To the greatest extent possible, all instruction is research-based.

       •   General education professional and other teaching staff share active roles in
           student instruction and in collecting data on student performance.

       •   Student progress is monitored across the curriculum, not just on specific isolated
           skills.

       •   Student progress monitoring is ongoing (not just a snapshot of scores at a
           particular point in time).

       •   The RTI approach is well documented and seamlessly integrated into school-
           wide practice.

   This leading-edge approach is very much in line with Job Corps’ current educational
   philosophy and the in-progress development of a new vision for an integrated, demand-
   driven, and agile academic education and technical training system. (See Appendix B.)
   Job Corps has always focused on assessing the learning needs, styles, and career
   goals of all its students, and then providing individual instructional strategies and
   supports as warranted by the assessments. What it now needs to do is strengthen
   those processes based on strong scientific research in assessment strategies.

   Although RTI approaches have been used by some school systems in various forms,
   they have not yet been rigorously studied through scientific methods. More recent
   scientific or rigorous research commissioned by OSEP to be carried out by the National
   Research Center for Learning Disabilities (NRCLD) will provide more solid research on
   RTI and other methods. This research, just getting underway, includes, for example,
   randomized field trials to explore the relative utility of specific identification methods in
   reading and math, and a scientific evaluation of local school use of the Response-to-
   Intervention approach in LD identification (Fuchs, Deshler, and Reschly, 2004; Mellard,
   Byrd, Johnson, Tollefson, and Boesche, 2004). Also, there are leading researchers
   who are proposing yet other models to be considered (see for example Kavale,
   Holdnack, & Mostert, 2005).




U.S. Department of Labor—Office of Inspector General                                                87
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     The current literature on cognitive disabilities and IDEA (2004) caution that the
     discrepancy model is no longer accepted as a stand-alone method to assess learning
     disabilities. This is at the heart of the debate about how to identify and evaluate
     cognitive disabilities. At the same time, national experts are coming to consensus on
     other identification and assessment models, such as Response to Intervention, to
     perhaps replace the discrepancy model. At this point in time, it is in the best interest of
     students that Job Corps proceed with caution in the system-wide adoption of any new
     identification and assessment practices. Therefore, Job Corps will continue to
     implement its current cognitive disabilities program that is philosophically in line with
     both the approach used by public school systems and the core features of the RTI
     model. (See Appendix A, page 15, and Appendix B.) In addition, Job Corps will
     continue to follow the research, confer with national experts, and convene expert panels
     in order to invest its resources in identification (screening) and assessment/evaluation
     strategies that are supported by scientific research.


     Objective 2 – What impact would an improved assessment process have on student
     outcomes and program costs?

     Recommendations

     None.

     Agency Response

                                     PROGRAM OUTCOMES

     The OIG does not provide any impact study data to support its contention that student
     outcomes will improve by screening all students for cognitive disabilities. While the
     Weber Basin example of improvement on outcomes is useful (page 22 of the OIG
     report), without a random assignment or quasi-experimental net impact study there is no
     way to really know for sure what contributed to the improved outcomes (i.e., was it the
     screening process, or improved instructional strategies for all students, or improved
     strategies just for those determined to be cognitively disabled, or a very specific
     strategy, or something else?).

     According to a follow-up discussion with the Weber Basin special education teacher,
     who is a school district employee, Job Corps students at this center are identified for
     cognitive disabilities using the process outlined in TAG G. Increases in performance
     cited by the OIG were therefore likely due to the type of instructional strategies and
     assistance provided by the teachers, not because the Center used a more
     comprehensive assessment process. This underscores the importance of impact
     studies in determining actual reasons for such improvements.

     We do know from scientific research that certain instructional strategies work for those
     with LD (and for all students), and that many of them are currently utilized by Job Corps.

88                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   For example, Swanson, in conjunction with various others (1996, 1998, 2001), has
   conducted a comprehensive meta-analysis of experimental instructional (intervention)
   research with samples of children and adolescents with LD (as reported in Swanson,
   2000). Over 900 studies were examined, with only 10 determined as meeting high
   methodological standards. Although most studies were found to be poorly designed,
   key findings for the 10 high-quality studies include:

   •   “Instructional areas for which there is considerable, solid what works research are in
       the domains of reading (e.g., word recognition, reading comprehension).

   •   Only 30% of the total number of instructional components (e.g., appropriate
       sequencing, reminders to use strategies, small group instruction) of the total that
       were coded contributed significant variance to treatment outcomes.

   •   A combined instructional approach that includes both strategy and direct instruction
       positively influences reading comprehension performance.

   •   Direct instruction improves word recognition.”

   Although Swanson states that much more “intervention” research is needed, including
   studies that follow-up or provide for independent replication, and studies of other
   domains beyond reading, the results of the meta-analysis are instructive.

   Deshler (2005) points to some additional strategies shown to work in interventions
   research both Deshler and Swanson conducted on adolescents with learning
   disabilities. These strategies include, for example, questioning, sequencing and
   segmentation, explicit skill modeling and practice, and highly intensive instruction
   (amount of time in instruction and how effectively each instructional moment is used).
   The two further state that while we know more today about what instructional strategies
   work with older students who are LD, what is not happening in school systems is their
   application with fidelity and intensity.

   Furthermore, in their research on assessment and interventions for those with ADHD,
   Forness and Kavale (2001) stress behavioral strategies plus instructional strategies
   such as:

       •   Providing additional structure through shortening or changing the format of
           lessons, careful scheduling of tasks, use of prompts or visual cues, and more
           frequent breaks during lessons.

       •   Individualized instruction through one-to-one teaching, assistant teachers, or
           after-school tutors.

       •   Cognitive approaches such as self monitoring, self evaluation, and self
           reinforcement.

U.S. Department of Labor—Office of Inspector General                                                89
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission


        •   Cooperative learning through peer tutoring or shared assignments.

        •   Social skills training and monitoring for problematic social interactions.

     Forness and Kavale also note these school interventions are not markedly different from
     those already developed and found to be effective for a wide variety of children with
     learning or behavioral disorders other than ADHD.

     The Job Corps Technical Assistance Guide on Learning Disabilities and Attention
     Deficit Hyperactive Disorder discusses nearly all of these teaching and learning
     techniques for working with cognitively disabled students, and Job Corps stresses that
     these techniques are helpful for all of its students. Additionally, Job Corps has an
     extensive social skills training component. To achieve greater impact on student
     outcomes may simply be a matter of teaching these validated interventions with fidelity
     and intensity, which, as stated by Deshler (2005), “underscores the need for high-quality
     staff development, including coaching, and ensuring implementation of these
     strategies.” Indeed, Job Corps’ current transformation and strategic planning efforts
     include a strong focus on staff development.


                                        PROGRAM COSTS

     With respect to the impact the OIG’s proposed assessment process would have on
     program costs, the OIG estimates that Job Corps would have to expend between $1.2
     million and $3.5 million annually for screening and formal assessment. These figures
     are based on the OIG’s Job Corps survey results of $0 to $600 for formal assessments.
     Job Corps believes the $600 figure is low at best. The OIG used this figure from one
     center that has made specific community connections. The majority of Job Corps
     centers would not be able to obtain services at such a low rate. Rates of $1,000 to
     $1,500 are more realistic, and again, these figures only reflect screening and diagnosis.
     Using the OIG’s formula, costs at these rates would result in annual expenditures
     between $2 million and $5.9 million. It is important to note that additional costs of
     accommodations premium pay for qualified special education staff, training, and
     instructional materials must as well be factored into any screening and formal
     assessment program. With the inclusion of these additional expenses the estimates
     would increase substantially.


     Objective 3 – Does Federal law require Job Corps to assess students for cognitive
     disabilities? If so, does Job Corps have an effective process to ensure compliance?

     Recommendations

            4. Identify center schools subject to the student assessment provisions of IDEA
               or Section 504.

90                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission



           5. Ensure center schools comply with the requirements to identify, evaluate, and
              provide special education to students with cognitive disabilities.

   Agency Response

   While Job Corps does have a process in place to identify center schools, it is not
   necessary to have a formal process in place to notify and inform all centers about their
   responsibilities under IDEA and Section 504 and ensure compliance. Since 2002, Job
   Corps annually surveys all of its centers to determine the type(s) of high school
   program(s) each center delivers. In responding to the survey centers must specify if
   they:

       •   Have partnerships with local school districts or schools to offer high school
           programs;
       •   Partner with charter schools or private schools;
       •   Are state-accredited, diploma-granting high schools (charter schools or public
           schools); or
       •   Are private schools.

   Job Corps centers operate in forty-eight (48) states, the District of Columbia, and Puerto
   Rico. Each jurisdiction has considerable variation in their designations of Job Corps
   centers as accredited schools eligible for IDEA funds and subject to varying state and
   local regulations for administration of IDEA. Also, at any time, some center schools
   may accept Department of Education funds and consequently become subject to
   requirements of Section 504. Because it may not be feasible to completely identify all
   Job Corps centers that are subject to the assessment provisions of IDEA and Section
   504 at any one point in time, Job Corps proposes to undertake the following:

       •      Improve its annual survey of centers regarding high school programs to better
           identify centers that might to be subject to IDEA and Section 504 requirements.

       •       Establish policies in the Job Corps Policy and Requirements Handbook that:

              Describe the entities required to assess students for cognitive disabilities
               under IDEA (e.g., local education agencies (LEA), public secondary schools
               administered by a LEA, or public charter schools), and those required to
               assess students under Section 504 (e.g., private or public secondary schools
               receiving U.S. Department of Education funds). The language would provide
               examples distinguishing between the operations of Job Corps centers that
               would and would not fall under the requirements of IDEA and Section 504.

              Require centers that might meet any of the criteria under IDEA or Section 504
               to contact their state Departments of Education, or the Federal agencies
               providing financial assistance, to confirm their status and the required

U.S. Department of Labor—Office of Inspector General                                                91
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

                processes to provide assessments and special education services for
                students with undisclosed cognitive disabilities.

               Require centers, subject to IDEA or Section 504 requirements, to document
                their processes for providing student assessments and special education for
                students in their center training plans.

               Provide a tool with the PRH to assist centers in determining and maintaining
                their compliance status. (This could be developed from the existing self-
                assessment tools used by school divisions in year 1 of their participation in
                the Federal monitoring process.)

               Describe how Job Corps Regional Offices will monitor center compliance
                (with required assessment processes and provision of special education
                services) through regularly scheduled center assessments.

     Job Corps would also revise the current standard request for proposals (RFP) to
     operate Job Corps centers so that the RFP specifies that operators must assure that
     centers subject to the requirements of IDEA and Section 504 have processes in place to
     identify, evaluate, and provide special education to students with cognitive disabilities.


     Objective 4 – Are Job Corps’ data on student cognitive disabilities reliable?

     Recommendations

            6. Establish criteria for identifying and reporting cognitively disabled students.

            7. Ensure cognitively disabled student data submitted by centers is accurate and
               complete.

            8. Implement a concise and systematic process for effectively communicating to
               centers Job Corps policy and procedures for recording, tracking, and
               reporting student cognitive disability data.

     Agency Response

                                              CRITERIA

     A PRH Change Notice has been developed and approved by the Department
     of Labor’s Office of Civil Rights to provide center staff with additional information
     in identifying students with cognitive disabilities. The policy revision is slated for
     release in October 2005. This revision provides (1) definitions and examples of
     physical and mental disabilities and (2) answers to commonly asked questions
     regarding the reasonable accommodation process on Job Corps centers.


92                                         U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission



                             ACCCURATE AND COMPLETE DATA.

   Every quarter, Job Corps program staff review center disability data for anomalies. If
   there are concerns about the accuracy/completeness of the data, centers are contacted
   and technical assistance provided. The Job Corps disability data collection system
   could be improved by implementing a formal data audit system and requiring
   centers/contractors to be more accountable for the accuracy of data. A system will be
   developed to accomplish this goal. In addition, targeted assessments at 10-15 Job
   Corps centers are planned for the fall of 2005, with the major goal of these assessments
   to examine why centers have problems with entry/accuracy and how center disability
   data collection practices can be improved.


                       COMMUNICATING POLICY AND PROCEDURES.

   All information related to Job Corps’ policy on disability data collection is released
   through the Job Corps directive system. All policy directives and supporting technical
   guidance materials are supported through Web-based, telephone, and in-person
   training and technical assistance. Detailed information (including FAQs, tips, and
   detailed submission instructions) is available on the Job Corps Disability Web site
   (http://jcdisability.jobcorps.org), and telephone technical assistance is available to
   centers on all aspects of data collection. A user’s guide on disability data collection was
   released in June 2005.




U.S. Department of Labor—Office of Inspector General                                                93
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     Agency’s Supporting References

     Blair, Clancy & Scott, Keith G. (2002). Proportion of LD placements associated with low
     socioeconomic status: evidence for a gradient. Journal of Special Education, 36:1, pp
     14+. (journal article from questia.com on-line library.)

     Congressional Research Service, Library of Congress. (January 5, 2005). CRS report
     for Congress—Individuals with Disabilities Education Act (IDEA): Analysis of changes
     made by P.L. 108-446. (from the CRS web; order code RL32716)

     Council for Exceptional Children. (December 2002). Strategy instruction. ERIC
     Clearinghouse on Disabilities and Gifted Children, ERIC EC Digest #E638
     (http://ericec.org/digests/e638.html)

     Dean, Vincent J. & Burns, Matthew K. (2002). Inclusion of intrinsic processing difficulties
     in LD diagnostic models: a critical review. Learning Disability Quarterly, 25:3, pp. 170+
     (questia.com on-line library journal article).

     Deshler, Donald D. (Spring 2005). Adolescents with learning disabilities: Unique
     challenges and reasons for hope. Learning Disabilities Quarterly, 28, pp. 122+

     Elksnin, Linda K. et al. (Fall 2001). LD summit: important issues for the field of learning
     disabilities. Learning Disability Quarterly, 24, pp 297-305. [note: this article
     summarizes the nine White Papers commissioned by OSEP for the 2001 LD summit.]

     Forness, Steven R. and Kavale, Kenneth A. (2001). ADHD and a return to the medical
     model of special education. Education and Treatment of Children, 24:3, pp. 224+

     Fuchs, Douglas & Deshler, Donald D., & Reschly, Daniel J. (Fall 2004). National
     Research Center on Learning Disabilities: multimethod studies of identification and
     classification issues. Learning Disability Quarterly, 27, pp. 189-195.

     Fuchs, Douglas & Fuchs, Lynn S. (2001). Is “learning disabilities” just a fancy term for
     low achievement? A meta-analysis of reading differences between low achievers with
     and without the label. White paper presented at the LD Summit—Building a Foundation
     for the Future, August 2001. (www.nrcld.org/resources/ldsummit/index/shtml)

     Gresham, Frank M. (2001). Responsiveness to intervention: An alternative approach to
     the identification of learning disabilities. White paper presented at the LD Summit—
     Building a Foundation for the Future, August 2001.
     (www.nrcld.org/resources/ldsummit/index/shtml)

     Higgins, Eleanor, Raskind, Marshall, Goldberg, Roberta J., & Herman, Kenneth L.
     (Winter 2002). Stages of acceptance of a learning disability: The impact of labeling.
     Learning Disability Quarterly, 25, pp. 3-18.


94                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   Horowitz, Sheldon H. (2005). Response-to-intervention: A primer. National Center for
   Learning Disabilities, LD InfoZone. (www.ld.org/newsltr/0705newltr/0705research.cfm)

   Job Corps. (2005). Policy and requirements handbook. Job Corps, Employment and
   Training Administration, U.S. Department of Labor.

   Job Corps. (April 2003). Technical assistance guide G: Learning disabilities and
   attention deficit hyperactive disorder. Job Corps, Employment and Training
   Administration, U.S. Department of Labor.

   Katsiyannis, Antonis & Herbst, Maria (2004). Minimize litigation in special education.
   Intervention in School and Clinic, 40:2, pp. 106+.

   Kavale, Kenneth, Holdnack, James A., & Mostert, Mark P. (Winter 2005).
   Responsiveness to intervention and the identification of specific learning disability: A
   critique and alternative proposal. Learning Disability Quarterly, 28, pp. 2-16.

   2004 Learning Disabilities Roundtable. (February 2005). Comments and
   recommendations on regulatory issues under the Individuals with Disabilities Education
   Improvement Act of 2004, Public Law 108-446. Learning Disabilities Roundtable—14
   National Organizations, Consensus Development Group. (www.ncld.org)

   Lehr, C.A., Moreau, R.A., Lange, C.M., & Lanners, E.J. (2004). Alternative schools:
   Findings from a national survey of the States. Minneapolis, MN: University of
   Minnesota, Institute on Community Integration.
   (http://www.ici.umn.edu/alternativeschools/)

   Lehr, C.A., Lanners, E.J., & Lange, C.M. (2003). Alternative schools: Policy and
   legislation across the United States (Research Report 1). Minneapolis, MN: University
   of Minnesota, Institute on Community Integration.
   (http://www.ici.umn.edu/alternativeschools/)

   MacMillian, Donald L. & Siperstein, Gary N. (2001). Learning disabilities as
   operationally defined by schools. White paper presented at the LD Summit—Building a
   Foundation for the Future, August 2001.
   (www.nrcld.org/resources/ldsummit/index/shtml)

   Mellard, Daryl. (September 2004). Understanding responsiveness to intervention in
   learning. disabilities determination. NRCLD paper
   (www.nrcld.org/publications/index.shtm.

   Mellard, Daryl F., Bryd, S. E., Johnson, Evelyn, Tellefson, Julie M., & Boesche, Liz. (Fall
   2004). Foundations and research identifying model responsiveness-to-intervention
   sites. Learning Disability Quarter, 27, pp. 243-256.



U.S. Department of Labor—Office of Inspector General                                                95
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

     National Association of State Directors of Special Education, Inc. (January 2004).
     Primer on special education and charter schools—state matrix; background & hot topic:
     funding for special education. NASDSE. (www.uscharterschools.org/cs/spedp)

     National Center for Children in Poverty (July 2005) Basic Facts About Low Income
     Children Columbia University http:www.nccp.org

     National Research Center on Learning Disabilities, LD Initiative Work Group. (2001).
     Specific learning disabilities: building consensus for identification and classification.
     White paper on consensus statements resulting from the LD Summit—Building a
     Foundation for the Future, August 2001.
     (www.nrcld.org/resources/ldsummit/index/shtml)

     National Research Council, Institute of Medicine of the National Academies (2004).
     Engaging schools. Washington, D.C.: National Academy Press.

     Orfield, G., Losen, D., Wald, J., & Swanson, C. (2004). Losing our future: How minority
     youth are being left behind by the graduation rate crisis. Cambridge, MA: The Civil
     Rights Project at Harvard University. Contributers: Advocates for Children of New York,
     The Civil Society Institute. (http://www.civilrightsproject.harvard.edu)

     Ormsbee, Christine (2001). Effective preassessment team procedures: making the
     process work for teachers and students. Intervention in School and Clinic, 36:3, pp
     146+.

     Rand (2004). Meeting literacy goals set by No Child Left Behind. Research brief.
     http://www.rand.org/publications/RB/RB9081/

     Reschly, Daniel J., Hosp, John L., & Schmied, Catherine M. (2003). And miles to
     go…state SLD requirements and authoritative recommendations. National Research
     Center on Learning Disabilities (NRCLD). (www.nrcld.org/publicatons/index.shtml).
     Also as published journal article: Reschly, Daniel J. & Hosp, John L. (Fall 2004). State
     SLD identification policies and practices. Learning Disability Quarterly, 27, pp. 197-213.

     Smith, M. Catherine & Wiener, Judith. (1999). Development and validation of the Smith
     Learning Disabilities screen. Journal of College Reading and Learning, 30:1, pp. 62+.
     (journal article from questia.com on-line library).

     Spear-Swerling, Louise & Sternberg, Robert J. (1998). Curing our epidemic of learning
     disabilities. Phi Delta Kappan, 79: 5, pp. 397+. (journal article from questia.com on-line
     library)

     State of New York, Department of Labor. (January 2005). Welfare-to-Work learning
     disabilities pilot projects: Overview. NYS Department of Labor, Division of Employment
     Services, Office of Welfare-to-Work Programs. (www.labor.state.ny.us/welfare2work)


96                                        U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   State of Washington, Joint Legislative Audit and Review Committee. (February 2005)
   Alternative learning experience programs study. Interim Report 05-6.
   (http://jlarc.leg.wa.gov)

   Swanson, H. Lee (2000). Issues facing the field of learning disabilities. Learning
   Disability Quarterly, 23: 1, pp. 37+.

   U.S. Department of Education (2002). 24th Annual Report to Congress on the
   Implementation of the Individuals with Disabilities Education Act. Washington, D.C.:
   U.S. Department of Education.

   U.S. Department of Education, National Center for Education Statistics (2005). The
   condition of education 2005—indicator 6, children with selected disabilities in public
   schools NCES 2005-094, Washington, D.C.: U.S. Government Printing Office.

   U.S. Department of Education, Office for Civil Rights. Protecting students with
   disabilities: frequently asked questions about section 504 and the education of children
   with disabilities (IDEA). (www.ed.gov/about/offices/list/ocr/504faq.html?exp=0)

   U.S. Department of Labor, Employment and Training Administration (2005). Job Corps
   annual report: Program year 2003. Washington, D.C.: U.S. Department of Labor.




U.S. Department of Labor—Office of Inspector General                                                97
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




98                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission



               AGENCY RESPONSE TO OIG DRAFT AUDIT REPORT
                             ATTACHMENT
                                           Appendix A

                                       White Paper
                             Academic Analysis of the OIG Report


   This White Paper focuses on the primary OIG assumptions that underlie its
   recommendations to Job Corps and responds to these assumptions based on a review
   of the literature. OIG assumptions include (see page 9, lines 29-35, of the letter to the
   Assistant Secretary for Employment and Training in the July 29, 2005, OIG Discussion
   Draft, as updated by the OIG September 19, 2005, Draft Audit Report):

       5. Job Corps students are not adequately assessed for unknown or undisclosed
          cognitive disabilities. (July Draft)

          We found that improving efforts to assess and account for students with unknown
          or undisclosed cognitive disabilities would help Job Corps achieve its overall
          mission. (September Draft)

       6. Although Job Corps is not legislatively required to specifically assess ALL
          students for cognitive disabilities, doing so falls within the overall mission and
          purpose of the program. (July Draft)

          Although Job Corps is not legislatively required to specifically assess ALL
          students for cognitive disabilities, doing so would help Job Corps achieve the
          program’s overall mission and purpose. (September Draft)

       7. Job Corps’ student population is at-risk for cognitive disabilities.

       8. Effective identification and accommodation would address significant barriers to
          employment and improve the program’s student outcomes.


   ASSUMPTION #1 (JULY DRAFT): JOB CORPS STUDENTS ARE NOT
   ADEQUATELY ASSESSED FOR UNKNOWN OR UNDISCLOSED COGNITIVE
   DISABILITIES.

   ASSUMPTION #1 (SEPTEMBER DRAFT): WE FOUND THAT IMPROVING
   EFFORTS TO ASSESS AND ACCOUNT FOR STUDENTS WITH UNKNOWN OR
   UNDISCLOSED COGNITIVE DISABILITIES WOULD HELP JOB CORPS ACHIEVE
   ITS OVERALL MISSION.


U.S. Department of Labor—Office of Inspector General                                                99
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

      •   The OIG’s determination of 13% as a conservative proxy for how many
          students should be identified (in relationship to the 4% reported by the Job
          Corps MIS), and its subsequent revised determination that it is reasonable to
          assume that Job Corps’ student population would have a higher incidence
          rate than 7%, within an estimated range of 7%-23%, are not based on the “gold
          standard” necessary to make these assumptions.

      Basis for OIG’s 13% estimate and subsequent “higher than 7%” estimate.

      The OIG reviewed a number of studies and survey data to determine its conservative
      estimate of 13% as the proxy incidence rate for the Job Corps population. The OIG
      uses this 13% proxy as the basis for suggesting that Job Corps’ current identification
      and assessment process is not uncovering as many students with unknown or
      undisclosed cognitive disabilities as it should be—so therefore its process must be
      flawed and should be changed.

      The OIG revised report draft modifies this assertion to a “higher than 7% estimate”
      within a range of 7%-23%, and continues to contend that the Job Corps figure of 4% is
      too low and that the agency’s process should be changed.

      As the OIG points out (and Job Corps is aware), there are no really good, readily
      available national survey data on cognitive disabilities for direct comparison with the Job
      Corps cohort—age 16-24 and low-income/economically disadvantaged. Definitions or
      categorization of cognitive disabilities used among the various national survey data sets
      vary somewhat, and most do not readily provide a breakdown of incidence data by
      income status or for the specific age group of 16-24.

      The OIG based the 13% figure on data from the National Center for Health Statistics,
      National Health Interview Survey—13% of children 3-17 years of age in families with
      income of less than $20,000 had a learning disability, based the 7% figure on IDEA
      classification/services data, and based the 23% figure on a 1991 ETA estimation study.

      [Note: Cognitive disabilities, as defined by Job Corps, include learning disabilities,
      ADHD, traumatic brain injuries, and mental retardation. However, the OIG report (and
      the literature, data, and studies discussed in this White Paper) focus primarily on
      learning disabilities (LD), and to a lesser extent ADHD, as these are the categories most
      at issue with regard to identification and prevalence rate issues.]

      The National Health Interview Survey (NHIS) provides a very questionable proxy
      number.

      Although the survey is certainly a quality survey, the data do not provide the “gold
      standard” necessary for use as a proxy number for evaluating Job Corps’ LD
      assessment process for the following reasons.



100                                               U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   •   Information about children under18 years of age is collected during face-to-face
       interviews with an adult proxy respondent familiar with the child’s health. As stated
       by the published summary report: “the information from both proxies and self-




U.S. Department of Labor—Office of Inspector General                                               101
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

•     respondents may be inaccurate because the respondent is unaware of the relevant
      information, has forgotten it, does not wish to reveal it to an interviewer, or does not
      understand the intended meaning of the question.” The report also states that there
      is a high non-response rate for the family income variable. (NHIS 2002, Vital and
      Health Statistics, Series 10, No. 221)

•     The two cognitive disability survey questions are not based on receipt of a formal
      diagnosis, but rather based on the adult proxy respondent answering these
      questions:

         “Has a representative from a school or a health professional ever told you that
          [child’s name] had a learning disability?
         “Has a doctor or health professional ever told you that [child’s name] had
          Attention Hyperactivity Disorder or Attention Deficit Disorder?”

•     The percentages reported for the learning disability question vary considerably by
      the parental education level variable. Based on the following data, this White Paper
      suggests that more educated households may be more likely to answer the question
      more accurately. Since socio-economic status and educational attainment often
      “correlate” with one another, it is highly likely that low-income adult respondents are
      reporting higher numbers of LD among their children, i.e.,

          Parents’ Education

             Less than HS diploma—10.6% of children have LD; 6.5% have ADHD
             HS diploma or GED—9.6% of children have LD; 9% have ADHD
             More than HS diploma—6.9% of children have LD; 6.4% have ADHD

Other survey data sets provide different data to be examined for development of a
proxy.

This White Paper examined two other survey data sets as follows:

•     U.S. Census Bureau, Survey of Income and Program Participation (SIPP) 1997—
      Table 2, Prevalence of Types of Disabilities Among Individuals 15 years old and
      over, reports the following:

         2.8% of 15-24 year olds have a learning disability.
         0.7% of 15-24 year olds have mental retardation.

      This is a household interview survey concerning the Americans with Disabilities Act.
      ADHD is not an isolated category of reporting.

•     U.S. Department of Education, Office for Civil Rights, Elementary and Secondary
      School Survey 2000 (2001-2002 school year)—State and National Projections for


102                                        U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

       Enrollment (see also The Condition of Education 2005, Indicator 6, Children with
       Selected Disabilities in Public Schools), reports the following:

          6.1% of total elementary and secondary enrollment, classified as having a
           specific learning disability (SLD) and served under IDEA.
          1.4% of total school enrollments, classified as having mental retardation and
           served under IDEA.

   The ETA 1991 study is not “the gold standard” required to make quality
   decisions.

   This White Paper examined the 1991 ETA study referenced by the OIG which
   suggested much higher estimates of learning disabilities—“15-23% of all participants in
   employment and training programs were learning disabled.” (page 15 of September 19,
   2005, OIG report). This ETA study does not represent the kind of “gold standard” study
   required to make solid decisions, even though conducted by highly respected
   researchers, for several reasons: (1) it is very old; (2) as the authors state, it is solely
   based on ROUGH estimations and extrapolations to determine the proportion of
   individuals eligible for participation in employment and training programs likely to be
   learning disabled; and (3) the study can only conclude that “it is estimated that
   approximately 15-23 percent of JTPA Title IIA participants may be learning
   disabled.”

   It appears that the 23% figure for the incident range of 7%-23% cited in the September
   19, 2005, OIG report is based on this study.

   The statement that the 7% number (as the lower end of the OIG’s expected
   incidence range) is conservative because ADHD was not included is inaccurate.

   On page 16 of the September Draft, the OIG uses the U.S. Department of Education
   data from the 24th Annual Report to Congress on IDEA—7% of children ages 6-17 had
   a specific learning disability or mental retardation or traumatic brain injury, and indicates
   that this number is conservative because it does not include ADHD. Job Corps believes
   these data come from the report Table AA12 (percentage, based on 2000 Census
   population, of children ages 6-17 served under IDEA, Part B by disability, during 2000-
   2001 school year). ADHD is not a separate reporting category under IDEA, but is listed
   as one of the conditions in the Other Health Impairments (OHI) category along with
   several physical health conditions such as diabetes or a heart condition.

   A study by Forness and Kavale (2001) analyzed various ADHD estimation studies and
   meta-analyses thereof in an effort to determine estimates of the prevalence of ADHD.
   Often students with ADHD are counted in the Emotional Disturbance category or LD
   category because of the way in which school systems assess ADHD for service
   eligibility. They found that ADHD accounts for over 40% of all children in programs for
   Emotional Disturbance (ED) and about 25% in programs for LD. Estimates for the OHI
   category are even more difficult to ascertain, but the authors suggest a possibility of

U.S. Department of Labor—Office of Inspector General                                               103
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

      40% (even though primary eligibility may have been in the OHI category, students may
      have been placed in programs for LD or ED). Essentially, ADHD counts are
      somewhere in these three categories. Even though these are very rough estimates,
      applying them to the Table AA12 data to determine how much ADHD adds to the 7% is
      illustrative.

             5.52% Specific Learning Disabilities or LD (est. 25% of this category is ADHD)
             1.08% Mental Retardation
             0.03% Traumatic Brain Injury
             0.36% Emotional Disturbance (est. 40% of .91% ED is ADHD)
             0.23% Other Health Impairments (est. 40% of .57% OHI is ADHD)
             7.22 % Total

      While ADHD is considered prevalent among the special education population, because
      of the co-morbidity of ADHD, among other assessment issues, it is difficult to isolate
      hard numbers. Furthermore, the U.S. Department of Education report, Identifying and
      Treating ADHD: A Resource for School and Home (2003), also notes this issue by
      indicating that the National Institute of Mental Health’s Multimodal Treatment Study
      (1999) found that almost one-third of all children with ADHD have learning disabilities,
      even though the behaviors associated with ADHD—inattention, hyperactivity,
      impulsivity—are not in themselves a learning disability.

      This analysis of the survey and study data used by OIG demonstrates that one cannot
      make a reasonable assumption about what Job Corps’ incidence rate should be.


      •   As evidenced by the academic research, the prevalence rates of LD among
          public school students under IDEA has potentially many flaws, calling into
          question the widely-held perception that there is an “LD epidemic.”

      Numerous academic researchers specializing in the field of LD have rigorously
      examined and questioned the whole notion of how LD is identified, classified, and
      thereby “counted” in the public school systems under the Individuals with Disabilities
      Education Act (IDEA). Such research began to emerge around the late 1990s and has
      continued to grow in an effort to inform public discourse on IDEA 2004.

      Since 2000, much of the more recent research has been urged by the U.S. Department
      of Education (ED), Office of Special Education Programs (OSEP) and the various
      research organizations it funds or supports such as the National Research Center on
      Learning Disabilities (NRCLD) in an effort to develop scientifically-based LD
      identification methods, among other areas of research.

      This White Paper reviews a selection of salient findings from this research which relates
      to LD prevalence rates and the OIG’s contention that Job Corps is under-identifying LD
      within its student population. Findings are organized within the two broad issue areas


104                                               U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   being examined by various researchers: is there over-identification of LD; and is the IQ-
   achievement discrepancy approach an accurate predictor of LD.


   The true prevalence rate of LD is unknown.

   Spear-Swerling & Sternberg (1998, p. 1) bring into question the entire concept of
   learning disabilities and couch the issue as follows:

          “It seems that a veritable plague of learning disabilities has descended on some
          of our schools. In the past 20 years or so, the number of children diagnosed as
          learning disabled has steadily increased, and children with learning disabilities
          now form the single largest category of students receiving special education
          services [currently, about 50% of public elementary and secondary students who
          are on IEPs under IDEA are classified as LD]. Is there really an epidemic of
          learning disabilities? Or, instead is it that the concept of learning disabilities
          merely serves to excuse the failure of schools and teachers to do an adequate
          job of teaching all children? In our opinion, neither scenario is accurate. True,
          some children have actual disabilities in learning, and some teachers do a poor
          job of teaching. However, the fundamental problem is the concept of learning
          disabilities itself, and the way it has distorted our view of children’s difficulties in
          learning.”

   So how then has the view of learning disabilities been distorted? How then have the
   numbers become so inflated? A look at some of the academic research findings in this
   area is telling.

   First, this White Paper presents the research-based consensus work of the U.S.
   Department of Education, Office Special Education Programs (OSEP). Since 2000,
   OSEP has been on a “crusade” to develop a scientifically-based research consensus on
   key issues facing special education, especially given the pending reauthorization of
   IDEA 1997 at that time. Chief among those issues has been the identification and
   classification of LD (or as it is more specifically called under IDEA—specific learning
   disabilities or SLD). Nine white papers were commissioned in 2001 for presentation
   and discussion at the Learning Disabilities Summit—Building a Foundation for the
   Future (August 2001). From this Summit, emerged several research-based consensus
   statements. The consensus statement on LD prevalence rates follows:

          “It is difficult to know the true prevalence rate of SLD. However, based on
          reading research, conducted largely in the elementary grades, we know that:

             High quality classroom instruction is a way to meet many of the educational
              needs of individuals with learning difficulties.

             Supplemental intensive small-group instruction can reduce the prevalence of
              learning difficulties.

U.S. Department of Labor—Office of Inspector General                                                 105
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission


             Even with the above interventions, approximately 6 % of students may exhibit
             SLD and will need special education intervention.

             Prevalence rates for students with SLD involving math and written expression are
             difficult to estimate given the current lack of research evidence.” (NRCLD, LD
             Initiative Work Group, 2001, p. 4)

      Second, this White Paper presents some of the research on how schools actually go
      about identifying LD. MacMillan and Siperstein (2001) in their OSEP White Paper
      conducted a review of experimental, quasi-experimental, and empirical research to
      examine how learning disabilities are operationally defined by schools (school-identified
      or SI-LD) in contrast to research-identified LD (RI-LD). The authors indicated that such
      an examination would shed light on the reasons why there has been a significant
      increase in the prevalence of LD. It is the SI-LD population, “with all of its imprecision,”
      that is reported on by the various survey data under IDEA that is characterized by the
      statistics used in Annual Reports to Congress under IDEA, and that is the subject of
      significant public policy debate. They essentially found that school-identified cases of
      LD varied considerably from those that were research-identified. Some of the reasons
      they cite for this include the following:

      •   The dramatic increase in the numbers identified as LD is in large part due to the fact
          that public schools do not properly apply the exclusionary criteria for LD
          identification. They enroll students as LD who in fact are mentally retarded or are
          emotionally disturbed (per IDEA definitions). “For schools, LD has become the
          disability of choice” because it is “less stigmatizing, more acceptable to parents, and
          more optimistic in the prognosis it conveys.” The result is that classification of
          children as LD does not constitute a diagnosis; rather, it has become a catchall
          designation for eligibility and planning for services. (MacMillan and Siperstein, 2001,
          p.10)

      •   The prevalence rates for LD in the public schools across states vary considerably in
          the percentage of students identified as LD. Such variability is attributable to a
          number of factors such as different state criteria, different perspectives on
          classification, different approaches to identification and assessment of LD, and
          varying applications of the IQ-achievement discrepancy method, all of which are in
          line with IDEA, but nevertheless different.

      •   LD is operationally defined in the public schools as absolute low achievement. Even
          though the IQ-discrepancy approach to identification (see below), as best practiced,
          calls for looking at the discrepancy between IQ and low achievement as a key sign
          (or “marker”) of LD, MacMillan and Siperstein indicate that, for the most part, public
          schools are not really examining the discrepancy and are not necessarily excluding
          cases due to mental retardation or sociolinguistic or instructional disadvantage.



106                                               U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   •   Many under-achieving students need special attention (extra help and supports)
       which in many cases, given the structure of public schools and the use of resources,
       can only be provided by referral to special education. When general education
       teachers are faced with students they cannot help, the tendency is to refer them and
       press for special education assessment and services under IDEA. This leads to
       classification as LD of students who are simply low-achievers.

   In sum, these authors contend that there is a “large segment of public school students,
   many of whom encounter learning difficulties for reasons other than intrinsic,
   neurologically-based causes [and are not, therefore, LD].” Public schools recognize this
   large undifferentiated group of students with achievement deficits as having special
   learning needs, but “use the LD classification to justify providing services and do so on
   the basis of absolute low achievement, and not on the basis of discrepant low
   achievement.” (MacMillan and Siperstein, 2001, p. 21).

   Most LD researchers agree that the IQ-achievement discrepancy approach is not
   an accurate predictor of LD

   The primary diagnostic approach used by school systems to identify LD under IDEA
   involves the IQ-achievement discrepancy approach. States and localities rely heavily,
   and in some cases, exclusively on this construct to diagnose LD. Its efficacy as a
   “predictor” of LD has undergone serious research challenges starting in the late 1990s,
   with multiple researchers questioning the severe discrepancy criteria due to its poor or
   undemonstrated reliability and validity.

   For example, as reported in the state survey study And Miles to Go…State SLD
   Requirements and Authoritative Recommendations (Reschly, Hosp, & Schmied, 2003):

   •   94% of states in their implementation of IDEA require severe discrepancy between
       achievement and intellectual ability for diagnosing LD, but there is little consistency
       in how states implement discrepancy models (also quoted by Lou Danielson,
       Director, OSEP Research to Practice Division, in his luncheon address at the 2003
       Responsiveness-to-Intervention Symposium).

   •   There is no research-based consensus on the best method to determine the IQ-
       achievement discrepancy, nor on the criteria for what constitutes a “severe”
       discrepancy. Some methods are clearly inadequate (Reynolds, 1984, 1985 as cited
       in Reschly, Hosp, & Schmied, 2003), but debate continues on whether regression-
       based or simple standard score differences are the most appropriate approaches
       (Van den Broeck, 2002; Willson & Reynolds, 2002 as cited in Reschly, Hosp, &
       Schmied, 2003).

   •   The original purpose of the IQ-achievement discrepancy construct contained in the
       federal regulations was to provide guidance to states on SLD identification and
       control over SLD prevalence. The survey showed that neither goal was achieved.


U.S. Department of Labor—Office of Inspector General                                               107
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

          States continue to vary dramatically in SLD classification criteria (i.e., two students
          with the same test scores and learning needs could receive different SLD diagnoses
          depending on their state of residence). Prevalence data continue to vary
          significantly across states for reasons that are not simply related to the application of
          the IQ-achievement construct. For example, “Georgia, Nebraska, and North
          Carolina use the same IQ-achievement discrepancy criterion, 20 points with no
          correction for regression, but report SLD prevalence rates of 3.29%, 5.28%, and
          5.25%, respectively.” (Reschly, Hosp, & Schmied, 2003, p. 30).

      Finally, this study notes that the state authorities in learning disabilities who were
      surveyed generally recognize the need to change current identification procedures with
      “about two-thirds of them endorsing response to treatment approaches and rejecting the
      IQ-achievement component of SLD classification.” (Reschly, Hosp, & Schmied, 2003,
      pp. 30-31).

      H. Lee Swanson (2000, p. 4) in his review of issues facing the field of learning
      disabilities examined the research on the IQ-discrepancy approach in light of the
      “epidemic numbers” of LD being reported. One of his conclusions was that: “When
      compared to non-discrepancy-defined poor achievers, learning-disabled-defined groups
      are more similar in processing difficulties than different. Thus it is becoming an
      untenable idea that aptitude-achievement discrepancy tells us anything important about
      processing mechanisms underlying such areas as reading disabilities.” He also points
      out that the implications of the research on distinguishing between LD and garden-
      variety poor readers have not changed the actual diagnostic practices used by schools.

      Another issue with the IQ-discrepancy construct is whether it can reliably distinguish
      between low achievement and LD, a continuing research controversy. In other words,
      to what extent are low achievers with and without the LD label more alike or different.

      Fuchs and Fuchs (2001) in their White Paper for OSEP “Is learning disabilities just a
      fancy term for low achievement?” conducted a meta-analysis of scientific studies in
      which the reading achievement of LD and low achievement non-disabled students (LA)
      could be compared. Eighty-six studies met the research team’s stringent inclusion
      criteria. Most salient conclusions for this White Paper, as summarized by Elksnin et al
      (2001, pg. 303) include:

      •   Students with LD have more severe differences in reading performance than
          students who are LA.

      •   Such differences tend to be more dramatic when (1) timed rather than un-timed tests
          are used (2) students are in higher grades and experience accumulating deficiencies
          in reading, and (3) objective test scores rather than human judgment are used in LD
          diagnosis.

      •   It may well be that differences among students with LD and LA are more a matter of
          degree rather than of kind. Similar to other syndromes that are based on degree of

108                                                U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

       difference from a range of acceptable levels, such as hypertension and obesity, LD
       may be a disability that is defined simply by extreme low achievement.

   In other research on this issue, Blair and Scott (2002) note that: “The rapid growth of the
   LD label points to a complex problem in which there is some uncertainty as to the extent
   to which underachieving students with and without the LD label are distinct.” (see, for
   example, Algozzine, Ysseldyke, & McGue, 1995; Fletcher et al., 1994; Kavale, 1995;
   Kavale, Fuchs, & Scruggs, 1994; Pennington, Gilger, Olsen, & DeFries, 1992;
   Ysseldyke, Algozzine, Shinn, & McGue, 1982 as cited by Blair and Scott, p. 1). The
   etiological case perspective and findings from various researchers suggest that low
   socio-economic status (SES) substantially increases the risk for LD; while the excess
   case perspective and study findings from various researchers suggest that LD and low
   achievement (LA) groups overlap and that LA is frequently misdiagnosed as LD.

   In Blair and Scott’s epidemiological study on distinguishing LD from learning problems
   originating in social and economic disadvantage (using the IQ-discrepancy construct),
   the authors found that they: could not conclusively show cause-and effect regarding the
   relationship of low socioeconomic status to LD placement; could only report the strong
   association between the two; and could not resolve the issue of the excess case versus
   etiologic case distinction in LD placement.

   MacMillan and Siperstein (2001) also looked at how school systems are differentiating
   SES and other factors in their identification of LD, and note that: “Cultural,
   environmental, and economic factors, rather than serving as a cause for rejecting the
   diagnosis of LD, often weigh heavily in the school’s decision to classify a child as LD.
   Nowhere is this more evident than in studies that contrast the decision-making process
   in urban and suburban school districts.” The authors point out that LD-classified
   students in urban schools represent very different learning problems than do those in
   suburban districts—“They score lower on measures of intelligence which requires that
   sociocultural factors must be considered as contributors, if not causes, of their learning
   difficulties.” (MacMillan and Siperstein, 2001, p 12).

   Other researchers have also examined the construct and have concluded that it is not
   an accurate predictor of LD because there is little research-based evidence for it
   (Horowitz, NCLD, 2005) and because of regression effects often not controlled for, the
   discrepancy construct tends to over-identify as LD those with a high IQ and to under-
   identify those with a low IQ (Spear-Swerling & Sternberg, 1998).

   Spear-Swerling & Sternberg (1998, pp. 12-13) summarize the dilemma as follows:

          “Current educational guidelines for identifying children with LD, using an ability-
          achievement discrepancy at the core, not only lack scientific validity but also are
          poor education policy…the essential point for policy makers is that there is no
          scientific basis for singling out only one group of low achievers [i.e., the LD
          group] for educational services. Thus, we would like to see low achievers
          identified for educational services based on low achievement rather than on an

U.S. Department of Labor—Office of Inspector General                                               109
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

             ability-achievement discrepancy…learning-disabilities specialists could focus
             their time and energies on instruction, on consultation and collaboration with
             other practitioners, and on educationally relevant forms of assessment…learning
             disabilities specialists would become, simply, learning specialists.”

      Finally, where does the researched-based consensus building process OSEP started in
      2001 stand now with regard to these kinds of identification and classification issues?
      The LD Roundtable 2002 and the LD Roundtable 2004 (14 national organizations
      involved in research-to-practice and related policy issues) made many research-based,
      consensus recommendations concerning IDEA 2004 and its regulations. Chief among
      them involves eliminating the absolute requirement for the existence of a severe
      discrepancy between achievement and ability, but allowing school districts to continue
      to use it, but only as one element of a comprehensive assessment. Their regulatory
      recommendations also include language that supports the use of an alternative process
      called the Response-to-Intervention approach, should a school district choose to include
      such a process as part of its evaluation procedures. General language concerning these
      items is included in the 2004 law; however, it remains to be seen what the final
      regulations will precisely say (current draft regulations are undergoing the public
      comment period).

      More recent scientific or rigorous research commissioned by OSEP to be carried out by
      the National Research Center for Learning Disabilities (NRCLD) will hopefully provide
      better answers to the best ways to identify and classify LD. This research, just getting
      underway, includes, for example, randomized field trials to explore the relative utility of
      specific identification methods in reading and math and an evaluation of local school
      use of the Response-to-Intervention approach in LD identification (Fuchs, Deshler, and
      Reschly, 2004; Mellard, Byrd, Johnson, Tollefson, and Boesche, 2004).

      The IQ-discrepancy construct leads to misdiagnosis and overrepresentation of
      minority students as cognitively disabled.

      The over-representation of minority students under IDEA has been a serious problem
      (see for example, the legislative history of both the 1997 and 2004 laws). Although the
      U.S. Department of Education’s 24th Annual Report to Congress on the Implementation
      of IDEA (2002) indicates that the population of high school students receiving special
      education in 2001 more closely mirrored the racial/ethnic distribution of the general
      population than had been true in 1987, significant disproportionate identification of
      minorities continues under IDEA. Extensive studies conducted by the National
      Research Council and the Harvard Civil Rights Project (Donovan and Cross, eds.,
      Minority Students in Special and Gifted Education, 2002 and Losen and Orfield, eds.,
      Racial Inequality in Special Education, 2002), have shown that minority populations are
      consistently over-represented in cognitive disability and related categories (Learning
      Disabilities—LD, Mental Retardation—MR, and Emotional Disturbance—ED), and
      African Americans are especially over-represented in the MR category. While these
      studies point to a number of reasons for this, use of the IQ-discrepancy construct is a
      key factor in misidentification, misdiagnosis, and misclassification. Both of these

110                                               U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   studies also point to problem-solving approaches such as Response to Intervention as
   possible better alternatives for identification and classification.




U.S. Department of Labor—Office of Inspector General                                               111
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

      •   Conclusion — Assumption #1

          Job Corps Students Are Not Adequately Assessed for Unknown or
          Undisclosed Cognitive Disabilities. (July Draft)

          We found that improving efforts to assess and account for students with
          unknown or undisclosed cognitive disabilities would help Job Corps achieve
          its overall mission. (September Draft)

      This White Paper concludes that the 1991 ETA study should not be used whatsoever to
      draw any kind of conclusions about incidence or to suggest that those data represent
      any kind of “liberal” proxy in contrast to the 13% “conservative” proxy. Additionally, the
      7%-23% suggested range, and the contention that Job Corps’ incidence rate should be
      higher than 7%, are highly questionable. While the national surveys noted above are
      certainly conducted with the highest of quality, none of them provide a rigorous data
      match for use as an estimate or benchmark for the Job Corps population, especially
      when such data are being used as the basis to recommend policy and procedural
      changes that would be costly to Job Corps. The various national survey data on
      learning disabilities illustrate that such benchmarks or proxies could range anywhere
      from 2.8% to 13%.

      No one really knows what the true incidence of LD (the largest “epidemic” category)
      really is among the public school population as evidenced by the selected research
      summarized above, and the numbers reported under IDEA as ED or MR are also very
      suspect. Public school systems’ identification processes and reliance on the IQ-
      achievement discrepancy model under IDEA have resulted in highly questionable
      incidence data. Furthermore, the research strongly suggests that there may be
      considerable over-identification of LD (and other cognitive disabilities) among low-
      income populations especially given the difficulties in separating out low achievement
      caused by socio-economic factors versus low-achievement caused by LD. The notion
      that there is an epidemic in LD, and that the Job Corps numbers are so-affected (based
      on its population demographics) must be challenged in light of the recent academic
      research.


      ASSUMPTION #2 (JULY DRAFT): ALTHOUGH JOB CORPS IS NOT
      LEGISLATIVELY REQUIRED TO SPECIFICALLY ASSESS ALL STUDENTS FOR
      COGNITIVE DISABILITIES, DOING SO FALLS WITHIN THE OVERALL MISSION
      AND PURPOSE OF THE PROGRAM.

      ASSUMPTION #2 (SEPTEMBER DRAFT): ALTHOUGH JOB CORPS IS NOT
      LEGISLATIVELY REQUIRED TO SPECIFICALLY ASSESS ALL STUDENTS FOR
      COGNITIVE DISABILITIES, DOING SO WOULD HELP JOB CORPS ACHIEVE THE
      PROGRAM’S OVERALL MISSION AND PURPOSE.



112                                               U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   •   The philosophical argument that Job Corps should assess all students based
       on its mission is inconsistent with what educational institutions are doing.

   The Job Corps mission (as stated in the Program Year 2003 annual report) states that
   it:

          “is to attract eligible young adults, teach them the skills they need to become
          employable and independent, and help them to secure meaningful jobs or
          opportunities for further education.”

   State education system mission statements are not all that different other than the less
   direct and more “lofty” language used. For example, the State of Texas (from the State
   Education Code) states that the mission of the public education system of this state:

          “is to ensure that all Texas children have access to a quality education that
          enables them to achieve their potential and fully participate now and in the future
          in the social, economic, and educational opportunities of our state and nation.”

   Both the public school systems and Job Corps must comply with Section 504 of the
   Rehabilitation Act of 1973 as do all federally-funded programs. Public school systems
   must also comply with IDEA, and, based on the Local Education Agency-status of a Job
   Corps “center school” partnership with the local school district, a particular Job Corps
   high school program may fall under IDEA.

   However, neither statute requires that public school systems “specifically assess ALL
   students for cognitive disabilities.” So if the missions are similar, numerous questions
   are raised by OIG’s contention that Job Corps should assess ALL of its students. Does
   that therefore mean that the OIG suggests all public school systems should do so as
   well? What about public schools who serve predominantly low-income, low-achievers
   such as inner-city urban schools, for example? Should those schools assess ALL
   students for learning disabilities as well?


   •   Job Corps’ current “assessment process” is very similar to the typical
       process used by public schools to identify students for cognitive disabilities
       (or any disability under IDEA). If the missions are similar and the assessment
       processes are similar, why should Job Corps be required to assess ALL
       students for cognitive disabilities?

   Job Corps has an established process for identification of LD in accordance with
   Section 504 of the Rehabilitation Act of 1973, as documented in the Job Corps Policy
   and Requirements Handbook (PRH) and in the Job Corps Technical Assistance Guide
   on Learning Disabilities and Attention Deficit Hyperactive Disorder. Neither IDEA nor
   Section 504 requires specific screening/assessment of all students for cognitive
   disabilities (as recommended by the OIG)..


U.S. Department of Labor—Office of Inspector General                                               113
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission


      The Job Corps process, while not established for purposes of IDEA, essentially fulfills
      the “spirit of IDEA” in that it parallels the fundamental identification process practiced by
      public schools in their compliance with IDEA. The following comparative table of the
      phases of “assessment” illustrates the point (note that the overarching process under
      IDEA is called identification and classification). Although the table does not include the
      details of each Phase, it serves to generally illustrate that the two processes are quite
      similar.

      [Note: The comparative table was prepared based on MacMillan and Siperstein (2001)
      research on how public school systems identify and classify cognitive disabilities, review
      of the process used by the Montgomery County, MD school system, the Job Corps
      Policy and Requirements Handbook (PRH), and research by Ormsbee (2001) on how
      pre-assessment teams work in public school systems.]




114                                                U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 09-06-001-03-370
                                                              Strengthening Efforts to Assess and Account for
                                                                          Students with Cognitive Disabilities
                                                                    Would Help Job Corps Achieve Its Mission

                       General Comparative Table of Cognitive Disabilities
                            Identification and Classification Phases

   Phases                             How Job Corps does it                     How public schools generally do it
   Educational              •   Screening of learning strengths &           •   Screening of learning needs/difficulties,
   Screening                    weaknesses, learning styles inventories,        especially in reading in early grades of
   (upon entry to               goal-setting, career exploration, and           all students may be done, depending on
   center or particular         related                                         grade level, to determine instructional
   grade level in           •   TABE scores                                     needs of students
   school)                  •   No specific screening is done of all        •   Such screenings of all students,
                                students for cognitive disabilities;            however, are not generally used to
                                however, results of educational                 specifically identify cognitive disabilities
                                screening may indicate the need to              for immediate referral to formal
                                observe/monitor for possibility                 assessments

                            Results used to design individual learning
                            strategies & progress monitoring.
   Phase 1                  A teacher or other educational staff (or        General education teacher (or parent)
   Teacher Referral &       parent) determines that:                        determines student:
   Pre-Assessment           • Student is not making adequate                • Is “difficult to teach”
                                progress in the individualized curriculum   • Is not making progress as compared to
                            • Different strategies or additional                classmates or as expected
                                supports are needed                         • Has behavior problems

                            Teacher referral is made to Center Director     Teacher referral is made to obtain
                            Designee (CDD) who collects/reviews all         assistance from the pre-assessment team or
                            documentation, re-evaluates learning needs      teacher support system. Team
                            and instructional strategies, puts in place a   collects/reviews all documentation, conducts
                            revised instructional plan including teacher    problem-solving process, determines
                            assistance, monitors student progress           educational support plan to use in regular
                            against the plan.                               classroom setting, assists general education
                                                                            teachers, monitors progress against plan.
   Phase 2                  Lack of progress/continuation of learning       If pre-assessment team determines
   Formal Assessment        problems prompts another review by CDD,         continued lack of progress, student is
   & Testing                teacher, academic manager, and/or center        referred to the special education review
   (formal diagnostic       mental health consultant (CMHC). Together       committee for a determination of the need
   evaluation)              they review all documentation and               for formal assessment to qualify the student
                            determine if a formal assessment for            for special education services under IDEA.
                            cognitive disabilities is required. If yes,     If yes, student is referred for formal psycho-
                            student is referred for formal psycho-          educational testing & evaluation.
                            educational testing & evaluation.
   Phase 3                  Educational team (i.e., the Interdisciplinary   Placement committee reviews formal
   IEP Placement            Team (IDT)) reviews results of formal           assessment/testing results to make a
                            assessment/testing and develops                 decision regarding eligibility and
                            instructional intervention and                  classification for IDEA services. If yes, than
                            accommodations plan accordingly (the            Individual Education Plan (IEP) is prepared
                            Intervention Plan). Progress is reviewed        for student services in full-inclusion program
                            against the plan.                               (least restrictive environment), or a pull-out
                                                                            program for special education. Progress
                                                                            reviewed; re-evaluations usually annually.
   Note: Each step of the process is documented. For Job Corps, the Personal Career Development Plan (PCDP)
   process is used. For school systems, file documentation or other systems are used.




U.S. Department of Labor—Office of Inspector General                                                             115
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission


      •   Screening of ALL students for LD using a screening tool in the way OIG
          recommends is ill-founded because of the limited research cited by OIG, and
          results of a scientific study which suggests otherwise.

      Results of the New York and Texas Pilots

      The OIG cites the results of the New York State Welfare-to-Work (WtW) pilot program
      and its use of the Washington State-developed screening tool for LD and other cognitive
      disabilities as a particularly compelling reason for why Job Corps should start a similar
      screening program. The New York pilot program was started in 2001, with its most
      recent results reported as of January 2005. The screening tool was used with long-term
      TANF recipients, i.e., those who had not been successful in WtW activities. For those
      identified as at-risk by the screening tool, they were referred on for further assessment
      (diagnostic evaluations) by a licensed professional. The focus of the pilots was to
      uncover “hidden” disabilities that may have been interfering with their participation in
      WtW programs, i.e., in finding and retaining a job (work first) or involvement in other
      human services programs.

      NY reports that more than 75% of participants who screened positive using the tool
      were diagnosed with some type of cognitive or mental health issue (LD, mental
      retardation/borderline intelligence, multiple diagnoses, or mental health problems); 56%
      of those who had a diagnostic evaluation were found to have LD. Data reported by NY
      do not allow for determining what percent of the total screened population resulted in
      the LD diagnosis.

      In addition to NY, Texas is now piloting the Washington State screening tool in an effort
      to provide its One-Stop system with an inexpensive method to ensure that all individuals
      with learning, emotional, or behavioral disabilities have equal opportunity and access to
      all federally-funded workforce services. The current Texas pilot involves One-Stop
      customers who consent to the screen. As of May 2004 (brief interim report), 1658
      individuals were screened, 116 were referred on for diagnostic evaluations, and 81 were
      ultimately diagnosed with learning disabilities. Of the total sample screened so far, that
      represents 4.9% diagnosed with LD. Of the 116 who had a diagnostic evaluation/test,
      70% were diagnosed with LD.

      What is known from the reports on these studies strongly suggests that:

      •   The screening tool was not used by NY or TX to identify “learning” issues in an
          educational context. It was used for long-term TANF, workplace accommodation
          needs or issues, or an effort to ensure civil rights under the law for One-Stop
          customers.

      •   No information was provided in the reports concerning validity testing of the
          screening tool, however, it appears that the tool has been validated (i.e., reliability



116                                                U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

       and internal consistency testing, criterion validity testing to correlate scores with the
       scores from other screening tools known to work, and construct validity).

   •   It does not appear that either pilot test used the screening tools with ALL TANF
       participants or ALL One-Stop customers.

   •   NY’ pilot test study indicates that the tool is to be used after there is a suspicion on
       the part of the case manager that there may be possible unidentified barriers to work
       activities, and is to be administered on a voluntary basis. When screened positive, a
       formal diagnostic evaluation would then be conducted to determine significant
       discrepancy between abilities and performance in such areas as reading, writing,
       and math.

   •   The pilot results and the methodologies used, as reported, raise concerns about the
       efficacy of such screening tools for Job Corps.

   Scientific research on the Smith Learning Disabilities Screen, a similar tool.

   A recent scientific study of the development and validation of the Smith Learning
   Disabilities Screen for adult use with community college and university students (Smith
   & Wiener, 2002) is very instructive and further illustrates why the OIG recommendation
   is ill-founded. The screening tool was developed to provide a simple way for helping
   professionals to identify those adults who are likely to have learning disabilities and
   should be referred for diagnostic assessment (same reasons essentially for the
   screening tools OIG is suggesting). The tool’s validation results indicated that it
   appeared to identify adults with learning disabilities with at least 75% accuracy. Based
   on these results, the researchers noted the following caveats concerning its use:

   •   “The tool is a screen and should not be used as a substitute for a diagnostic
       assessment.

   •   It should not be administered to large numbers of individuals who have no reason to
       believe they might have learning disabilities, as false positive scores could then lead
       to unnecessary concerns by individuals who do not have learning disabilities.

   •   The tool is intended to be administered in the case of an individual who is
       experiencing some difficulties in adjustment or achievement, and is seeking an
       explanation for the problems.

   •   Individuals should provide informed consent prior to completing the test.

   •   Referrals should be made for psycho-educational assessment at or above the cut-off
       score AND there is a history of academic or vocational struggles.” (Smith & Weiner,
       2002, p.14-15)


U.S. Department of Labor—Office of Inspector General                                               117
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission




      Conclusion — Assumption #2

      Although Job Corps Is Not Legislatively Required to Specifically Assess All
      Students for Cognitive Disabilities, Doing So Falls Within the Overall Mission and
      Purpose of the Program. (July Draft)

      Although Job Corps is not legislatively required to specifically assess ALL
      students for cognitive disabilities, doing so would help Job Corps achieve the
      program’s overall mission and purpose. (September Draft)

      The OIG clearly states in its report that it has not evaluated the suggested screening
      tools, but recommends that Job Corps launch a cognitive disabilities screening program
      after careful examination and selection of an appropriate tool. However, the OIG’s
      recommendation IS BASED on the assumption that these kinds of tools work well (as
      “quick screens”), and can and should be used with ALL Job Corps students. As this
      analysis points out, OIG’s conclusion is founded on general qualitative studies and its
      recommendation is not supported by scientific evidence. To the contrary, the one
      scientific study this White Paper cites strongly suggests such screening tools should not
      be administered to everyone.


      ASSUMPTION #3: JOB CORPS’ STUDENT POPULATION IS AT-RISK FOR
      COGNITIVE DISABILITIES.

      The OIG notes that studies indicate “similarity in the characteristics of cognitive disabled
      youth and Job Corps’ student population suggest that a disproportionate number of
      cognitive disabled youth enroll in the program.” Those characteristics include
      “economically disadvantaged, high school dropout, below eighth grade reading level,
      and never held a full-time job.”

      What the academic research says.

      The academic literature cited under assumption #2 (see pages 12-18) illustrates how
      LD, and other cognitive disabilities, may be misdiagnosed or misclassified within the
      public school systems and how the low-income, low-achieving public school population
      (including drop-outs) may be more at-risk of misdiagnosis. While much has been said
      and written in the literature about the higher incidence of LD among high school
      dropouts, among those who are poor/low-income, and so forth, one could use the
      literature previously cited to reasonably argue that the similarity in characteristics
      among cognitively disabled youth and Job Corps students may be more about their
      commonality concerning low achievement due to environmental factors associated with
      poverty than it is about “real” LD (cognitive dysfunction). Indeed, sorting out “real” LD


118                                               U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   from low-achievement due to other factors is not an exact science by any means,
   especially when the predominant approach is based on IQ-achievement discrepancy.

   Furthermore, it appears that the OIG is linking cognitive disabilities to characteristics
   that describe a large percentage of the youth in this country. For example:

       •   The majority (68%) of U.S. 8th graders are not reading at grade level. According
           to a Rand Research Brief titled Meeting Literacy Goals Set by No Child Left
           Behind (2004), 32% was the average proficiency rate in Reading for 8th graders
           on the 2003 National Assessment of Educational Progress.

       •   Approximately one-third of U.S. 9th graders will not graduate from high school in
           four years with a high school diploma in 12th grade, according to the Harvard
           University Civil Rights Project (Orfield et al., 2004).

       •   Thirty-eight percent of US children live in low income families. (National Center
           for Children in Poverty 2005).

    Additional insights from the SRI study used by the OIG.

   The SRI Longitudinal Study 1 and Study 2 (commissioned by OSEP) are designed to
   document the experiences and outcomes of secondary-school age youth with
   disabilities who were receiving special education services at the time. Study 2 is
   specifically designed to assess the current status of youth with disabilities and how they
   differed from their predecessors (study 1 cohort). A number of reports are available
   from Study 2 including the report on Individual and Household Characteristics of Youth
   with Disabilities used by the OIG. This is a very rigorous study; however, the data cited
   by the OIG concerns all disabilities, not just LD, and some of the most salient findings
   for purposes of this discussion come from a different report released by SRI.

   In the Youth with Disabilities, A Changing Population, April 2003 report (comparison of
   the study 1 and study 2 cohorts), SRI data analysis provides insights as to whether the
   incidence of LD among Job Corps students may be on the rise or not, making the entire
   population more or less “at-risk” for LD. Changes in the composition of 15-17 year-olds
   with disabilities (all disabilities) cited by SRI include:

   •   Racial/ethnic makeup of youth with disabilities has become more like that of the
       general population

   •   Proportion of youth who were at the typical age for their grade level increased from
       one-third of youth to more than one-half between 1987 and 2001 (SRI says this is a
       powerful predictor of not dropping out).

   •   Youth with disabilities were less likely to be living in poverty in 2001 than in 1987,
       although despite the closing income gap, youth with disabilities still were more likely

U.S. Department of Labor—Office of Inspector General                                               119
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

          than other youth to live in households with the risk factors of low income,
          unemployment, and so forth

      •   The one-year drop-out rate for youth with disabilities was cut in half in the years
          between the two studies, with the rate in 2001 for youth with disabilities being
          significantly lower than the rate in the general population.


      Conclusion — Assumption #3

      Job Corps’ Student Population Is At-Risk for Cognitive Disabilities.

      Based on the academic research literature on prevalence rates and the ways in which
      over-identification of cognitive disabilities, especially LD, occurs in public school
      systems, and the characteristics that describe a large number of the youth in this
      country, it is difficult to argue that the Job Corps student population is more at-risk than
      any other group. In particular, the SRI study of changes over time (although the report’s
      analysis was for all disabilities, not just cognitive disabilities), seems to suggest that it
      has become less likely for students with cognitive disabilities to drop out and less likely
      for them to be living in poverty, hence, they may be less likely to become Job Corps
      students. Overall, all that can be agreed to with certainty is that Job Corps students are
      at-risk for low achievement. And, low achievement is NOT the same as a learning
      disability.


      ASSUMPTION #4: EFFECTIVE IDENTIFICATION AND ACCOMMODATION WOULD
      ADDRESS SIGNIFICANT BARRIERS TO EMPLOYMENT AND IMPROVE THE
      PROGRAM’S STUDENT OUTCOMES.


      •   Based on what impact data does the OIG make this claim?

      The OIG notes that national and regional studies discussed in its report indicate student
      outcomes would improve with effective identification and accommodation. None of the
      studies cited in the OIG report appear to be net impact evaluations, either using
      experimental or quasi-experimental designs. How can the OIG make the absolute claim
      that actions it is recommending would “improve the program’s student outcomes?”
      Please clarify how and where in the studies cited outcomes were impacted as a direct
      result of effective identification or effective accommodation?

      While the Weber Basin example of improvement on outcomes cited by the OIG is
      useful, without a random assignment or quasi-experimental net impact study there is no
      way to really know for sure what contributed to the improved outcomes (i.e., was it the
      screening process or was it improved instructional strategies for all students or was it
      improved strategies just for those determined to be cognitively disabled or was it a very
      specific strategy or was it something else?). According to a follow-up discussion with the

120                                                U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   Weber Basin special education teacher, who is a school district employee, Job Corps
   students at this center are identified for cognitive disabilities using the process outlined
   in TAG G. Increases in performance cited by the OIG were therefore likely due to the
   type of instructional strategies and assistance provided by the teachers, not because
   the center used a more comprehensive assessment process. This underscores the
   importance of impact studies in determining actual reasons for such improvements.

   •   Job Corps already employs key instructional strategies (“accommodations”)
       proven to work with LD students and considered useful for all learners,
       including an effective educational screening process for all students.
       Changes in the Job Corps LD identification process as recommended by OIG
       would not likely affect the performance outcomes of students.

   Rigorous research on instructional strategies proven to work for LD students suggests
   that Job Corps is using some of the state-of-the art learning approaches for all of its
   students including those with LD. Swanson, in conjunction with various others (1996,
   1998, 2001) has conducted a comprehensive meta-analysis of experimental
   instructional (intervention) research with samples of children and adolescents with LD
   (as reported in Swanson, 2000). Over 900 studies were examined, with only 10
   determined as meeting high methodological standards. Although most studies were
   found to be poorly designed, key findings for the 10 high-quality studies include:

   •   Instructional areas for which there is considerable, solid what works research are in
       the domains of reading (e.g., word recognition, reading comprehension.).

   •   “Only 30% of the total number of instructional components (e.g., appropriate
       sequencing, reminders to use strategies, small group instruction) of the total that
       were coded contributed significant variance to treatment outcomes.”

   •   A combined instructional approach that includes both strategy and direct instruction
       positively influences reading comprehension performance.

   •   Direct instruction improves word recognition.

   Although Swanson states that much more “intervention” research is needed, including
   studies that follow-up or provide for independent replication, and studies of other
   domains beyond reading, the results of the meta-analysis are instructive.

   Deshler (2005) points to some additional strategies shown to work in interventions
   research both Deshler and Swanson conducted on adolescents with learning
   disabilities. These strategies include, for example, questioning, sequencing and
   segmentation, explicit skill modeling and practice, and highly intensive instruction
   (amount of time in instruction and how effectively each instructional moment is used).
   The two further state that while we know more today about what instructional strategies



U.S. Department of Labor—Office of Inspector General                                               121
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

      work with older students who are LD, what is not happening in school systems is their
      application with fidelity and intensity.

      Furthermore, Forness and Kavale (2001), in their research on assessment and
      interventions for those with ADHD, stress behavioral strategies plus instructional
      strategies such as:

         •   Providing additional structure through shortening or changing the format of
             lessons, careful scheduling of tasks, use of prompts or visual cues, and more
             frequent breaks during lessons.

         •   Individualized instruction through one-to-one teaching, assistant teachers, or
             after-school tutors.

         •   Cognitive approaches such as self monitoring, self evaluation, and self
             reinforcement.

         •   Cooperative learning through peer tutoring or shared assignments.

         •   Social skills training and monitoring for problematic social interactions.

      Forness and Kavale also note these school interventions are not markedly different from
      those already developed and found to be effective for a wide variety of children with
      learning or behavioral disorders other than ADHD.

      The Job Corps’ Technical Assistance Guide on Learning Disabilities and Attention
      Deficit Hyperactive Disorder and the Job Corps’ Policy and Requirements Handbook,
      emphasize strategy instruction and direct instruction for working with LD students, and
      all students. And, nearly all of the other instructional strategies listed above are also
      stressed by Job Corps by these two policy and guidance documents. It is also
      important to note that according to the Council for Exceptional Children (CEC), strategy
      instruction, while once focused primarily on LD students, is now being examined by
      researchers as a strategy useful for all learners (CEC/ERIC Digest, December 2002).

      On a final note, the Response-to-Intervention approach is an alternative LD
      identification and classification model being suggested by the researchers of NRCLD
      and others, and included in IDEA 2004 as an approach school districts could choose to
      use, if desired. It is considered by many in the LD research area as a leading-edge
      alternative to the IQ-discrepancy approach despite the fact that there is no current
      scientific-based research support for its efficacy (new research has been funded by
      OSEP to examine its use in couple of large school districts that have been using it for a
      while). One of the features of this model is universal screening similar to what Job
      Corps currently does (not what OIG is recommending). The approach, as described by
      Mellard, NRCLD Principal Investigator (September 2004 briefing paper, p.2) defines the
      universal screening component of the model as follows:


122                                               U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

          “School staff conducts universal screening of academics and behavior. This
          feature focuses on specific criteria for judging the learning and achievement of all
          students, not only in academics, but also in related behaviors (e.g., class
          attendance, tardiness, truancy, suspensions, and disciplinary actions). Those
          criteria are applied in determining which students need closer monitoring or an
          intervention.”

   In sum, Job Corps already conducts universal academic screening, further illustrating
   that its current processes are sound and in “good company.”


   Conclusion — Assumption #4

   Effective Identification and Accommodation Would Address Significant Barriers
   to Employment and Improve the Program’s Student Outcomes.

   Job Corps believes it already has an effective cognitive disabilities identification
   process, although continued improvements in disability data collection, verification, and
   reliability are no doubt warranted to ensure that all cases are properly documented and
   counted (per OIG objective #4). As pointed out, the Job Corps identification process is
   similar to public school system practice, and some aspects are on the “cutting edge”
   (e.g., use of universal educational screening and instructional practices such as direct
   instruction and strategy instruction). In the overall context of Job Corps’ future vision
   and the systemic changes it is contemplating, some of the issues raised by the OIG will
   be important to consider during the strategic planning process in the context of quality
   improvement to better educate and serve its students, the number one goal for Job
   Corps.




U.S. Department of Labor—Office of Inspector General                                               123
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

      References

      Ahearn, Eileen/Muller, Eve (May 2004). Alternative schools and students with
      disabilities: current status and emerging issues. Quick Turn Around Forum.
      (http://www.nasdse.org/publications.cfm)

      Blair, Clancy & Scott, Keith G. (2002). Proportion of LD placements associated with low
      socioeconomic status: evidence for a gradient. Journal of Special Education, 36:1, pp
      14+. (journal article from questia.com on-line library.)

      Congressional Research Service, Library of Congress. (January 5, 2005). CRS report
      for Congress—Individuals with Disabilities Education Act (IDEA): Analysis of changes
      made by P.L. 108-446. (from the CRS web; order code RL32716)

      Council for Exceptional Children. (December 2002). Strategy instruction. ERIC
      Clearinghouse on Disabilities and Gifted Children, ERIC EC Digest #E638
      (http://ericec.org/digests/e638.html)

      Danielson, Lou (December 2003). Luncheon address to the Responsiveness-to-
      Intervention Symposium, 2003. U.S. Department of Education/Office of Special
      Education Programs, Director, Research to Practice Division.
      (www.nrcld.org/symposium2003/danielson.html)

      Dean, Vincent J & Burns, Matthew K. (Summer 2002). Inclusion of intrinsic processing
      difficulties in LD diagnostic models: a critical review. Learning Disability Quarterly, 25,
      pp.170-176.

      Desher, Donald D. (Spring 2005). Adolescents with learning disabilities: Unique
      challenges and reasons for hope. Learning Disability Quarterly, 28, pp. 122+.

      Elksin, Linda K. et al. (Fall 2001). LD summit: important issues for the field of learning
      disabilities. Learning Disability Quarterly, 24, pp 297-305. [note: this article
      summarizes the nine White Papers commissioned by OSEP for the 2001 LD summit.]

      Forness, Steven R. and Kavale, Kenneth A. (2001). ADHD and a return to the medical
      model of special education. Education and Treatment of Children, 24:3, pp. 224+

      Fuchs, Douglas & Fuchs, Lynn S. (2001). Is “learning disabilities” just a fancy term for
      low achievement? A meta-analysis of reading differences between low achievers with
      and without the label. White paper presented at the LD Summit—Building a Foundation
      for the Future, August 2001. (www.nrcld.org/resources/ldsummit/index/shtml)

      Fuchs, Douglas & Deshler, Donald D., & Reschly, Daniel J. (Fall 2004). National
      Research Center on Learning Disabilities: multimethod studies of identification and
      classification issues. Learning Disability Quarterly, 27, pp. 189-195.


124                                               U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   Gresham, Frank M. (2001). Responsiveness to intervention: An alternative approach to
   the identification of learning disabilities. White paper presented at the LD Summit—
   Building a Foundation for the Future, August 2001.
   (www.nrcld.org/resources/ldsummit/index/shtml)

   Harvard Civil Rights Project, Losen, Dan and Orfield, Gary, eds. (2002). Racial
   inequality in special education. Cambridge, MA: Harvard Education Publishing Group.

   Horowitz, Sheldon H. (2005). Response-to-intervention: A primer. National Center for
   Learning Disabilities, LD InfoZone. (www.ld.org/newsltr/0705newltr/0705research.cfm)

   Job Corps. (April 2003). Technical assistance guide G: Learning disabilities and
   attention deficit hyperactive disorder. Job Corps, Employment and Training
   Administration, U.S. Department of Labor.

   Job Corps. (2005). Policy and requirements handbook. Job Corps, Employment and
   Training Administration, U.S. Department of Labor.

   Kavale, Kenneth, Holdnack, James A., & Mostert, Mark P. (Winter 2005).
   Responsiveness to intervention and the identification of specific learning disability: A
   critique and alternative proposal. Learning Disability Quarterly, 28, pp. 2-16.

   2004 Learning Disabilities Roundtable. (February 2005). Comments and
   recommendations on regulatory issues under the Individuals with Disabilities Education
   Improvement Act of 2004, Public Law 108-446. Learning Disabilities Roundtable—14
   National Organizations, Consensus Development Group. (www.ncld.org)

   MacMillian, Donald L. & Siperstein, Gary N. (2001). Learning disabilities as
   operationally defined by schools. White paper presented at the LD Summit—Building a
   Foundation for the Future, August 2001.
   (www.nrcld.org/resources/ldsummit/index/shtml)

   Mellard, Daryl. (September 2004). Understanding responsiveness to intervention in
   learning disabilities determination. NRCLD on-line briefing paper
   (www.nrcld.org/publications/index.shtm.

   Mellard, Daryl F., Bryd, S. E., Johnson, Evelyn, Tellefson, Julie M., & Boesche, Liz. (Fall
   2004). Foundations and research identifying model responsiveness-to-intervention
   sites. Learning Disability Quarter, 27, pp. 243-256.

   Montgomery County, Maryland Public Schools. (June 2001). Maryland technical
   assistance guide—Identifying learning disabilities. Maryland State Department of
   Education. (www.k12.md.us/departments/schoolservices.shtm)




U.S. Department of Labor—Office of Inspector General                                               125
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission

      National Association of State Directors of Special Education, Inc. (January 2004).
      Primer on special education and charter schools—state matrix; background & hot topic:
      funding for special education. NASDSE. (www.uscharterschools.org/cs/spedp)

      National Center for Children in Poverty (July 2005). Basic facts about low income
      children, New York: Columbia University (http:www.nccp.org)

      National Research Center on Learning Disabilities, LD Initiative Work Group. (2001).
      Specific learning disabilities: building consensus for identification and classification.
      White paper on consensus statements resulting from the LD Summit—Building a
      Foundation for the Future, August 2001. .
      (www.nrcld.org/resources/ldsummit/index/shtml)

      National Research Council, Donovan, M. Suzanne and Cross, Christopher T., eds.
      (2002). Minority students in special and gifted education, Washington, D.C.: National
      Academy Press.

      Orfield, G., Losen, D., Wald, J., & Swanson, C. (2004). Losing our future: How minority
      youth are being left behind by the graduation rate crisis. Cambridge, MA: The Civil
      Rights Project at Harvard University. Contributers: Advocates for Children of New York,
      The Civil Society Institute. (http://www.civilrightsproject.harvard.edu)

      Ormsbee, Christine (2001). Effective preassessment team procedures: making the
      process work for teachers and students. Intervention in School and Clinic, 36:3, pp146+
      (journal article from questia.com on-line library.)

      Rand (2004). Meeting literacy goals set by No Child Left Behind. Research brief.
      http://www.rand.org/publications/RB/RB9081/

      Reschly, Daniel J., Hosp, John L., & Schmied, Catherine M. (2003). And miles to
      go…state SLD requirements and authoritative recommendations. National Research
      Center on Learning Disabilities (NRCLD). (www.nrcld.org/publicatons/index.shtml).
      Also as published journal article: Reschly, Daniel J. & Hosp, John L. (Fall 2004). State
      SLD identification policies and practices. Learning Disability Quarterly, 27, pp. 197-213.

      Smith, M. Catherine & Wiener, Judith. (1999). Development and validation of the Smith
      Learning Disabilities screen. Journal of College Reading and Learning, 30:1, pp. 62+.
      (journal article from questia.com on-line library).

      Spear-Swerling, Louise & Sternberg, Robert J. (1998). Curing our epidemic of learning
      disabilities. Phi Delta Kappan, 79: 5, pp. 397+. (journal article from questia.com on-line
      library)

      SRI International, (August 2003). The individual and household characteristics of youth
      with disabilities: executive summary from a report from the National Longitudinal


126                                               U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                       Strengthening Efforts to Assess and Account for
                                                                   Students with Cognitive Disabilities
                                                             Would Help Job Corps Achieve Its Mission

   Transition Study-2 (NLTS2). Prepared for Office of Special Education Programs, U.S.
   Department of Education. (www.nlts2.org)

   SRI International, (April 2003). Youth with disabilities: a changing population--executive
   summary from a report from the National Longitudinal Transition Study-2 (NLTS2).
   Prepared for Office of Special Education Programs, U.S. Department of Education.
   (www.nlts2.org)

   State of New York, Department of Labor. (January 2005). Welfare-to-Work Learning
   Disabilities Pilot Projects: Overview. NYS Department of Labor, Division of Employment
   Services, Office of Welfare-to-Work Programs. (www.labor.state.ny.us/welfare2work)

   State of Texas, Texas Workforce Commission, Workforce Development Division.
   (March/April, 2004). Addressing learning disabilities in the workforce system.
   (research.eval@twc.state.tx.us)

   State of Texas, Texas Workforce Commission, Workforce Development Division. (June
   2004). Learning disabilities screening project. (research.eval@twc.state.tx.us).

   State of Texas Education Code. Title 2. Public Education. Subtitle A. General
   Provisions. Chapter 4. Public Education Mission, Objectives, and Goals.
   (http://www.capitol.state.tx.us/statutes/docs/ED/content/htm/ed.002.00.000004.00.htm)

   Swanson, H. Lee (2000). Issues facing the field of learning disabilities. Learning
   Disability Quarterly, 23: 1, pp. 37+.

   U.S. Census Bureau, Current Population Reports, SIPP. (February 2001). Americans
   with disabilities: household economic studies—based on data from the 1997 Survey of
   Income and Program Participation-SIPP. (www.census.gov/hhes/www/disability/sipp)

   U.S. Department of Education, National Center for Education Statistics. (2005). The
   condition of education 2005, indicator 6, children with selected disabilities in public
   schools. NCES 2005-094, Washington, D.C.: U.S. Government Printing Office.

   U.S. Department of Education, Office for Civil Rights. (2000). Elementary and
   secondary school survey; table 1-state and national projections for enrollment and
   selected items by race/ethnicity and sex (user-defined data retrieval for specific learning
   disabilities). (http://205.207.175.84/ocr2000r)

   U.S. Department of Education, Office for Civil Rights. Protecting students with
   disabilities: frequently asked questions about section 504 and the education of children
   with disabilities (IDEA). (www.ed.gov/about/offices/list/ocr/504faq.html?exp=0)

   U.S. Department of Education, Office of Special Education and Rehabilitation Services,
   Office of Special Education Programs (2003). Identifying and treating attention deficit
   hyperactivity disorder: A resource for school and home, Washington, D.C.

U.S. Department of Labor—Office of Inspector General                                               127
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission


      U.S. Department of Education (2002). 24th Annual Report to Congress on the
      Implementation of the Individuals with Disabilities Education Act. Washington, D.C.:
      U.S. Department of Education.

      U.S. Department of Health and Human Services, Center for Disease Control, National
      Center for Health Statistics. (March 2004). Summary health statistics for U.S. children:
      national health interview survey, 2002. Vital and health statistics, series 10, no. 221
      (3/04) (http://www.cdc.gov/nchs/data/series/sr_10/sr10_221.pdf)

      U.S. Department of Labor, Employment and Training Administration. (1991). The
      learning disabled in employment and training programs. Research and Evaluation
      Report Series 91-E. Washington, D.C.: U.S. DOL.
      (http://wdr.doleta.gov/opr/fulltext/document.cfm?docn=107)




128                                               U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 09-06-001-03-370
                                                                    Strengthening Efforts to Assess and Account for
                                                                                Students with Cognitive Disabilities
                                                                          Would Help Job Corps Achieve Its Mission

                 AGENCY RESPONSE TO OIG DRAFT AUDIT REPORT
                               ATTACHMENT
                                                       Appendix B

                                      Identification and Assessment of
                                     Students with Cognitive Disabilities

                          Core Response-to-Intervention (RTI) Features
                       Compared to What Job Corps Currently Requires/Does

                  Core RTI Features                             What Job Corps Currently Requires/Does
      As Applied to Public Schools Under IDEA*                         ( ) = TAG G Page References
   Universal Screening.                                     Universal Screening

   School staff conducts universal screening of             Job Corps staff conducts a universal assessment
   academics and behavior. This feature focuses on          process that identifies every student’s preferred
   specific criteria for judging the learning and           learning modality & his/her individual strengths &
   achievement of ALL students, not only in academics       weaknesses; process is conducted soon after
   but also in related behaviors (e.g., class attendance,   enrollment/arrival on center during the Career
   tardiness, truancy, suspensions, and disciplinary        Preparation Period and includes:**
   actions). Those criteria are applied in determining      •    Administration of the TABE (reading & math) to
   which students need closer monitoring or an                   place student in appropriate academic level
   intervention.                                            •    Administration of learning style inventories to
                                                                 identify student learning preferences (how
                                                                 student prefers to intake and output information-
                                                                 auditory, visual, kinesthetic)
                                                            •    Administration of various goal-setting activities
                                                            •    Administration of various career exploration
                                                                 processes/tools to assist student in determining
                                                                 vocational training
                                                            Development of individual, self-paced instructional
                                                            strategies based on the above assessments for both
                                                            academic and technical learning needs
   High quality classroom instruction—students are          High quality classroom instruction—students are
   provided with empirically validated, research-based      provided with empirically validated, research-based
   instruction.                                             instruction.

   Students receive high quality instruction in their       Instructional staff deliver curriculum instruction
   general education setting. Before students are           strategies based on results of universal assessments
   singled out for specific assistance, one has to have     such as the following strategies which are
   an assurance that the typical classroom instruction      recommended for use by instructional staff for any/all
   is of high quality. This quality can be assessed by      students:
   comparing students’ learning rates and                   •    Curriculum/instruction based on universal design
   achievement in different classrooms at the same               (pg. 40)
   grade level.                                             •    MAP program, when appropriate (pg. 41)
                                                            •    Visualizing and Verbalizing to stimulate concept
   General education’s classroom practices and the               imagery, when appropriate (pg. 43)
   curriculum vary in their efficacy. Thus, ensuring that   •    Orton-Gillingham, a diagnostic-prescriptive
   the practices and curriculum have demonstrated                approach, when appropriate (pg. 43)
   their validity is important. If not, one cannot be       •    Cognitive & metacognitive approaches (pg. 45)
   confident that students’ limited gains are               •    Direct instruction & information processing
   independent of the classroom experiences.                     instruction techniques (pg. 48)
                                                            •    Strategy instruction (e.g., Strategy Integration
                                                                 Model—pg. 49)




U.S. Department of Labor—Office of Inspector General                                                                 129
Report Number: 09-06-001-03-370
Strengthening Efforts to Assess and Account for
Students with Cognitive Disabilities
Would Help Job Corps Achieve Its Mission
                    Core RTI Features                            What Job Corps Currently Requires/Does
       As Applied to Public Schools Under IDEA*                         ( ) = TAG G Page References
      Classroom performance—Progress is monitored         Classroom performance—Progress is monitored
      continuously.                                       continuously.

      General education instructors and staff assume      •   All students progress is monitored—depending on
      an active role in students’ assessment in the           initial TABE score, the TABE may be re-administered;
      general education curriculum. This feature              also, periodic testing is done on skill or academic
      emphasizes the important role of the classroom          mastery based on self-paced curriculum of the
      staff in designating and completing student             student; continuous instructor observation of learning
      assessments rather than relying on externally           process
      developed tests (e.g., state or nationally          •   TABE is used as early indication of need for special
      developed tests.)                                       assistance--if score is under 500 on reading and/or
                                                              math component, student is monitored & observed
      In RTI models, one expects students’ classroom          very carefully for at least 4 weeks, prior to re-testing.
      progress to be monitored continuously. In this          Also, each center can determine its own TABE cutoff
      way, staff can readily identify those learners          and appropriate amount of time before a referral is
      who are not meeting the benchmarks or other             made for specific LD assessment.
      expected standards. Various curriculum-based        •   Each center has a process for a staff person who
      assessment models are useful in this role such          suspects a student may have a LD (regardless of
      as Curriculum-Based Measurement (CBM) (see              TABE score) to refer that student to the Center
      for example, Fuchs, Fuchs & Compton, 2004).             Director Designee (CDD) -- see sample referral form,
                                                              pg. 34).

      Research-based interventions—Students who           Research-based interventions—Students who do not
      do not respond to high quality classroom            respond to high quality classroom instruction receive
      instruction receive either more intensive or        either more intensive or different instruction, and progress
      different instruction, and progress continues to    continues to be monitored.
      be monitored.                                       For those who scored below 500 or other center-defined
                                                          cut-off, after careful observation of performance for the 4
      When students’ screening results or progress        weeks & if student is having or continues to have
      monitoring results indicate a deficit, an           problems regardless of TABE score:
      appropriate instructional intervention is           •    Teacher notifies CDD who will look for previous
      implemented, perhaps an individually designed            documentation of a learning disability—reviews
      instructional package or a standardized                  students records, asks student about previous special
      treatment. The standardized treatment                    education services, collects additional data as
      protocols are the interventions that researchers         needed
      have validated through a series of studies.         •    Teacher documents problems noticed and provides
      School staff is expected to implement specific,          more intensive interventions to help the student deal
      research-based interventions to address the              with the problems for the next 2-week period (after
      students’ difficulties. These interventions might        the initial 4-week period) by assessing the types,
      include a “double-dose’ of the classroom                 frequency, and severity of difficulties observed,
      instruction or a different instructional method.         including the following:
      These tailored, research-based interventions             1. Does the student consistently score poorly on
      are 8-12 weeks in length and are designed to                  certain skill tasks?
      increase the intensity of the learner’                   2. Were or are there extenuating
      instructional experience.                                     factors/distractions such as a noisy or too hot or
                                                                    cold room, etc.?
      School staff uses progress-monitoring data to            3. When these extenuating factors are remedied,
      determine interventions’ effectiveness and to                 does the performance improve?
      make any modifications as needed. Carefully              4. What does the student know of his/her learning
      defined data are collected, perhaps daily, to                 difficulties or disabilities?
      provide a cumulative record of the learner’s             5. Have instructional opportunities been provided
      response to intervention.                                     using a student’s preferred learning modality?
                                                               6. Are there any other circumstances surrounding
                                                                    student’s poor performance?
                                                               7. Ask student how feel about progress, what
                                                                    instructional strategies help, don’t’ help?
                                                               8. Review classroom assessment data (test results,
                                                                    portfolio review, etc.) and observation notes



130                                                            U.S. Department of Labor—Office of Inspector General
                                                                                   Report Number: 09-06-001-03-370
                                                                  Strengthening Efforts to Assess and Account for
                                                                              Students with Cognitive Disabilities
                                                                        Would Help Job Corps Achieve Its Mission


                 Core RTI Features                          What Job Corps Currently Requires/Does
    As Applied to Public Schools Under IDEA*                      ( ) = TAG G Page References
   Failure to Respond.                               Failure to Respond.

   A failure to respond to all interventions may     •    After sufficient trying of various interventions, and
   qualify student for special education—those            observation/documentation thereof, and student still
   who fail to respond to empirically validated           unable to master various skills deficits or demonstrate
   treatments implemented with integrity might be         program competencies, student is directly referred to
   identified as LD automatically or would be             the CDD using the sample referral form, pg. 34)
   referred for psychological assessments, then      •    CDD then meets with the instructor, academic
   development of a special education Individual          manager and/or center mental health consultant
   Education Plan under IDEA, as determined               (CMHC) to determine if formal testing is necessary. If
   appropriate.                                           yes, student begins the center’s process for formal
                                                          testing or receives an off-center referral (for
   Note about RTI emphasis: RTI emphasis is on            psychological assessment).
   treatment validity (Fuchs & Fuchs 1998) which     •    Based on formal assessment, an intervention plan is
   moves the identification process away from             developed, based on recommendations from the
   diagnosing deficits such as with the IQ-               professional who is interpreting the diagnostic
   discrepancy approach to examining student              assessments. Members of the student’s
   outcomes.                                              interdisciplinary team (IDT) and the CDD then use
                                                          these recommendations to develop an intervention
   Note about fidelity measures: While the                plan.
   interventions are designed, implemented, and      •    Teacher then uses the intervention plan along with
   assessed for their learner effectiveness (per          the knowledge of the student’s preferred learning
   each phase above), fidelity measures are               modality to develop new, appropriate strategies for
   completed that focus on those individuals              use in the classroom.
   providing the instruction. The fidelity measure
   provides the information that the intervention
   was implemented as intended and with
   consistency. Staff members other than the
   classroom teacher have an important role in
   completing the fidelity measures, which are
   usually an observational checklist of critical
   teaching behaviors.


   *Adapted from Mellard, Daryl. NRCLD Principal Investigator. Understanding Response to Intevention in Learning
   Disabilities Intervention, 9/15/04, internal briefing paper (www.nrcld.org), and Fuchs, Moch, Morgan, & Young. 2003
   as cited in Kavale, LDQ Winter 2005, and Gresham, 2002 as cited in Kavale, LDQ Winter 2005, and Fuchs & Fuchs,
   1998 as cited in Kavale, LDQ Winter 2005.

   **As with universal screening under RTI, center assessments are not specific LD screenings, but rather universal
   screenings to determine learning needs.




U.S. Department of Labor—Office of Inspector General                                                                     131
Report Number: 09-06-001-03-370
